1a
United States Court of Appeals
For the Eighth Circuit
__________________________
No. 18-2423
__________________________
Victor Bernard Williams, M.D.
Plaintiff - Appellant
v.
Baptist Health, doing business as Baptist Health Medical
Center; Douglas Weeks, Individually and in his Official
Capacity as Sr. Vice-President and Administrator;
Everett Tucker, M.D., Individually and in his Official
Capacity as a Member of the Credentials Committee;
Tim Burson, M.D., Individually, and in his Official
Capacity as Chief of Surgery and Chairperson of the
Surgery Control Committee; Scott Marotti, M.D.,
Individually, and in his Official Capacity as a Member of
the Surgery Control Committee; Susan Keathley, M.D.,
Individually, and as Chairperson of the Credentials
Committee; Chris Cate, M.D., Individually, and as
Chairman of the Executive Committee and Chief of
Staff; Surgical Clinic of Central Arkansas; John E.
Hearnsberger, II, M.D., Individually; Joseph M. Beck,
M.D., Individually; Charles Mabry, M.D., Individually;
James Counce, M.D., Individually
Defendants - Appellees
_________________
Appeal from United States District Court

2a
for the Eastern District of Arkansas - Little Rock
_________________
Submitted: May 23, 2019
Filed: May 29, 2019
[Unpublished]
_________________
Before BENTON, STRAS, and KOBES, Circuit Judges.
_________________
PER CURIAM.
Victor Williams, M.D., filed this action against
a medical center, six of its employees, a surgical clinic,
two members of the Arkansas State Medical Board, and
two of the Medical Board’s consulting physicians alleging
a conspiracy to revoke his medical license in violation of
state law and 42 U.S.C. §§ 1981, 1982, and 1983.
Willams appeals the district court’s1 dismissal of his
claims against numerous defendants, and grant of
summary judgment against the remaining defendants.
After careful de novo review, see Marsh v. Phelps Cty.,
902 F.3d 745, 751 (8th Cir. 2018) (de novo review of grant
of summary judgment); Smith v. Johnson, 779 F.3d 867,
870 (8th Cir. 2015) (de novo review of dismissal based on
res judicata), we affirm.
We agree with the district court that Williams’s
claims against several defendants were barred by res
judicata. See Finstand v. Beresford Bancorporation,
Inc., 831 F.3d 1009, 1014 (8th Cir. 2016) (federal suit was
barred because, under state law, prior judgment
1

The Honorable James M. Moody, Jr., United States District
Judge for the Eastern District of Arkansas.

3a
precluded claims that could have been raised in prior
actions); Baptist Health v. Murphy, 373 S.W.3d 269, 278
(Ark. 2010) (when case is based on same events as first
lawsuit, res judicata applies even if second lawsuit raises
new legal issues and seeks additional remedies). We
conclude that the district court properly granted
summary judgment for the remaining defendants, as
those claims were barred by absolute quasi-judicial or
statutory immunity. See Ark. Code Ann. § 17-80103(West 2018) (amended 2019) (no individual acting on
behalf of medical board shall be liable for action taken or
recommendation made within scope of board’s functions);
Briscoe v. LaHue, 460 U.S. 325, 345 (1983) (extending
absolute judicial immunity to witnesses); Buser v.
Raymond, 476 F.3d 565, 570-71 (8th Cir. 2007) (state
medical board member had absolute quasi-judicial
immunity for performing judicial functions). We find no
error in the district court’s summary denial of Williams’s
Federal Rule of Civil Procedure 59(e) and 60(b) motion.
See Auto Servs. Co., Inc. v. KPMG, LLP, 537 F.3d 853,
857 (8th Cir. 2008) (abuse of discretion review).
Accordingly, we affirm the judgment of the
district court. See 8th Cir. R. 47B.
_________________________

4a
UNITED
TE D S TA TES COURT OF A PPEA
PEA LS
FOR THE E IGHTH CIR CUIT
________________
No: 18-2423
________________
Victor Bernard Williams, M.D.
Plaintiff – Appellant
v.
Baptist Health, doing business as Baptist Health
Medical Center; Douglas Weeks, Individually and in his
Official Capacity as Sr. Vice-President and
Administrator; Everett Tucker, M.D., Individually and
in his Official Capacity as a Member of the Credentials
Committee; Tim Burson, M.D., Individually, and in his
Official Capacity as Chief of Surgery and Chairperson
of the Surgery Control Committee; Scott Marotti, M.D.,
Individually, and in his Official Capacity as a Member of
the Surgery Control Committee; Susan Keathley, M.D.,
Individually, and as Chairperson of the Credentials
Committee; Chris Cate, M.D., Individually, and as
Chairman of the Executive Committee and Chief of
Staff; Surgical Clinic of Central Arkansas; John E.
Hearnsberger, II, M.D., Individually; Joseph M. Beck,
M.D., Individually; Charles Mabry, M.D., Individually;
James Counce, M.D., Individually
Defendants - Appellees

Appeal from U.S. District Court for the Eastern

5a
District of Arkansas - Little Rock (4:17-cv-00205-JM)

J UDG
UD GM E NT
Before BENTON, STRAS, and KOBES, Circuit
Judges.
This appeal from the United States District
Court was submitted on the record of the district court
and briefs of the parties.
After consideration, it is hereby ordered and
adjudged that the judgment of the district court in this
cause is affirmed in accordance with the opinion of this
Court.
May 29, 2019

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
___________________________________
/s/ Michael E. Gans

6a
IN THE UNITED STATES DISTRICT COURT
EAST
EAS TERN
ER N DISTRI
DISTR ICT OF ARKANSAS
WESTER
WESTER N DIVISION
VICTOR
VICTOR

V.

BERNARD
ERNAR D

WILLIAM
M.D.
WILLIA MS ,
M.D.
PLAINTIF
PLAINTIFF

4:17CV00205
4:17CV0020 5 JM

BAPTIST
d/b/
b/a
BAPTIST HEALTH
HEALTH d/
b/a BAPTI
BAPTIS T HEALTH
MEDICAL
DEFE
MEDICA L CENTER,
CENTER , e t al
DEFE NDANTS
JUDGMENT
Pursuant to the Orders of the Court granting
summary judgment, judgment is hereby entered in
favor of the Defendants and against the Plaintiff.
IT IS SO ORDERED this 31st day of May, 2018.
_________________________
James M. Moody Jr.
United
States
District

7a
IN THE
ATES
THE UNITED
UNITE D STATE
S DIS
DIS TRICT
TRICT COURT
EAST
EAS TERN
ER N DISTRI
DISTR ICT OF ARKANSAS
WESTER
WESTER N DIVISION
VICTOR
VICTOR

V.

BERNARD
ERNAR D

WILLIAM
M.D.
WILLIA MS ,
M.D.
PLAINTIF
LAINTIFF

4:17CV00205
4:17CV0020 5 JM

BAPTIST
d/b/
b/a
BAPTIST HEALTH
HEALTH d/
b/a BAPTI
BAPTIS T HEALTH
MEDICAL
DEFE
MEDICA L CENTER,
CENTER , e t al
DEFE NDANTS
ORDER
Pending is the Motion for Summary Judgment
filed by Joseph M. Beck, M.D. and John E.
Hearnsberger, M.D. Plaintiff alleges that Dr. Beck and
Dr. Hearnsberger (the “Doctors”) discriminated against
him based upon his race and retaliated against him for
filing suit against them and complaining about racial
discrimination. Plaintiff claims that the Doctors
conspired to violate Plaintiff’s procedural and
substantive due process rights, and his right to equal
protection of the laws. Specifically, Plaintiff alleges that
the Doctors caused him damage because of the
revocation of his medical license by the Arkansas State
Medical Board (“ASMB” or the “Board”), as well as the
Board’s failure to accurately report to the National
Practitioner Data Bank (“NPDB”) the voiding of the
revocation of Plaintiff’s medical license subsequent to
June 4, 2015. Further, Plaintiff’s cause of action against
the Doctors also relates to the “Arkansas State Medical
Board’s failure to afford Plaintiff the opportunity to
prosecute his civil action against the Baptist defendants
consistent with the Board’s normal policies and process

8a
enjoyed by other physicians.” (Pl.’s Response to Mot.
For Summ. Judg., ECF No. 133 at p. 6-7). Plaintiff’s
complaint also includes state law claims of abuse of
process, tortious interference with contracts and
defamation.
Dr. Hearnsberger was appointed to the ASMB in
2009 and served on the Board until June 2015. Dr.
Hearnsberger participated in Board discussions and the
investigation into Plaintiff’s medical practice between
2010 and 2015. Plaintiff claims that Dr. Hearnsberger
conducted an unauthorized investigation of Plaintiff’s
medical practice and provided false information to the
Board. Dr. Hearnsberger was a named defendant in
Williams I (Pulaski County Circuit Court, Civil Action
No. 60CV-14-808). On December 8, 2014, the Pulaski
County Circuit Court entered an order granting Dr.
Hearnsberger’s Motion for Summary Judgment in his
individual capacity. On November 5, 2015, by
agreement between the Plaintiff, the Arkansas State
Medical Board and Dr. Hearnsberger in his official
capacity, the Pulaski County Circuit Court
conditionally dismissed with prejudice Plaintiff’s claims
against the Board and Dr. Hearnsberger Williams I.
Dr. Joseph Beck was appointed to the Board in
2003 and served on the Board until December 2016. Dr.
Beck was the Chairman of the Board during the time
that the Board was investigating Plaintiff’s medical
practice and voted to revoke Plaintiff’s medical license.
As Chairman, Dr. Beck was not a voting member
except in case of a tie. Dr. Beck did not participate in
any vote regarding Plaintiff. Dr. Beck was not named
individually in Williams I. However, he was a member
of the ASMB, which was a named defendant.
The Arkansas State Medical Board is a state
entity. Drs. Hearnsberger and Beck were acting in their

9a
capacity as members of the Board when they
participated in the Board’s investigation and the
discussions of Plaintiff’s case. Arkansas Code Section
17-80-103 provides:
No member of a board, or any individual acting
on behalf of the board of any profession or
occupation classified under the laws of the State
of Arkansas as a profession of the healing arts
shall be liable in damages to any person for
slander, libel, defamation of character, breach of
any privileged communication, or otherwise for
any action taken or recommendation made
within the scope of the functions of the board if
the board member or the individual acting on
behalf of the board acts without malice and in the
reasonable
belief
that
the
action
or
recommendation is warranted by the facts
known to him or her after a reasonable effort is
made to obtain the facts on which the action is
taken or the recommendation is made. Ark. Code
Ann. § 17-80-103.
After reviewing the record, including all
deposition testimony and transcripts from Board
meetings, there is no evidence that Drs. Hearnsberger
or Beck acted outside the scope of the functions of the
ASMB. Plaintiff has provided no evidence that the
Doctors acted with malice toward the Plaintiff or that
they acted with illegal or improper motives when
participating in the proceedings regarding the Plaintiff.
There is no evidence that the Doctors communicated
with the National Practitioner Data Bank or directed
that anyone give false information to the NPDB
regarding the Plaintiff. For these reasons, the Court
finds that Defendants Hearnsberger and Beck are

10a
immune from suit for all federal and state law damage
claims pursuant to Ark. Code Ann. § 17-80-103.1
Even if the Doctors were not immune to
Plaintiff’s claims, Plaintiff has failed to present any
evidence that the actions taken by Doctors
Hearnsberger or Beck regarding Plaintiff’s licensure
were based on racial animus or in retaliation. There is
no evidence that Plaintiff’s race was a consideration by
Doctors Hearnsberger or Beck or that the Doctors
were involved in reporting to the NPDB. Mere
speculation by the Plaintiff that the Defendants’
actions, or inaction, were racially motivated is
insufficient to defeat a motion for summary judgment.
See Williams v. Mannis, 889 F.3d 926 (8th Cir. 2018)
(quoting Barber v. C1 Truck Driver Training, LLC, 656
F.3d 782, 801 (8th Cir. 2011) (“To survive a motion for
summary judgment, the nonmoving party must
substantiate his allegations with sufficient probative
evidence [that] would permit a finding in [his] favor
based on more than mere speculation, conjecture, or
fantasy.”).
As stated in the Court’s previous orders, claims
arising from the facts included in Williams I are barred
by res judicata. Plaintiff’s claims regarding the
information sent to the NPDB by ASMB was
considered in Williams I when Plaintiff filed his motion
to enforce settlement on August 19, 2015. (Exh. 35 to
Pl’s Resp. to Mot. For Summ. J.). The court ruled that
the Board’s version of the Consent Order properly
memorialized the settlement agreement between the
1

The Court declines to analyze Plaintiff’s claims for injunctive
relief because the Doctors are no longer members of ASMB and
have no authority to correct reports sent to the NPDB or keep
accurate minutes of ASMB investigations.

11a
parties. The Board’s version of the Consent Order,
which was filed in the case on November 5, 2015, did not
include the Plaintiff’s proposed language regarding
reports made to the NPDB by the ASMB. Dr.
Hearnsberger, in his official capacity, and the AMSB, of
which Dr. Beck was the chairman, were named
defendants in Williams I and were dismissed with
prejudice on November 5, 2015.
The Motion for Summary Judgment filed by
Defendants Hearnsberger and Beck (ECF No. 107) is
GRANTED. The Clerk is directed to close the case. The
trial scheduled for June 18, 2018 is cancelled.
IT IS SO ORDERED this 31st day of May, 2018.

_________________________
James M. Moody Jr.
United States District Judge

12a
IN THE
ATES
THE UNITED
UNITE D STATE
S DIS
DIS TRICT
TRICT COURT
EAST
EAS TERN
ER N DISTRI
DISTR ICT OF ARKANSAS
WESTER
WESTER N DIVISION
VICTOR
VICTOR

V.

BERNARD
ERNAR D

WILLIAM
M.D.
WILLIA MS ,
M.D.
PLAINTIF
PLAINTIFF

4:17CV00205
4:17CV0020 5 JM

BAPTIST
d/b/
b/a
BAPTIST HEALTH
HEALTH d/
b/a BAPTI
BAPTIS T HEALTH
MEDICAL
DEFE
MEDICA L CENTER,
CENTER , e t al
DEFE NDANTS
ORDER
Pending are the Motions for Summary Judgment
filed by James Counce and Charles Mabry. Plaintiff
alleges that Dr. Counce and Dr. Mabry conducted a
peer review of the records of three of Plaintiff’s
patients at the request of the Arkansas State Medical
Board in 2010. The Arkansas State Medical Board is a
state entity. Drs. Counce and Mabry were acting on
behalf of the Arkansas State Medical Board when they
provided their review and reports.
Arkansas Code Section 17-80-103 provides that
no member of a board, or any individual acting on behalf
of the board of any profession or occupation classified
under the laws of the State of Arkansas as a profession
of the healing arts shall be liable in damages to any
person for slander, libel, defamation of character,
breach of any privileged communication, or otherwise
for any action taken or recommendation made within
the scope of the functions of the board if the board
member or the individual acting on behalf of the board
acts without malice and in the reasonable belief that the
action or recommendation is warranted by the facts
known to him or her after a reasonable effort is made to

13a
obtain the facts on which the action is taken or the
recommendation is made. Ark. Code Ann. § 17-80-103.
There is no evidence in the record that the
doctors acted with malice or that they acted with illegal
or improper motives. The Court finds that Defendants
Counce and Mabry are immune from suit. See Buser v.
Raymond, 476 F.3d 565, 569 (8th Cir. 2007) (“Even
where an official is not a Board member, and thus he is
one step removed from the ‘judicial’ function of the
Board, he nevertheless may be entitled to absolute
quasi-judicial immunity if he is engaged in a protected [
] function.”) (internal quotation omitted).
Further, the Court has previously found that the
claims made in Plaintiff’s Complaint are barred by res
judicata. As stated in the previous Order, Plaintiff
cannot claim that the revocation of his license in April
2014 created a “new” claim that has not been litigated.
The specific issue was before the court in Williams I.
Plaintiff’s claim against Drs. Counce and Mabry are
based upon the same facts. Plaintiff did not include
Counce and Mabry as defendants but he was well aware
of their reports during the time Williams I was
pending. Res judicata bars Plaintiff’s claims against
Drs. Counce and Mabry because they could have been
litigated in Williams I.
The Motions for Summary Judgment filed by
Defendants’ Counce and Mabry (ECF Nos. 55, 58, 83
and 86) are GRANTED. The Clerk is directed to
dismiss Plaintiff’s Complaint against Defendants James
Counce and Charles Mabry.
IT IS SO ORDERED this 8th day of March,
2018.
_________________________
James M. Moody Jr.
United States District Judge

14a
IN THE
ATES
THE UNITED
UNITE D STATE
S DIS
DIS TRICT
TRICT COURT
EAST
EAS TERN
ER N DISTRI
DISTR ICT OF ARKANSAS
WESTER
WESTER N DIVISION
VICTOR
VICTOR BERNARD
ERNAR D WILLIAM
WILLIA MS , M.D.
M.D .
PLAINTIF
PLAINTIFF
V.

4:17CV00205
4:17CV0020 5 JM

BAPTIST
d/b/
b/a
BAPTIST HEALTH
HEALTH d/
b/a BAPTI
BAPTIS T HEALTH
MEDICAL
CENTER,
et
al
MEDICA L
CENTER ,
DEFE
DEFE NDAN
TS
ORDER
Plaintiff Victor Bernard Williams, M.D. filed suit
in this Court on March 31, 2017 against Baptist Health
d/b/a Baptist Health Medical Center (“Baptist”), the
Surgical Clinic of Central Arkansas (the “Clinic”) and
several doctors in their individual and/or official
capacities for violation of 42 U.S.C. §§ 1981, 1982, 1983,
1985, 1988, the Fourteenth Amendment to the United
States Constitution, the tort of abuse of process,
tortious interference with contracts and defamation.
Defendants Baptist, Doug Weeks, Everett Tucker,
M.D., Tim Burson, M.D., Scott Marotti, M.D., Susan
Keathley, M.D., Christy Cate, M.D., and the Clinic
(collectively the “Baptist Defendants) filed a motion to
dismiss Plaintiff’s Complaint based upon 1) res judicata,
2) statute of limitations, 3) Baptist Defendants are not
state actors, and 4) failure to plead conspiracy claims
with factual specificity.
Plaintiff is a surgeon specializing in
cardiothoracic, vascular and general surgery. Plaintiff
alleges that the Defendants conspired to have his
surgical staff privileges revoked at Baptist in 2010, to

15a
have the Arkansas Medical Board (the “Board”) place
restrictions on his ability to practice medicine from 2010
through 2013, and to have the Board revoke his medical
license on the basis of his race. Plaintiff alleges that the
Defendants retaliated against him for filing a state
court action against them and for seeking assistance
from the Board to investigate his claim of
discrimination.
On February 25, 2014, Plaintiff filed suit against
Baptist Health, Doug Weeks, Everett Tucker, M.D.,
Tim Burson, M.D., Scott Marotti, M.D., Susan Keathley,
M.D., and Christy Cate, M.D. in Pulaski County Circuit
Court, 60CV-14-808 (“Williams I”). The only Baptist
Defendant not included in the Williams I suit was the
Surgical Clinic of Arkansas. In Williams I, Plaintiff’s
claims were based upon the termination of his medical
staff privileges by the Williams I Defendants.
Specifically, Plaintiff asserted the following causes of
actions: violation of Article 2, §§ 2, 3, 8, 13, and 21 of the
Arkansas Constitution, retaliation and conspiracy to
violate the Arkansas Civil Rights Act, tortious
interference with contracts, defamation, violation of his
civil right to engage in the practice of medicine, and
violation of Baptist Health’s By-Laws and Professional
Staff Rules. The circuit court dismissed all of Plaintiff’s
claims except for the violation of Baptist’s By-Laws and
Professional Staff Rules claim. At a bench trial in 2017,
the circuit court found in favor of the Defendants on
this claim as well. Plaintiff has filed a Notice of Appeal
as to all of these claims.
The Baptist Defendants argue in the Motion to
Dismiss that the instant case is barred by res judicata
because Plaintiff brought essentially the same case in
Williams I. The claim- preclusion aspect of res judicata
bars relitigation of a suit when “(1) the first suit

16a
resulted in a final judgment on the merits; (2) the first
suit was based on proper jurisdiction; (3) the first suit
was fully contested in good faith; (4) both suits involve
the same claim or cause of action; and (5) both suits
involve the same parties or their privies.” Baptist
Health v. Murphy, 373 S.W.3d 269, 278 (Ark. 2010)
(citing Beebe v, Fountain Lake School Dist., 231 S.W.3d
828, 635 (Ark. 2006)). “Res judicata bars not only the
relitigation of claims that were actually litigated in the
first suit, but also those that could have been litigated.”
Id. “Where a case is based on the same events as the
subject matter of a previous lawsuit, res judicata will
apply even if the subsequent lawsuit raises new legal
issues and seeks additional remedies.” Daily v.
Langham, 522 S.W.3d 177, 181 (Ark. App. 2017).
Plaintiff does not dispute that Williams I
resulted in a final judgment on the merits, that the
circuit court had jurisdiction over the case, and that
both the instant case and Williams I involved the same
parties or their privies. See Crockett & Brown, P.A. v.
Wilson, 864 S.W.2d 244, 246 (Ark. 1993) (“A judgment
may be final for purposes of res judicata even if an
appeal is taken.); Winrock Grass Farm, 373 S.W.3d 907
(Ark. App. 2010) (Privity of parties within the meaning
of res judicata means a person so identified in interest
with another that he represents the same legal right.);
Crockett v. C.A.G. Invs., Inc., 381 S.W.3d 793, 799 (Ark.
2011) (The Arkansas Supreme Court has “never
required strict privity in the application of res
judicata....”). Plaintiff argues that Williams I was not
fully contested and that both suits do not involve the
same claims or causes of action.
Plaintiff claims that Williams I was not fully
contested in good faith because he was not allowed to
obtain information related to similarly situated

17a
physicians. Pursuant to Arkansas law, the Williams I
court denied Plaintiff’s motions to compel the
defendants to produce information regarding physicians
who had lost their hospital privileges. Plaintiff argues
he could not fully litigate his claims without this
information and therefore the claims should not be
barred by res judicata. In support of this argument,
Plaintiff cites a district court case from the Eastern
District of New York, Johnson v. County of Nassau,
480 F. Supp. 2d 581 (E.D.N.Y. 2007). In Johnson, the
plaintiff had filed a previous complaint with the New
York State Division of Human Resources (“NYSDHR”)
alleging race discrimination and unlawful retaliation
against him by the Nassau University Medical Center
where he was employed. NYSDHR reviewed the
evidence and “issued a Determination and Order After
Investigation dismissing the Complaint, finding ‘no
probably cause.’” Id. at 592. The Johnson court found
that Johnson was not barred by res judicata from
bringing the lawsuit because he had not been afforded a
hearing at the NYSDR and he was not able to engage
in discovery.
Even if Johnson were binding on the Court,
which it is not, the facts are not analogous to the instant
case. The NYSDHR is not a court of law. Johnson was
not allowed to do discovery because he did not bring a
lawsuit in a court of law. There is no indication that he
was allowed to file pleadings in response to motions, or
to present evidence to a judge. In the instant case,
Plaintiff filed a lawsuit in the Pulaski County Circuit
Court. He engaged in discovery, made and responded to
motions, and had a bench trial before a judge. Johnson
is not analogous to the instant case. Plaintiff had an
opportunity to litigate Williams I in good faith. A
judge’s determination that certain information could

18a
not be obtained by Plaintiff due to Arkansas law does
not result in a failure to fully contest the case in good
faith.
Plaintiff also claims that there is no identity of
claims between the instant case and Williams I because
(1) there were no federal causes of action presented in
Williams I, and (2) the federal claims arose after he
filed his state court complaint. The claims brought in
this action and the claims made in Williams I are based
upon the same set of facts. Plaintiff was not limited to
filing state court claims in state court. He could have
filed all of his claims, whether arising under state or
federal law, in Williams I. “It is well established that
claim-splitting is discouraged. All claims must be
brought together, and cannot be parsed out to be heard
by different courts.” Sparkman Learning Ctr. v.
Arkansas Dep’t of Human Servs., 775 F.3d 993, 1000
(8th Cir. 2014) (citing Elgin v. Dep’t of Treasury, 567
U.S. 1, 132 S.Ct. 2126, 2147, 183 L.Ed.2d 1 (2012)
(“Plaintiffs generally must bring all claims arising out of
a common set of facts in a single lawsuit, and federal
district courts have discretion to enforce that
requirement as necessary to avoid duplicative
litigation.” (quotations and citations omitted)).
Plaintiff’s argument that certain claims arose as
a result of filing Williams I, or at the time of his
medical license revocation in April 2014, is also flawed.
In the Williams I Complaint, Plaintiff states:
Plaintiff seeks to have the court enjoin the
hearing scheduled to be held in April 2014, as
well as injunctive and/or declaratory relief
declaring that the Board may not place any
further restrictions on Plaintiff’s ability to
practice medicine, to the extent that such

19a
restrictions purportedly relate to the issues
being raised in this case.
(Williams I Complaint, ECF No. 30-1 at p. 1314).
***
That the Plaintiff have permanent
injunctive relief against the Arkansas State
Medical Board preventing and precluding the
continuation of any conduct or actions taken by
the Board in furtherance of the conspiracy being
practiced against Plaintiff;
That the Plaintiff have a temporary
injunction against the Arkansas State Medical
Board requiring the Board to stay its
disciplinary proceedings (hearing scheduled for
April, 2014) related to the four cases reported by
the hospital defendant pending the resolution of
this case by this Court.
(Williams I Complaint, ECF No. 30-1 at p. 75).
Plaintiff sought to have the April 2014 hearing
regarding the revocation of his medical license enjoined.
The state court denied Plaintiff’s relief. Plaintiff cannot
claim that the revocation of his license on April 2014
created a “new” claim that has not been litigated. The
specific issue was before the court in Williams I. “The
doctrine of res judicata would become meaningless if a
party could relitigate the same issue ... by merely
positing a few additional facts that occurred after the
initial suit.” Misischia v. St. John’s Mercy Health Sys.,
457 F.3d 800, 805 (8th Cir. 2006) (quoting Dubuc v.
Green Oak Township, 312 F.3d 736, 751 (6th Cir. 2002)).
In conclusion, the Court finds that the claims
made in Plaintiff’s Complaint are barred by res

20a
judicata. The Motion to Dismiss filed by Defendants
Baptist, Doug Weeks, Everett Tucker, M.D., Tim
Burson, M.D., Scott Marotti, M.D., Susan Keathley,
M.D., Christy Cate, M.D., and the Surgical Clinic of
Central Arkansas (ECF No. 30) is GRANTED.
IT IS SO ORDERED this 19th day of
September, 2017.
_________________________
James M. Moody Jr.
United States District Judge

21a
Case No. 18-2423

IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

VICTOR B. WILLIAMS, M.D.,
Appellant,

vs.

BAPTIST HEALTH MEDICAL CENTER, et al.,
Appellees.

Appeal from the U.S. District Court
for the Eastern District of Arkansas
Honorable James Moody, District Judge
Case No. 4:17-CV-205-JM

REPLY BRIEF OF APPELLANT

Andre K. Valley
Law Office of Andre
K. Valley, P.A.
423 Rightor, Suite # 2
Helena-West Helena,
AR 72342
Telephone: 870-338-6487

Eric E. Wyatt
George W. McGriff
George W. McGriff &
Associates
600 Colonial Park Drive
Roswell, Georgia 30075-3746
Telephone: 770-649-7160

Ext. 2
Facsimile: 870-338-8030
Andrekvalley@gmail.com

22a
dcgwm@mindspring.com

COUNSEL FOR APPELLANT

23a
TABLE OF CONTENTS
Page
Table of Authorities.................................................-iiI.

There Are Genuine Issues of Material Fact
as to Whether the Defendants Knew That
the Allegations Against Plaintiff Did Not
Constitute “Unprofessional Conduct” as
Defined by A.C.A. § 17-95-409(a)(2)(G)...............-1-

II.

The April, 2014 Revocation of Plaintiff’s
Arkansas Medical License Gave Rise to a
Separate, Independent Federal Cause of
Action.........................................................................-3-

III. The Defendants Are Liable for Plaintiff’s
State Law Claims Arising from the 2014
License Revocation ...............................................-16Conclusion ...............................................................-19Certificate of Compliance .....................................-21Certificate of Service.............................................-22-

24a
TABLE OF AUTHORITIES
FEDERAL CASES
Barzilay v. Barzilay, 600 F.3d 912, 920 (8th Cir.
2010) .........................................................................-19Beavers v. Arkansas State Board of Dental
Examiners, 151 F.3d 838, 840 (8th Cir. 1998) -22-, -23Bibbs v. Jim Lynch Cadillac, Inc., 653 F.2d 316,
318 (8th Cir. 1981) ..................................................-17Burns v. Reed, 500 U.S. 478, 492 (1991).........................-8Greenwood v. Ross, 778 F.2d 448, 456 (8th Cir.
1985) .........................................................................-16Harrison v. Springdale Water & Sewer Com., 780
F.2d 1422, 1425-1426 (8th Cir. 1985) .......... -18-, -24Imbler v. Pachtman, 424 U.S. at 430 ..............................-8Legnani v. Alitalia Linee Aeree Italiane, S.P.A.,
400 F.3d 139, 142 (2nd Cir. 2005) ............................-5Miller v. Huron Reg’l Med. Ctr., Inc., 145 F. Supp.
3d 873, 886 (D.S.D. 2015) .........................................-1Osuagwu v. Gila Reg’l Med. Ctr., 850 F. Supp. 2d
1216, 1235 (D.N.M. 2012) ............................. -14-, -15Sparkman Learning Ctr. v. Ark. Dep’t of Human
Servs., 775 F.3d 993, 1000 (8th Cir. 2014) ...........-17Varner v. Peterson Farms, 371 F. 3d 1011, 1019

25a
(8th Cir. 2004) .........................................................-15Walker v. Mem’l Health Sys., 231 F. Supp. 3d 210
(E.D. Texas 2017) ......................................... -20-, -21Wallace v. Kato, 549 U.S. 384, 387 (2007) ....................-18White v. Frank, 855 F.2d 956, 961 (2nd Cir. 1988) .......-8White v. McKinley, 519 F.3d 806, 814 (8th Cir.
2008) ................................................................ -15-, -16Winegar v. Des Moines Indep. Community Sch.
Dist., 20 F.3d 895, 899 (8th Cir. 1994)..................-22ARKANSAS CASES
Arkansas State Bd. of Nursing v. Long, 651
S.W.2d 109, 113, 8 Ark. App. 288, 296 (Ark.
App. 1983)................................................................-25Arkansas State Medical Board v. Cryer, 521
S.W.3d 459, 463 (Ark. 2017) .................................-18Baber v. Ark.State Med. Bd., 2010 Ark. 243, 368
S.W.3D 897, 901 ......................................................-18Dodd v. Sparks Regional Medical Center, 204
S.W.3d 579, 583 (Ark. App. 2005)...........................-2Ethridge v. State, 654 S.W.2d 595, 9 Ark. App.
111, 117-118 (Ark. App. 1983).................................-9Fegans v. Norris, 351 Ark. 200, 89 S.W.3d 919,
924-925 (Ark. 2002) ..................................................-9-

26a
Gramling v. Jennings, 274 Ark. 346, 625 S.W.2d
463 (1981) ...................................................................-9Harmon v. Carco Carriage Corp., 320 Ark. 322,
327 (Ark. 1995)........................................................-26Hill v. Wilson, 224 S.W.2d 797, 800 (Ark. 1949) ............-3Hollabaugh v. Arkansas State Medical Board, 43
Ark. App. 83, 88 (Ark. App. 1993 ...........................-4Lewis v. Burdine, 240 Ark. 821, 824 (Ark. 1966) ........-30Mason v. Funderburk, 446 S.W.2d 543, 548, 247
Ark. 521, 529 (Ark. 1969) ............................ -27-, -28Neal v. Sparks Reg’l Med. Ctr., 422 S.W.3d 1116,
120-121 ......................................................................-3Newton v. Etoch, 332 Ark. 325, 334 (1998)............ -4-, -8Toan v. Falbo, 268 Ark. 337, 595 S.W.2d 936, 937
(Ark. 1980 ................................................................-22UNITED STATES CODES
42 U.S.C. § 1981 ..............................................................-1742 U.S.C. § 1983 ............................................. -4-, -16-, -1742 U.S.C.A. § 11133(a)(1) ..............................................-16ARKANSAS CODE ANNOTATED
A.C.A. § 17-95-409(a)(2)(G) ............................. i, -1--3-, -6-

27a
A.C.A. § 17-95-410(c)(2).................................................-15Ark. Code Ann. § 25-15-207.”) .......................................-23A.C.A. § 25-15-209(a) ........................................................-9OTHER AUTHORITIES
45 C.F.R. § 60.11(b).........................................................-16Article 5, section 20 of the Arkansas Constitution ...-18First Amendment ..........................................................-24-

28a
I. THERE ARE GENUINE ISSUES OF MATERIAL
FACT AS TO WHETHER THE DEFENDANTS
KNEW THAT THE ALLEGATIONS AGAINST
PLAINTIFF
DID
NOT
CONSTITUTE
“UNPROFESSIONAL CONDUCT” AS DEFINED
BY A.C.A. § 17-95-409(a)(2)(G)
Essentially arguing that they are entitled to
judgment because Plaintiff failed to prove that he was
not “grossly negligent” and/or that he did not commit
“ignorant malpractice,” in his Complaint, and/or when
responding to the defendants’ motion to dismiss and
motions for summary judgment, the defendants failed
to meet their burden of proof as movants because they
failed to point to competent, admissible evidence which
would provide a factual basis to support their
contention that Plaintiff engaged in unprofessional
conduct as defined by A.C.A. § 17-95-409(a)(2)(G). As
such, they failed to establish that there is, was, and/or
has ever been a factual basis for the revocation of
Plaintiff’s Arkansas medical license in April 2014.
Further, and more importantly, there exists a genuine
issue of material fact as to whether there is, was, and/or
has ever been a factual basis for the continuous
defamatory1 statements related thereto that have been
continuously reported subsequent to the April 2014
Arkansas medical license revocation causing ongoing
injury to Plaintiff, notwithstanding the reinstatement
of Plaintiff’s medical license in December 2015.

1

See Miller v. Huron Reg’l Med. Ctr., Inc., 145 F. Supp. 3d 873, 886
(D.S.D. 2015), (“a reasonable jury could conclude that the Adverse
Action Report contained false information and that [defendant],
acting on behalf of [hospital], was aware of the false information.
As such, immunity does not apply here.”)

29a
In addition to the absence of a “complaint”2 by
one of the patients who allegedly received the
purported negligent medical treatment, the narrative
reports of Counce and Mabry fail to meet the
evidentiary requirements that would be necessary in
order to establish that Plaintiff committed medical
negligence generally.3 Further, and more importantly,
they clearly failed to demonstrate that Plaintiff was
“grossly negligent” or that he committed “ignorant
malpractice” in violation of the Medical Practices Act,
A.C.A. § 17-95-409(a)(2)(G).
With respect to allegations of “negligence”4 in
the medical malpractice context, see Neal v. Sparks
Reg’l Med. Ctr., 422 S.W.3d 1116, 120-121 (“To establish
a prima facie case of negligence, the plaintiff must
demonstrate that the defendant breached a standard of
care, that damages were sustained, and that the
defendant's actions were a proximate cause of those
damages. Proximate causation is an essential element
for a cause of action in negligence. “Proximate cause” is
2

See Complaint, ¶45. App. 33.
See Dodd v. Sparks Regional Medical Center, 204 S.W.3d 579, 583
(Ark. App. 2005), (“‘medical injury’ or ‘injury’ means any adverse
consequences arising out of or sustained in the course of the
professional services being rendered by a medical care provider,
whether resulting from negligence, error, or omission in the
performance of services...”)
4
“There is no such thing as ‘negligence in the air.’ Conduct without
relation to others cannot be negligent; it becomes negligent only as
it gives rise to an appreciable risk of injury to others. ... In other
words, a negligent act is one from which an ordinary prudent
person in the actor’s position–in the same or similar circumstances
– would foresee such an appreciable risk of harm to others as to
cause him not to do the act, or to do it in a more careful manner.”
Hill v. Wilson, 224 S.W.2d 797, 800 (Ark. 1949). (Footnote
Omitted.)
3

30a
defined, for negligence purposes, as that which in a
natural and continuous sequence, unbroken by any
efficient intervening cause, produces the injury, and
without which the result would not have occurred.”)
(Citations Omitted.) (Emphasis Added.)
While the defendants may argue that it is
unnecessary for the Plaintiff’s medical treatment to
result in “injury” to a patient before the ASMB can
take disciplinary action pursuant to A.C.A. § 17-95409(a)(2)(G), the Arkansas Legislature defined
“unprofessional conduct” as being more than mere
negligence, but rather, “grossly negligent or ignorant
malpractice,” before the Board would be authorized to
take any disciplinary action, including, but not limited
to, revoking a physician’s license to practice medicine in
Arkansas. See Hollabaugh v. Arkansas State Medical
Board, 43 Ark. App. 83, 88 (Ark. App. 1993), (“until
there was competent evidence to support [a finding of
gross negligence or ignorant malpractice] the board
was not authorized to form such an opinion...”)
II. THE APRIL, 2014 REVOCATION OF
PLAINTIFF’S ARKANSAS MEDICAL LICENSE
GAVE RISE TO A SEPARATE, INDEPENDENT
FEDERAL CAUSE OF ACTION
The April 2014-revocation of Plaintiff’s Arkansas
medical license was the overt act that gave rise to a
distinct federal cause of action that can not immunized
by state law. See Newton v. Etoch, 332 Ark. 325, 334
(1998), (“A § 1983 suit is one brought pursuant to an act
of Congress for a deprivation of civil rights against
persons operating under color of state law. It
establishes a federal cause of action to be enforced in
either federal or state courts. As such, it is the supreme

31a
law of the land, and any state claim of immunity must
yield to it.”) (Citations Omitted.) (Emphasis Added.)
The fact that some of the defendants’ acts,
omissions, and/or conduct may have predated April
2014, does absolve them from liability for the April
2014-revocation of Plaintiff’s Arkansas medical license
under federal or state law if it can be established that
the revocation of was an overt act in furtherance of the
ongoing conspiracy to deprive Plaintiff of federal
Constitutional due process5 and/or the conspiracy to
retaliate against Plaintiff for claims of racial
discrimination against the Baptist defendants that were
raised by Plaintiff: (1) during the disciplinary
proceedings at Baptist in 2010; (2) in Plaintiff’s
Complaint filed with ASMB in 2010: and/or (3) in
Plaintiff’s Complaint filed in Williams 1 in February
2014.
Obviously Plaintiff’s federal cause of action for
retaliation for re-filing Williams 1 in February 2014,
necessarily arose subsequent to the filing of the
Williams 1 Complaint filed in February 2014. See
Legnani v. Alitalia Linee Aeree Italiane, S.P.A., 400
F.3d 139, 142 (2nd Cir. 2005), (“if, after a first suit is
underway, a defendant engages in actionable conduct, a
plaintiff may – but is not required to – file a
supplemental pleading setting forth defendant’s
subsequent conduct. A plaintiff’s failure to supplement
the pleadings of his already commenced lawsuit will not
result in a res judicata bar when he alleges defendant’s
5

It is undisputed that at the time that Baptist forwarded the
medical records to the ASMB in November, 2010 that were
purportedly “peer reviewed” by Counce and Mabry, Plaintiff had
not yet exhausted his appeals at Baptist, and therefore had not yet
received all of the process that was due to be afforded to him under
the Baptist Health medical staff bylaws.

32a
later conduct as a cause of action in a second suit.”
(Citations Omitted.)
Given that ASMB purportedly possessed Counce
and Mabry’s narrative reports since the 2010, did not
disclose those reports to Plaintiff until June, 2011 after
they were disclosed to Baptist during the litigation of
Williams 1, but did not revoke Plaintiff’s Arkansas
medical license until after conducting the hearing held
in Plaintiff’s absence in April 2014, a genuine issue of
material fact exists as to whether there was a
conspiracy, or “meeting of the minds” between the
named defendants that ASMB would help Baptist
defend against Plaintiff’s racial discrimination claims, to
include revoking Plaintiff’s Arkansas medical license, if
necessary even though the defendants all knew that the
medical treatment at issue did not constitute “gross
negligence” or “ignorant malpractice,” as referenced in
A.C.A. § 17-95-409(a)(2)(G).
In their brief, Counce and Mabry argue that,
“Dr. Williams appeared before the Board in December
2010, at which time proctoring of his colon surgery
cases was required by the Board on the basis of the
reports of Dr. Counce and Dr. Mabry.” Counce and
Mabry Appellees’ Brief, p.27. When Plaintiff alleged
that ASMB required him to obtain a proctor, App. 37 ¶
53, he did not also allege that the reports of Counce and
Mabry were the “bases” for ASMB’s requirement. In
fact, the record here does not disclose that Plaintiff had
obtained Counce and Mabry’s reports before the
hospital requested the reviews during the Williams 1
litigation in June, 2011. App. 295.6
6

App. 295, Footnote 21 states that the reviews were sought by
Plaintiff’s counsel on June 15, 2010, instead of June 15, 2011, but
this is obviously a scrivener’s error as ASMB had not began its

33a
Counce and Mabry’s argument that their reports
were used “as a basis” to “require” Plaintiff to obtain a
proctor explains why pursuant to the alleged
conspiracy, it was necessary for ASMB to depart from
its normal7 policies and procedures, and obtain the
reports prior to Plaintiff’s first appearance before
ASMB in December, 2010. See Cryer Depo., App. 39973998, where she testified about sending Plaintiff’s
patient medical records to Counce in November 2010,
before Plaintiff’s first appearance before the Board, and
while Plaintiff’s was still pursuing the Appellate
process at Baptist. In her letter to Counce, Cryer
stated, “[y]our review should be sent to us overnight
delivery if possible,” and that, “[w]e very much
appreciate your willingness to work with us to settle
this case promptly.” Id., at App. 3997. To the extent
that the reports were created with the intent to be used
by ASMB to “require” Plaintiff to do anything, Counce
and Mabry’s role may be characterized as “complaining
witnesses,” as referenced in White v. Frank, 855 F.2d
956, 961 (2nd Cir. 1988), entitling them to only qualified
immunity, at best.
In addition, there is a genuine issue of material
fact as to whether ASMB’s conduct in sending the legal
memo to Counce and Mabry along with the medical

inquiry in June, 2010 and it is undisputed that the medical records
were not sent to Counce and Mabry for review until November
2010, at the earliest. App. 36,¶ 52.
7
Cryer testified that, “our normal process is to give the expert – a
expert reviewer, any expert reviewer, plenty of time to do it, to do
whatever it is. My only assumption, and this is only an assumption,
is that this was on the 12th and we’re saying hurry and get them
reviewed for whatever reason and have them back here within
seven days. That is not normal.” App. 3997.

34a
records advising them of ASMB counsel’s legal
definition of “gross negligence” and “ignorant
malpractice” violated A.C.A. § 25-15- 209(a), which
requires that, “[u]nless required for the disposition of
ex parte matters authorized by law, members or
employees of an agency assigned to render a decision or
to make final or proposed findings of fact or conclusions
of law in any case of adjudication shall not
communicate, directly or indirectly, in connection with
any issue of fact with any person or party nor, in
connection with any issue of law, with any party or his
representative, except upon notice and opportunity for
all parties to participate.”9 See also Ethridge v. State,
654 S.W.2d 595, 9 Ark. App. 111, 117-118 (Ark. App.
1983), citing Gramling v. Jennings, 274 Ark. 346, 625
S.W.2d 463 (1981), (“the court reversed because a
doctor was allowed to say that, in his opinion, another
doctor was not negligent when he severed the plaintiff’s
ureter... [and that,] in this case it is a bald statement of
an opinion as to the ultimate issue.’”)
A reasonable fact finder could conclude that
ASMB knew that Counce and Mabry’s narrative
reports were false because on June 16, 2011, ASMB
wrote Plaintiff, and requested that he return for an
update in one year, implicitly acknowledging that a
revocation of Plaintiff’s Arkansas medical license was
8

8

See Newton v. Etoch, 332 Ark. 325, 337 (Ark. 1998), citing Burns
v. Reed, 500 U.S. 478, 492 (1991) and Imbler v. Pachtman, 424 U.S.
at 430, (“prosecutor only had qualified immunity pertaining to the
legal advice he gave to police officers . . . because giving advice to
investigative officers was not intimately connected with the
judicial phase of the criminal process.”)
9
By definition, “malice” is “[a] conscious violation of the law which
operates to the prejudice of another person.” Fegans v. Norris, 351
Ark. 200, 89 S.W.3d 919, 924-925 (Ark. 2002).

35a
not warranted at that time. App. 38, ¶ 56. In fact, the
next day, June 17, 2011, even though they were never
ultimately offered into evidence, a representative of the
ASMB sent Counce and Mabry’s narrative reports to
Baptist to be used in Williams 1. App. 38-39, ¶57. There
is no evidence in the record which establish that
Plaintiff obtained Counce and Mabry’s reports before
Baptist did in June 2011, despite Counce and Mabry’s
unsupported argument in their brief to the contrary.
Furthermore, in his June 17, 2011-transmittal letter to
Baptist (Harold Simpson), ASMB’s representative
stated that, “Dr. [Counce] and Mabry do not have to
testify or follow-up for further testimony or work
concerning these reviews unless they desire to do so.”
App. 2468.
Other evidence indicating that the defendants
had a “meeting of the minds” that Counce and Mabry’s
reports would be used by Baptist during the Williams 1
litigation, but would not ever be subject to cross
examination is the fact that Plaintiff’s properly noticed
hearing that was scheduled to be held in June 2012, was
postponed after Plaintiff and his witnesses appeared
because Counce purportedly was unable to appear to
testify. App. 40-41, ¶ 63. Even though the Board knew
or should have known that Counce would not attend the
hearing on the scheduled date in June 2012, they failed
to notify Plaintiff prior to his arrival that the hearing
would not go forward due to Counce’s absence.
There is a genuine issue of material fact as to
whether ASMB failed to go forward with the hearing
after seeing the witnesses who appeared along with
Plaintiff because they knew that they would not be able
to establish that Plaintiff committed “gross negligence”
or “ignorant malpractice,” either with or without
testimony from Counce and Mabry.

36a
In addition, on June 8, 2012, even though ASMB
failed to go forward with the properly noticed hearing
after Plaintiff appeared along with his witnesses,
Hearnsberger publicly humiliated and intimidated
Plaintiff in front of all persons in attendance,10 to
include Plaintiff’s witnesses and the other ASMB
members. See also, App. 207-208, ¶141 of the Complaint
filed in Williams I, which provides in relevant part that
during the June 8, 2012, publicly held Board meeting
regarding independent peer written material offered by
Plaintiff that supported Plaintiff’s treatment of one of
the patients at issue, Hearnsberger “stated in a most
vocal and argumentative manner that he ‘did not
believe the peer written material nor Dr. Williams
either.” As a general surgeon member of ASMB, this
statement, along with Hearnsberger’s deposition
testimony that he did not review the medical records on
the four cases,11 supports Plaintiff’s allegations that
Hearnsberger intentionally tried to persuade the
ASMB members who were not surgeons that Plaintiff
was an incompetent physician.
See also, App. 5327, Hearnsberger’s June 9,
2012-email to Peggy Cryer directing her to, “Please
10

See also Hearnsberger Depo., App. 3539, wherein he admitted
that Simpson, who he had known for a long time, had been in
attendance as a representative of Baptist, and “just wanted to hear
the discussion.” See also App. 42, ¶ 66. On June 18, 2012, “a
representative of the Baptist Health Defendants attempted to
coerce Plaintiff into voluntarily dismissing his cause of action, and
stated to counsel for Plaintiff, (in the presence of Plaintiff) that if
he didn’t dismiss his lawsuit, Plaintiff would have to either ‘admit
that he had done something wrong to the Arkansas State Medical
Board, or lose his medical license.’”
11
Hearnsberger also conceded during his deposition taken in the
federal action that the four cases were complicated surgical cases.
App. 3544, Depo., pg. 58.

37a
pass this on to the other board and to Bill [Trice],”
stating that one of Plaintiff’s professors had described
him as “‘hard headed’ and a ‘poor resident.’” This
statement is/was false, as Plaintiff’s student file at the
University of Arkansas contains a favorable written
evaluation from Dr. Eidt covering the entire time
period that Plaintiff was a resident under Eidt at the
University of Arkansas. App. 42, FN15.
Therefore, there is a genuine issue of material
fact as to whether Hearnsberger’s conduct in this
regard was done with the specific intent to convince the
other ASMB members who were not surgeons to vote
to require Plaintiff to attend a physician assessment
program before Plaintiff could have his medical license
renewed because he knew that Plaintiff would likely
prevail at a hearing with the expert witnesses who
appeared along with him to testify on his behalf.
Additional facts further supporting this
argument are as follows: (1) ASMB rejected Plaintiff’s
successful completion of the KSTAR physician
assessment program; (2) after Plaintiff successfully
completed the KSTAR physician assessment program,
ASMB attempted to have KSTAR reconsider its
assessment; and (3) ASMB sent a copy of Plaintiff’s
state court civil rights complaint to KSTAR instead of
the medical records related to the four patients whose
medical treatment was purportedly at issue.
There is a genuine issue of material fact as to
whether ASMB also intentionally deprived Plaintiff of
the ability to cross-examine Counce and Mabry by
holding the hearing in April 2014, when the ASMB
knew beforehand that Plaintiff would not attend
because he had no knowledge that the hearing would be
taking place at that date and time. If done intentionally,
this was another conscious violation of Plaintiff’s

38a
Arkansas statutory right to notice and opportunity to
be heard before the revocation of his medical license
giving rise to the federal constitutional claims raised in
Plaintiff’s federal action.
See Osuagwu v. Gila Reg’l Med. Ctr., 850 F.
Supp. 2d 1216, 1235 (D.N.M. 2012), (“[b]y failing to
bring to Plaintiff’s disciplinary hearing the PRC
physician-reviewers who expressed their opinions that
Plaintiff’s performance fell below the standard of care,
and by failing to bring in the other physicians who
allegedly informed the MEC and PRC members that
Plaintiff had committed errors failing to consult, Gila
Regional and its MEC deprived Plaintiff of an
opportunity to cross-examine the witnesses against
him. As a matter of law, this failure violated Plaintiff’s
rights12 of cross-examination under both the Bylaws
and the minimum standards of constitutional due
process.”)
Therefore, the April 2014-hearing that was
intentionally held in Plaintiff’s absence13 and the
revocation of Plaintiff’s Arkansas medical license is the
overt14 act in furtherance of the conspiracy to cause
injury to Plaintiff which gave rise to Plaintiff’s federal
12

The plaintiff is “required to prove a deprivation of a
constitutional right or privilege in order to prevail on a § 1983 civil
conspiracy claim.” White v. McKinley, 519 F.3d 806, 814 (8th Cir.
2008).
13
A.C.A. § 17-95-410(c)(2), requires that the Board send “by
registered mail to the person’s last known address of record a copy
of the order and notice of hearing along with a written notice of the
time and place of the hearing.” App. 47, ¶ 82, FN18.
14
An overt act has two elements: (1) it must be a new and
independent act that is not merely a reaffirmation of a previous
act, and (2) it must inflict new and accumulating injury on the
plaintiff.” Varner v. Peterson Farms, 371 F. 3d 1011, 1019 (8th Cir.
2004).

39a
cause of action that was filed in district court on March
31, 2017.
Moreover, to the extent that a genuine issue of
material fact exists as to whether the Baptist
defendants intentionally and prematurely15 invoked the
aid of ASMB, (to include Counce and Mabry) in the first
instance, in order to defend against Plaintiff’s racial
discrimination claims in Williams 1, and/or to otherwise
cause injury to Plaintiff in retaliation for filing
Williams 1, they too may be subject to liability under §
1983 for damages arising from the improper revocation
of Plaintiff’s Arkansas medical license.
“Although § 1983 can only be used to remedy a
deprivation of rights done under the color of law, a
private actor can be liable ‘under § 1983 for conspiring
with state officials to violate a private citizen’s rights.
The key inquiry is whether the private party was a
willful participant in the corrupt conspiracy.” White v.
McKinley, 519 F.3d at 815-816. See also Greenwood v.
Ross, 778 F.2d 448, 456 (8th Cir. 1985), (“Claims of
retaliatory discharge based on the first amendment are
commonly asserted in § 1983 actions.”)
Similarly, Plaintiff’s retaliation claim is also
viable under § 1981 and “[a]n individual who establishes
a cause of action under § 1981 is entitled to both
15

See Osuagwu v. Gila Reg’l Med. Ctr., 850 F. Supp. 2d 1216, 1220
(D. N. M. 2012), (“Under HCQIA, any health-care entity that takes
final peerpeer-review action that adversely affects a physician’s
hospital privileges for a period longer than thirty days must report
that final action to the state board of medical examiners. See 42
U.S.C.A. § 11133(a)(1). The board of medical examiners must then
report this information to the National Practitioner Data Bank. See
45 C.F.R. § 60.11(b).”) Here, in addition to eliciting the aid of
ASMB prior to Plaintiff’s exhaustion of the appeals authorized by
the Baptist medical staff bylaws, Baptist submitted a NPDB
report in June, 2010 before making a final decision in April 2011.

40a
equitable and legal relief, including compensatory and,
under certain circumstances, punitive damages,”
entitling both parties to “the right to a jury trial on the
legal claims.” Bibbs v. Jim Lynch Cadillac, Inc., 653
F.2d 316, 318 (8th Cir. 1981).
The damages sought by Plaintiff in his federal
cause of action are not barred by the doctrine of res
judicata because they did not arise until after he filed
his Complaint in Williams 1. Indeed, by intentionally
going forward with the hearing in Plaintiff’s absence, a
genuine issue of material facts exists as to whether
they did so with the intent to preclude Plaintiff from
being able to raise his federal constitutional claims in
his state court case (Williams 1). See Sparkman
Learning Ctr. v. Ark. Dep’t of Human Servs., 775 F.3d
993, 1000 (8th Cir. 2014), (“Based on the Hamilton rule,
constitutional claims must be raised at the
administrative level to preserve such claims for appeal
before the state courts.”) To the extent ASMB
intentionally held the hearing in Plaintiff’s absence for
this reason as well, it deprived Plaintiff of his
fundamental right to access of the courts, which further
supports Plaintiff’s retaliation cause of action filed in
federal court. See Harrison v. Springdale Water &
Sewer Com., 780 F.2d 1422, 1427- 1428 (8th Cir. 1986),
(“An individual’s constitutional right of access to the
courts cannot be impaired, either directly or
indirectly...”)
Plaintiff did not seek compensatory damages16
from ASMB in Williams 1. At the time that Plaintiff
16

See also Arkansas State Medical Board v. Cryer, 521 S.W.3d 459,
463 (Ark. 2017), (“[b]ecause a judgment for Byers would operate to
control the action of the State or subject it to liability, here ACRA
claims against the Board and against Cryer in her official capacity
are barred by article 5, section 20 of the Arkansas Constitution.”)

41a
filed the Williams 1 complaint in state court on
February 25, 2014, the claims alleged in Plaintiff’s
federal cause of action had not yet accrued17 because:
ASMB had entered no orders18 against him; ASMB had
not reported any adverse actions against Plaintiff to the
National Practitioner Data Bank (“NPDB”); and ASMB
had not otherwise taken any adverse actions against
Plaintiff that would have required and/or allowed
Plaintiff to seek further injunctive relief and/or
compensatory damages.
Further, the Consent Order entered into by
Plaintiff and ASMB in 2015, failed to expressly resolve
any of the issues involved in this federal action and
therefore has no preclusive effect on the federal claims
raised herein.
See Barzilay v. Barzilay, 600 F.3d
912, 920 (8th Cir. 2010), (“Because it did not actually
determine the relevant issues, the consent judgment
would have no preclusive effect in these proceedings.”)
Indeed, regarding the only issues that may be
relevant in this case, it is undisputed that, “[t]he parties
have all agreed that the four (4) cases that were
17

“[T]he accrual date of a § 1983 cause of action is a question of
federal law that is not resolved by reference to state law.” Wallace
v. Kato, 549 U.S. 384, 387 (2007).
18
See Baber v. Ark. State Med. Bd., 2010 Ark. 243, 368 S.W.3D
897, 901, (“‘Adjudication’ is defined as an ‘agency process for the
formulation of an order.’ ... ‘Order
Order is defined as the ‘final
disposition of any agency in any matter other than rule making,
including licensing [], in which the agency is required by law to
make its determination after notice and hearing.”) App. 5528, June
20, 2012-email from Juli Carlson to Kate Seippel, of USCD PACE
Program, (“I just spoke with a staff member at your facility who
advised me to email you to let you know we have a licensee, Victor
Williams, that the Board has ordered to undergo an assessment
at your facility prior to being allowed to continue performing
surgical procedures in Arkansas.”) (Emphasis Added.)

42a
reviewed by the Board and subject to the April 3, 2014hearing, will be remanded to the Board for possible
disciplinary action in the future,” and ASMB “agrees to
not proceed on those cases with any disciplinary action
regarding those cases until Dr. Williams’ case against
the remaining defendants in [ ] Pulaski County Circuit
Court Case No. 60CV-14-808, is concluded.” App. 3450,
¶ 3. It is also undisputed that on June 4, 2015, the
“Board further agreed to rescind and void the 2014
revocation of Dr. Williams’ Arkansas medical license
and return his licensure status to that prior to the
hearing due to a lack of notice.” App. 5353.
The Consent Order’s requirement that ASMB
not proceed with any disciplinary action regarding the
four (4) cases at issue until Plaintiff’s state court case is
concluded is consistent with the injunctive relief sought
by Plaintiff when adding ASMB as a defendant when he
re-filed the Williams 1 Complaint in February 2014.
This relief is also consistent with the district
court’s holding in Walker v. Mem’l Health Sys., 231 F.
Supp. 3d 210 (E.D. Texas 2017).19 In Walker, the district
court found that, “[a]n adverse report on the NPDB
that deems a surgeon to have ‘substandard or
inadequate skill’ is intrinsically harmful to that
surgeon’s practice, professional reputation, and
livelihood,” and that, “[a]n erroneously filed report
19

In Walker, the district court ordered the hospital, “and anyone
acting on its behalf to immediately submit to the National
Practitioners Data Bank a Void Report regarding Dr. Walker, and
all such entities and persons shall refrain from filing any other
statements or reports with the National Practitioners Data Bank
relating to the actions the Hospital has taken against Dr. Walker in
connection with the peer review process that is the subject of this
lawsuit, including the imposition of a proctoring requirement,
during the pendency of this suit.” Walker, supra, at 217.

43a
announcing to all interested parties that a physician has
been sanctioned, suspended, or lacks the adequate skill
to practice medicine carries with it the potential to
immediately and irrevocably harm that physician and
his practice. This stigma and reputational harm poses a
substantial threat to [the physician’s] ability to gain or
maintain employment to support his practice.” Id., at
216.
The state court’s failure to address NPDB
reports and/or to otherwise order that such reports be
voided, does not preclude this court from exercising
jurisdiction over Plaintiff’s federal cause of action
seeking damages arising from ASMB’s improper
revocation of Plaintiff’s Arkansas medical license, to
include the false NPDB reports related thereto,
particularly since the Consent Order provided that
Plaintiff would be placed in the position he was “as if
the hearing didn’t happen,”20 and no such negative
reports had been submitted to NPDB, or otherwise
publicly reported by ASMB prior to the April, 2014hearing. App. 4214. See also, App. 5353.
Under Arkansas law, Plaintiff had a right to seek

20

Plaintiff’s federal cause of action (Equal Protection) against the
defendants also relate to the Arkansas State Medical Board’s
failure to afford Plaintiff the opportunity to prosecute his civil
action against the Baptist defendants consistent with the Board’s
customary, normal policies and procedures that are enjoyed by
other physicians. See also Winegar v. Des Moines Indep.
Community Sch. Dist., 20 F.3d 895, 899 (8th Cir. 1994), (“A
property interest in employment can also be created by implied
contract, arising out of customs, practices, and de facto policies.
When such a property interest exists, the employee is entitled to a
hearing or some related form of due process before being deprived
of the interest.”) (Citations Omitted.)

44a
injunctive and/or declaratory relief in Williams 1 prior
to a hearing due to ASMB’s rejection of his successful
completion of the KSTAR physician assessment
program and ASMB’s threat to still go forward with a
hearing unless Plaintiff agreed to attend another
physician assessment program. See Beavers v.
Arkansas State Board of Dental Exam’rs, 151 F.3d 838,
840 (8th Cir. 1998) (“The AAPA permits persons who
allege injury or threat of injury to their person,
business, or property, by any rule or its threatened
application, to seek declaratory judgment of the
validity or applicability of that rule in the circuit courts
of Arkansas. Ark. Code Ann. § 25-15-207.”)
Plaintiff’s federal cause of action against the
named defendants in their individual capacities is
premised upon their individual conduct, acts, and/or
omissions as they relate to the damages suffered by
Plaintiff as a result of the revocation of his Arkansas
medical license, as well ASMB’s subsequent failure to
accurately report the voiding of the revocation of his
medical license from the time that it was entered in
2015 to the present, as there are genuine issues of
material fact as to whether the license revocation
occurred not in furtherance of quality healthcare but in
retaliation for the filing of Williams 1.
“The United States Supreme Court has stated
that ‘the right of access to the courts is indeed but one
aspect of the right of petition.’ The Court has noted that
the right to petition is ‘among the most precious of the
21

21

The injunctive relief sought by Plaintiff in Williams 1, became
moot when the parties entered into the Consent Order. See Toan
v. Falbo, 268 Ark. 337, 595 S.W.2d 936, 937 (Ark. 1980), (“We have
recognized that equity has jurisdiction to enjoin or restrain officers
of state agencies from acts which are ultra vires or beyond the
scope of their authority.”)

45a
liberties safeguarded by the Bill of Rights, and that it
has ‘a sanctity and a sanction not permitting dubious
intrusions.’ As an aspect of the First Amendment right
to petition, the right of access to the courts shares this
‘preferred place’ in our hierarchy of constitutional
freedoms and values. ... The cases from this Circuit, as
well as from others, make it clear that state officials
may not take retaliatory action against an individual
designed either to punish him for having exercised his
constitutional right to seek judicial relief or to
intimidate or chill his exercise of that right in the
future.” Harrison v. Springdale Water & Sewer Com.,
780 F.2d 1422, 1425-1426 (8th Cir. 1985). (Citations
Omitted.)
ASMB also intentionally failed to consider and/or
to present during the April 3, 2014-hearing, exculpatory
evidence that had been previously provided to the
Board prior to Plaintiff’s June 2012, appearance before
the Board, when he appeared as scheduled, along with
the witnesses who were prepared to give sworn
testimony in support of their expert reports. See App.
40-41, ¶s 63 & 64. Contrary to the reports of Counce
and Mabry, Professor Rhonda Tillman, M.D., had
prepared written experts opinions wherein she opined
that the medical treatment provided by Plaintiff met
the applicable standard of care. App. 888-894. In
addition to Dr. Tillman’s reports, Plaintiff had also
submitted the reports of Hamid Mumtaz, M.D., another
physician on the medical staff at Baptist, who also
opined that the medical treatment rendered by Plaintiff
had met the applicable standard of care. App. 895-896.
These reports had been read by defendants Beck and
Hearnsberger before Plaintiff’s Arkansas medical
license was revoked, but were never considered by the
other Arkansas State Medical Board members because

46a
they were not placed into evidence during the hearing
held in April, 2014. App. 3826-3827; App. 3635, 3679,
3684-3689; and App. 4857-4859.
“Where reliance is placed by an administrative
agency upon testimony of certain witnesses in making a
critical factual determination, it will be an abuse of
discretion to fail to hear material evidence which might
impeach, not only the testimony, but the findings made
by the agency as well.” Arkansas State Bd. of Nursing
v. Long, 651 S.W.2d 109, 113, 8 Ark. App. 288, 296 (Ark.
App. 1983).
III. THE DEFENDANTS ARE LIABLE FOR
PLAINTIFF’S STATE LAW CLAIMS ARISING
FROM THE 2014 LICENSE REVOCATION
Because they are related to, elements of, and/or
inextricably intertwined with Plaintiff’s federal claims
alleged in the Complaint filed in federal court,
Plaintiff’s state law claims for abuse of process and
tortious interference also accrued in April 2014, with
the “overt act” of the revocation of Plaintiff’s Arkansas
medical license.
In their brief, the Baptist defendants argue that,
“Dr. Williams argues that an abuse of process and a
tortious interference occurred when his medical license
was revoked in April 2014. He theorizes that his
medical license was revoked in order to coerce22 him to
22

“Abuse of process is somewhat in the nature of extortion or
coercion.” Harmon v. Carco Carriage Corp., 320 Ark. 322, 327
(Ark. 1995). “The key to this tort is the improper use of process
after issuance to accomplish an ulterior purpose for which the
process was not designed. It is the purpose for which the process is
used, once issued, that is of importance.” Id., at 327. (Citations
Omitted.)

47a
drop his civil lawsuit against the ASMB23 and the
Baptist Health Appellees that was pending at that
time.” Baptist Appellees’ Brief, pp. 35-36. (Footnotes
Added.)
Under Arkansas law, “[a] conspiracy may be
shown by direct evidence of an actual agreement or
understanding between conspirators, but it may also be
shown by circumstantial evidence. It may also be
inferred from actions of alleged conspirators, if it be
shown that they pursued the same unlawful object,
each doing a part, so that their acts, although
apparently independent, are in fact connected and
cooperative, indicating a closeness of personal
association and a concurrence of sentiment. Any act
done or declaration made by one of the conspirators in
furtherance, aid or perpetration of the alleged
conspiracy may be shown as evidence against his fellow
conspirators.” Mason v. Funderburk, 446 S.W.2d 543,
548, 247 Ark. 521, 529 (Ark. 1969). (Citations Omitted.)
In Mason, the Arkansas Supreme Court held that,
“[e]ven though one may not be liable as a direct actor in
interfering with existing contracts of employment, he
may incur liability as a participant in a conspiracy
which results in one or more overt acts by others
constituting actionable interference.” Id., at 529.
The April 2014-revocation of Plaintiff’s Arkansas
medical license is the over act which caused the
23

Compare Counce and Mabry’s brief where they argue that, “Dr.
Williams has included Dr. Counce and Dr. Mabry in his alleged
state court claims, although there are no allegations in Dr.
Williams’ Complaint as to the nature of any state claim against
either or facts which would support such allegations.” Appellees
Counce and Mabry’s Br., p. 25. Obviously, Plaintiff’s medical
license could not have been revoked without Counce and Mabry’s
participation in the hearing held in Plaintiff’s absence.

48a
damages that are being sought in Plaintiff’s federal
cause of action. Specifically, the continuous NPDB
reports, which state that Plaintiff committed, “gross
negligence,” or “ignorant malpractice” are defamatory
and continue to be reported despite the state court’s
order directing the parties to: (1) void and rescind the
order revoking Plaintiff’s Arkansas license; (2) to
reinstate Plaintiff’s Arkansas medical license; (3)
remand the four cases to ASMB for possible
disciplinary action in the future after Plaintiff’s state
law claims are disposed of; and (4) to treat the April
2014-hearing as if it did not happen.
Obviously, since there had been no such negative
reports issued before the April 2014-hearing, ASMB is
not treating Plaintiff as if the hearing did not happen.
In addition, while all of the defendants argue that they
are not responsible for the NPDB reports, they
participated in the underlying conduct that led to the
false information contained in the reports that have
been filed and/or that continue to be filed.
In Mason v. Funderburk, the Arkansas Supreme
Court held that, “[d]efamatory statements and false
statements have been recognized as improper actions
giving rise to a cause of action for interference with
contractual relations. We have held that words, written
and published, prejudicing one in his employment, are
actionable. The fact that the language alleged to have
induced a discharge of an employee might be set forth
in the complaint in such a manner as to form the basis of
an action for libel or slander does not prevent the
employee from maintaining an action for wrongful
24

24

See Mason, supra, at 529, (“Such a conspiracy is not actionable in
and of itself, but recovery may be had for damages caused by acts
committed pursuant to the conspiracy.”) (Emphasis Added.)

49a
interference with his contract of employment.” Id., at
530. (Citations Omitted.)
In addition to going forward with the hearing so
that Plaintiff could not cross examine Counce and
Mabry, there also is a genuine issue of material fact as
to whether the defendants knew that Plaintiff would
prevail at a hearing, but went forward with the April
hearing in Plaintiff’s absence so that they could
continuously submit false reports about Plaintiff’s
competence to the NPDB in order to cause Plaintiff to
suffer “the harshest penalty possible,” (i.e., to
continuously tortiously interfere with Plaintiff’s
existing and potential contractual and business
relationships with his patients, insurers, and other
hospitals).
“Abuse of process differs from malicious
prosecution in that the gist of the tort is not
commencing an action or causing process to issue
without justification, but missing or misapplying
process justified in itself for an end other than that
which it was designed to accomplish. Consequently in
an action for abuse of process it is unnecessary for the
plaintiff to prove that the proceeding has terminated in
his favor.” Lewis v. Burdine, 240 Ark. 821, 824 (Ark.
1966).
Conclusion
In light of the forgoing, the district court’s
orders granting the defendants’ motions to dismiss and
motions for summary judgment should be reversed.
Respectfully submitted, this 13th day of
December, 2018.
By: s/s Eric E. Wyatt, Esq.

50a
Eric E. Wyatt
Georgia Bar No. 778955
George W. McGriff_
Georgia Bar No.: 493225
GEORGE W. MCGRIFF &
ASSOCIATES
600 Colonial Park Drive
Roswell, Georgia 30075-3746
(770) 649-7160
Email: ericewyatt@icloud.com

Andre K. Valley
423 Rightor, Suite #2
Helena-West Helena, AR
72342 870-338-6487 Ext.2
Telephone
870-338-8030 Facsimile
Andrekvalley@gmail.com
Attorneys for Plaintiff

51a
Case No. 18-2423

IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
VICTOR B. WILLIAMS, M.D.,
Appellant,
vs.
BAPTIST HEALTH MEDICAL CENTER, et al.,
Appellees.
Appeal from the U.S. District Court
for the Eastern District of Arkansas
Honorable James Moody, District Judge
Case No. 4:17-CV-205-JM
BRIEF OF APPELLANT

Andre K. Valley
Law Office of Andre
K. Valley, P.A.
423 Rightor, Suite # 2
Helena-West Helena,
AR 72342
Telephone: 870-338-6487
Ext. 2
Facsimile: 870-338-8030
Andrekvalley@gmail.com

Eric E. Wyatt
George W. McGriff
George W. McGriff &
Associates
600 Colonial Park Drive
Roswell, Georgia 30075-3746
Telephone: 770-649-7160
Facsimile: 770dcgwm@mindspring.com

COUNSEL FOR APPELLANT
ORAL ARGUMENT NOT REQUESTED

52a
Summary of the Case and Waiver of Oral Argument
Victor B. Williams, M.D.’s unrestricted surgical
medical staff privileges at Baptist Health Medical
Center (hereinafter, “Baptist”) were terminated in
April 2011. Williams filed suit against Baptist in April,
2011, in Pulaski Circuit Court, relying upon the
Arkansas Civil Rights Act and Arkansas state law.
When he refiled his lawsuit in February, 2014 after
having obtained a nonsuit in March, 2013, Williams also
sought injunctive relief against the Arkansas State
Medical Board (hereinafter, “Medical Board”), and one
of its members who had previously served as a member
of the surgical control committee at Baptist, and who
became a member of the Medical Board in June 2009.
After being served with the re-filed Complaint in
March 2014, but before filing its Answer, the Medical
Board held a hearing in April 2014, and revoked
Williams’s Arkansas medical license in his absence.
Williams filed suit in federal court on March 31, 2017
seeking damages related to the revocation of his
Arkansas medical license.
Appellant does not request oral argument, but
will attend if the Court finds that oral argument would
be helpful and/or necessary for the Court to adequately
decide the issues raised on appeal.
Corporate Disclosure Statement
Appellant, Victor Williams, M.D., brought this action as
an individual.

53a
Table of Contents
Summary of the Case and Waiver of Oral Argument .... i
Corporate Disclosure Statement ....................................... i
Table of Authorities........................................................... iv
Jurisdictional Statement.....................................................1
Statement of the Issues ......................................................2
Statement of the Case .........................................................3
Summary of the Argument...............................................12
Argument and Citations of Authorities..........................13
I. The District Court Erred in Granting the
Baptist Defendants’ Motion to Dismiss. .............13
A. Res Judicata Does not Apply to a
Different Cause of Action Arising After
the First Lawsuit Was Filed..........................14
B. The State Court’s Limitations on
Discovery Thwarted Plaintiff’s Ability
to Litigate His Discrimination Claims in
State Court........................................................20
C. The Trial Court Erred in Holding that
the Baptist Defendants Were in Privity
with Defendant Surgical Clinic of
Central Arkansas .............................................21
II. The District Court Erred in Granting
Counce and Mabry’s Motions for Summary
Judgment.................................................................22
III. The District Court Erred in Granting
Beck and Hearnsberger’s Motion for Summary
Judgment.................................................................23
IV.The District Court Erred in Denying
Plaintiff’s Motion to Amend the September
19, 2017 Order Granting the Baptist
Defendants’ Motion to Dismiss. ...........................33
Conclusion. ..........................................................................40
Certificate of Compliance. ................................................41

54a
Certificate of Service........................................................ 42
Addendum ..............................................................................
Doc. 47:

Order Granting Defendants’ Motion
to Dismiss (September 19, 2017)APP. 1053
Doc. 52: Order Denying Plaintiff’s Motion to
Alter Judgment and Denying
Plaintiff’s Motion to Stay (November
1, 2017) ......................................... APP. 1471
Doc. 82: Order Denying Plaintiff’s Motion to
Defer Ruling (January 9, 2018) APP. 2972
Doc. 146: Order
Granting
Defendants
Hearnsberger And Beck’s Motion for
Summary
Judgment;
Directing
Clerk to close case and cancelling
The Trial scheduled for 06/18/2018
(May 31, 2018) ............................. APP. 5305
Doc. 147: Judgment (May 31, 2018) .......... APP. 5309

55a
Table of Authorities
FEDERAL CASES
Arnold v. Wood, 238 F.3d 992, 998 (8th Cir. 2001) .....-50Baker v. John Morrell & Co., 266 F.Supp.2d 909,
920 (N.D. Iowa 2003)................................. .-51-, -54Beavers v. Arkansas State Board of Dental
Examiners, 151 F.3d 838, 840 (8th Cir. 1988)-51-, -58Bob’s Home Service, Inc. v. Warren County, 755
F.2d 625, 628 (8th Cir. 1984) ..............................-59Braswell v. Haywood Regional Med. Ctr., 352
F.Supp. 2d 639, 650 (W.D. N.C. 2005) ..............-34Burns v. Reed, 500 U.S. 478 (1991).................................-2CBOCS West, Inc. v. Humphries, 553 U.S. 442,
457 (2008)..............................................................-44Conner v. Reinhard, 847 F.2d 384, 395 (7th Cir.
1988) ......................................................................-48Crawford v. Paris, 897 F. Supp. 928, 931 (D. Md.
1995) ......................................................................-48Curtis v. Citibank, N.A., 226 F.3d 133, 139 (2nd
Cir. 2000) ..............................................................-25Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993) .....................................................-34Doe v. McCulloch, 835 F. 3d 785, 788
(8th Cir. 2016) ............................................. -53-, -59England v. Louisiana State Board of Medical
Examiners, 375 U.S. 411, 421 (1964)......... -28-,-29Ennix v. Stanten, 556 F. Supp. 2d 1073, 1086 (N.D.
Cal. 2008) .......................................................-41-, 42First American Bank & Trust Co. v. Ellwein, 520
F.2d 1309, 1311 (8th Cir. 1975)............................-28Germain Real Estate Co. v. HCH Toyota, LLC,
778 F.3d 692, 695 (8th Cir. 2015) .............. -22-, -23Greenwood v. Ross, 778 F.2d 448 (8th Cir. 1985) .........-2Gwartz v. Jefferson Memorial Hosp. Ass’n, 223
F.3d 1426, 1428 (8th Cir. 1994) ..........................-19-

56a
Hafer v. Melo, 502 U.S. 21, 31 (1991)............................-35Harrison v. Springdale Water & Sewer
Commission, 780 F.2d 1422, 1425-1426 (8th
Cir. 1985)...............................................................-45Headley v. Bacon, 828 F.2d 1272, 1275 (8th Cir.
1987) ......................................................................-31Howlett v. Rose, 496 U.S. 356, 376 (1990) ...................-35Innovative Home Health Care v. P.T.-O.T. Assoc.,
141 F.3d 1284, 1286 (8th Cir. 1998) ...................-50Legnani v. Alitalia Linee Aeree Italiane, S.P.A.,
400 F.3d 139, 141 (2nd Cir. 2005).......................-26Lundquist v. Rice Memorial Hospital, 238 F.3d
975, 977 (8th Cir. 2001) .......................................-25Matzker v. Herr, 748 F.2d 1142, 1150-1151 (7th
Cir. 1984)...............................................................-45McCullough v. Univ. of Ark. for Med. Sciences, 559
F. 3d 855, 864 (8th Cir. 2009) .............................-44MIF Realty L.P. v. Rochester Assoc., 92 F.3d 752,
755-756 (8th Cir. 1996) ........................................-51Mills v. Des Arc Convalescent Home, 872 F.2d 823,
827 (8th Cir. 1989) ..............................................-31Neal v. Sparks Regional Med. Ctr., 422 S.W.3d 116 ..-34Norwood v. Dickey, 409 F.3d 901, 903
(8th Cir. 2005) ............................................. -52-, -53Pleming v. Universal-Rundle Corp., 142 F.3d 1354,
1357 (11th Cir. 1998) .......................... -26-,-27-, -29R. v. Adams, 649 F.2d 625, 628 FN6 (8th Cir. 1981) ..-53Riehm v. Engelking, 538 F.3d 952, 962-963 (8th
Cir. 2008)...............................................................-49Ripplin Shoals Land Co., LLC v. United States
Corps of Engineers, 440 F.3d 1038, 1042
(8th Cir. 2006) ......................................................-26Robinson v. Omaha, 866 F.2d 1042, 1043 (8th Cir.
1989) ......................................................................-51-

57a
Smith v. Johnson, 779 F.3d 867, 870, 871
(8th Cir. 2015) ....................................-19-, -32-, -47Stoner v. Ark. Dep’t of Corr., 983 F. Supp. 2d
1074, 1103 (E.D. Ark. 2013)................................-38The Baker Group, L.L.C. v. Burlington Northern
and Santa Fe Railway Co., 228 F.3d 883,
886 (8th Cir. 2000) ...............................................-25Varner v. Peterson Farms, 371 F. 3d 1011, 1019
(8th Cir. 2004) ......................................................-24Wade v. Haynes, 663 F.2d 778, 786 (8th Cir. 1981) ....-45Walker v. Mem’l Health Sys., 231 F. Supp. 3d 210,
217 (E.D. Texas 2017) .........................................-23Wallace v. Sparks Health Sys., 415 F.3d 853, 858
(8th Cir. 2005) ......................................................-44Wealot v. Brooks, 865 F.3d 1119, 1124 (8th Cir.
2017) ......................................................................-32White v. Frank, 855 F.2d 956, (2nd Cir. 1988) ..............-2Winegar v. Des Moines Indep. Community Sch.
Dist., 20 F.3d 895, 899-900 (8th Cir. 1994)-19-, -58Winthrow v. Larkin, 421 U.S. 35, 58 (1975).................-40Younger v. Harris, 401 U.S. 37 (1971)..........................-52ARKANSAS CASES
Alexander v. E. Tank Services, Inc., 2016 Ark.
App.
185,
486
S.W.3d
813,
816
(Ark. App. 2016) ......................................... -54-, -58Ark. Ins. Dep’t v. Henley, 481 S.W.3d 467, 468
(Ark. App. 2016) ..................................................-46Ark. State Med. Bd. v. Byers, 521 S.W.3d 459, 465
(2017).....................................................................-35Arkansas Dept. Of Parks & Tourism v. Jeske, 229
S.W.3d 23, 27, 365 Ark. 279, ___ (Ark. 2006) ...-56Arkansas State Medical Bd. v. Grimmett, 463
S.W.2d 662, 665 (Ark. 1974) ...............................-37Baber v. Ark. State Med. Bd., 2010 Ark. 243, 248,
368 S.W.3d 897, 901 (Ark. 2010) ........................-47-

58a
Brodie v. City of Jonesboro, 2012 Ark. 5 (Ark.
2012) ......................................................................-58Davis v. Schimmel, 253 Ark. 1201, 482 S.W.2d 785,
792 (Ark. 1972).....................................................-25Dodd v. Sparks Regional Medical Center, 204
S.W.3d 579 (2005). ...............................................-34Dodson v. Allstate Insurance Co., 47 S.W.3d 866
(Ark. 2001)............................................................-57Ewing v. Cargill, Inc., 919 S.W.2d 507, 508 (Ark.,
1996) ......................................................................-59First National Bank v. Newport Hospital and
Clinic, Inc., 663 S.W.2d 742, 744, 281 Ark.
332, 335-336 (1984)...............................................-57Ford v. St. Paul & Fire & Marine Ins. Co., 5
S.W.3d 460, 339 Ark. 434 (Ark. 1999) .... . -18-, -34Fryar v. Touchstone Physical Therapy, Inc., 229
S.W.3d 13 (Ark. 2006). ........................................-34Hollabaugh v. Arkansas State Medical Bd., 861
S.W.2d 317, 320, 43 Ark. App. 83, 86 (Ark.
App. 1993).............................................................-37Island v. Buena Vista Resort, 103 S.W.3d 671, 675
(Ark. 2003)............................................................-55Lindsey v. Green, 2010 Ark. 118, 369 S.W.3d 1, 7
(Ark. 2010)............................................................-48Turner v. Northwest Ark. Neurosurgery, 133
S.W.3d 417, 423-425 (Ark. App. 2003) ..............-57Winkler v. Bethell, 210 S.W.3d 117, 121 (Ark.
2005) ......................................................................-31UNITED STATES CODE
28 U.S.C. § 1291 .................................................................-128 U.S.C. § 1331 .................................................................-128 U.S.C. § 1367 .................................................................-128 U.S.C. §1343 ..................................................................-142 U.S.C. § 1981 .............................. -1-, -34-, -42-, -44-, -45-

59a
42 U.S.C. § 1983............. -1-, -35-, -36-, -45-, -48-, -49-, -5528 U.S.C. § 1985(3) ..........................................................-3528 U.S.C. § 2000e.............................................................-34ARKANSAS CODE ANNOTATED
A.C.A. § 16-114-206(a) ...................................................-34A.C.A. § 16-123-105©............................................. -55-, -56A.C.A. § 16-46-105(b)(2).................................................-56A.C.A. § 17-95-301(h)(2) ....................................... -36-, -38A.C.A. § 17-95-410(c)(2)........................................ -14-, -25A.C.A. § 17-95-410(e)(1)...................................................-8A.C.A. § 16-46-105...........................................................-59Arkansas Civil Rights Act-1-, -8-, -21-, -52-, -54-,-55-, -59Federal Rules of Civil Procedure
Rule 12(b)(6)....................................................................-49Rule 59(e) .........................................................................-50Rule 60(b)................................................................ -50-, -51Other Authorities
Civil Rights Act of 1964 .................................................. -34
Federal Rule of Evidence 702 ........................................ -33

60a
Jurisdictional Statement
Statement
This is an appeal from a final order and judgment
of the U.S. District Court for the Eastern District of
Arkansas in an action brought pursuant to 42 U.S.C. §§
1981 and 1983. The district court had original
jurisdiction over the federal claims under 28 U.S.C. §§
1331 and 1343. The district court had supplemental
jurisdiction over the state law claims raised in the
Complaint pursuant to 28 U.S.C. § 1367.
The district court entered its final order and
judgment on May 31, 2018. (APP. 5305, 5309).
(Appellant’s Appendix (“APP.”)). On June 29, 2018,
Appellant timely filed his Notice of Appeal. (APP. 5310)
Therefore, this Court has appellate jurisdiction over
this appeal under 28 U.S.C. § 1291.
Statement of the Issues
A.

Whether the district court erred in granting the
Baptist Defendants’ motion to dismiss in its
September 19, 2017 Order. (APP. 1053)

B.

Whether the district court erred in granting the
motions for summary judgment filed by
defendants Counce and Mabry in its March 8,
2018 Order. (APP. 3394)
White v. Frank, 855 F.2d 956, (2nd Cir. 1988)
Burns v. Reed, 500 U.S. 478 (1991)

C.

Whether the district court erred in granting the
motions for summary judgment filed by
defendants Beck and Hearnsberger in its May
31, 2018 Order. (APP. 5305)
Greenwood v. Ross, 778 F.2d 448 (8th Cir. 1985)

61a
D.

Whether the District Court Erred in Denying
Plaintiff’s Motion to Amend the September 19,
2017 Order Granting the Baptist Defendants’
Motion to Dismiss in its November 1, 2017
Order. (APP. 1471)
Statement of the Case
Case

On November 25, 2003, Plaintiff was first
granted medical staff privileges at Baptist Health
Medical Center, Little Rock, for a two-year time period.
Complaint ¶20, (APP. 21). At this time, Plaintiff was
the only African-American surgeon in Little Rock,
Arkansas area who provided both the range and the
type of surgeries to patients in the areas of general,
cardiac, thoracic and vascular surgery. Id.
On September 26, 2005, Plaintiff submitted his
first application for reappointment of his medical staff
privileges at Baptist, and on February 27, 2006, his
application for reappointment was granted for another
two-year period. Complaint ¶21 (APP. 21-22). On March
20, 2008, Plaintiff’s second application was granted for
an additional two years. Id., at 22.
In November 2008, Plaintiff purchased a parcel
of real property located at 9712 W. Markham St., Little
Rock Arkansas for the purpose of constructing a
medical office to provide medical treatment for his
surgical patients. Id. In June 2009, defendant
Hearnsberger was appointed to become a member of
the Arkansas State Medical Board. Hearnsberger
Depo. (APP. 3531). In the fall of 2009, Plaintiff
completed the build out process for his new medical
office, and began advertising the same to inform
patients, both current and potential, that he would

62a
begin servicing and treating patients there. Complaint
¶25. (APP. 22).
On November 3, 2009, Plaintiff submitted his
third application for reappointment of his medical staff
privileges at Baptist. Id. At the time that he submitted
his third application for reappointment, Plaintiff had
never had any adverse actions taken against him
regarding any medical treatment that he had provided.
Complaint ¶28. (APP. 22-23). According to reports
generated during Plaintiff’s 2009 credentialing reapplication process, it was documented that during the
one year “look back” period September 1, 2008, through
August 31, 2009, Plaintiff had performed more than 550
surgical procedures at Baptist. Complaint ¶29. (APP.
24). As Chief of the Department of Surgery, Defendant
Burson became aware of the number of surgical
procedures that had been performed by Plaintiff when
Burson approved1 Plaintiff’s recredentialing application
packet in January 2010. Complaint ¶29. (APP. 24).*
On February 5, 2010, defendants Weeks and
Burson met with Plaintiff and attempted to coerce
Plaintiff into voluntarily resigning his medical staff
privileges because they knew that there was no
sufficient basis to deny his pending application for recredentialing for another two years. Complaint ¶30.
1
On January 18, 2010, Burson executed a document approving
Plaintiff’s re-credentialing application and attested that, “I have
reviewed this Application for Reappointment and supporting
documentation. I have knowledge of this applicant’s clinical
judgment and technical skills, and I believe this applicant is
currently competent to perform the clinical privileges requested,
including clinical privileges for performing high-risk conditions.
This applicant has adhered to the requirements of the Professional
Staff Bylaws and rules of the hospital.”
*
See Keathley Depo., (APP. 5066); Complaint ¶ 33 (APP. 27)

63a
(APP. 24). Plaintiff refused to voluntarily resign his
medical staff privileges. Complaint ¶31, (APP. 25).
On April 1, 2010, Plaintiff was informed him that
his reappointment application to the Baptist Health
Professional Staff had been approved for an additional
(fourth) two year period effective March 2010 through
March 2012. Complaint ¶39. (APP. 30). A few days
later, on April 21, 2010, Plaintiff’s medical staff
privileges at Baptist were terminated rendering him
unable to continue to provide medical services at
Baptist from that date forward. Complaint ¶42. (APP.
31). Plaintiff immediately pursued the appeal process
authorized by the Baptist medical staff bylaws, as
Plaintiff, through counsel, filed a notice of appeal of the
decision to terminate his medical staff privileges on
May 25, 2010, and also included in the notice Plaintiff’s
belief that “the actions taken against him were ‘racially
biased and discriminatory.” Complaint ¶s44, 46. (APP.
32-33).
At the time that Plaintiff’s medical staff
privileges were terminated in April 2010, there had not
been a complaint filed with the Arkansas State Medical
Board against Plaintiff by any patient and/or person
related to the four medical cases at issue. Complaint
¶45 (APP. 33). The customary practice at the Arkansas
State Medical Board is to promptly give the physician
notice and the opportunity to respond to any complaints
immediately after they are received. See Cryer Depo.
(APP 3916-3917, 3940, 3947, 4014).
At some time on or before October 19, 2010,
employees, agents and/or representatives of the
Arkansas State Medical Board had obtained copies of
the medical records of the four patients at issue during
the appellate process at Baptist Hospital related to the
termination and/or revocation of Plaintiffs medical staff

64a
privileges. Complaint ¶46. (APP. 447). When the
Medical Board first obtained the medical records of the
patients that were used by Baptist hospital to
terminate Plaintiffs medical staff privileges, Plaintiff
had not yet exhausted the appeal rights that he had
available at Baptist Hospital pursuant to the medical
staff bylaws. Id.
The Medical Board’s policy and customary
practice had always been to await the outcome of any
appeals and/or litigation related to medical treatment
provided by a physician prior to any formal action being
taken by the Board. See Hearnsberger 2014 Depo.
(APP. 3714-3716); Beck 2014 Depo. (APP 4808),
(“whenever there is an issue with a physician before the
Board and there’s ongoing litigation, in an attempt to
be as fair as possible we like that litigation to be
completed or brought to a close before the Board takes
any kind of action.”)
In the transmittal letter sent to one of the
medical record reviewers (Counce) on November 12,
2010, before Plaintiff’s first appearance before the
Board, Peggy Cryer, the Board’s Executive Secretary,
requested that the reviews be provided to the Board
before November 19, 2010, in time for the December
Board meeting, and that, “we very much appreciate
your willingness to work with us to settle this case
promptly.” Cryer Depo. (APP. 3997-3998). Cryer did
not have any authority with respect to physician
disciplinary matters, absent specific directions from the
Board. Cryer Depo. (APP. 3972-3974, 3993-3995); Beck
Depo. (APP. 4786-4789; 4803-4804).
As a result of Plaintiff’s first appearance before
the Medical Board in December 2010 he agreed to get a
proctor for all colon surgery cases that he would
perform in the future even though there had never

65a
been a hearing noticed against him or any findings2
made that he had violated the Arkansas Medical
Practices Act. Complaint ¶53. (APP. 37).
Immediately after he exhausted the appellate
process at Baptist, on April, 12, 2011, Plaintiff filed
Civil Action No. 60CV-11-l 990 in Pulaski County
Circuit Court against Baptist, and others alleging,
among other things, that he had been discriminated
against because of his race, Black, in violation of the
Arkansas Civil Rights Act of 1993. Complaint ¶54.
(APP. 37).
On October 3, 2011, Dr. Gilbert3 submitted a
report to the Medical Board which stated in relevant
part as follows:
I have served as a proctor for Dr. Victor
Williams since December 2010. I have
proctored him during performance of
abdominal colon operations as well as
other surgical pro
procedures
cedures at his request.
I have discussed the cases with him prior
to surgical interventions and in the
postoperative periods. His knowledge
base is proficient in the areas of general
surgery, and I have found his technical
abilities to be proficient as wel
well.
l. I have
no concerns regarding his judgment or
surgical technique. He has handled
2

See the Medical Practices Act, A.C.A. § 17-95-410(e)(1), “At the
conclusion of the hearing, the board shall first decide whether the
accused is guilty of the charges against him or her and then decide
on appropriate disciplinary action.”
3
Dr. Carl Gilbert is a Black (African American) board certified
general surgeon that who had served as Plaintiff’s proctor for colon
cases based on his agreement with the Medical Board. Beck 2014
Depo., (APP. 4882-4883, 4892-4893, 4921-4922).

66a
patients with multiple complex medical
issues well.
In summary, his preoperative and
postoperative judgment is appropriate
and his technical skills are proficient and
within the standard of care. For any
questions please do not hesitate to
contact me.
Complaint ¶59. (APP. 39-40).
On December 1, 2011, the Arkansas State
Medical Board voted to Notice Plaintiff for a
disciplinary hearing, even though they had told him
previously on June 16, 2011 to “Return in one (1) year
for an update (June 2012),” and even though there were
no other acts and/or omissions committed by Plaintiff
subsequent to June 2011 that would constitute an
alleged violation of the Arkansas Medical Practices Act,
i.e., “gross negligence or ignorant malpractice.”
Complaint ¶62. (APP. 40)
On June 8, 2012, Plaintiff appeared at the
Arkansas State Medical Board for a scheduled hearing,
along with counsel, and several witnesses who were
going to testify on his behalf but the Board voted to
postpone the hearing purportedly because Counce
could not attend. Complaint ¶63. (APP. 40).
Hearnsberger 2014 Depo. (APP. 3728)
One of the witnesses who appeared with Plaintiff
was Dr. Rhonda Tillman, who was a professor of
surgery at the University of Arkansas. Tillman had
already given written expert opinions4 wherein she
4

In addition to acknowledging that she is a professor at the
University of Arkansas Medical School, the defendants who knew
Dr. Tillman all testified that she has a reputation as a competent

67a
opined that Plaintiff had not deviated from the
applicable standard of care during the disciplinary
proceedings held against him at Baptist Health.
Complaint, ¶64. (APP. 41).
In addition to postponing the scheduled hearing
after Plaintiff had arrived with witnesses prepared to
testify on his behalf, on June 8, 2012, the Board
requested that Plaintiff cease to perform any surgical
procedures at all until he completed a physician
assessment program and submit the results to the
Board. Complaint, ¶63. (APP. 40-41).
In December 2012 Plaintiff was recertified by
the Board of Surgery with his recertification set to
expire in July 2023. Complaint, ¶70., (APP. 43). In
February 2013, Plaintiff notified the Arkansas State
Medical Board about his recertification and requested
that the same be considered in lieu of him having to
complete a physician assessment program in order to
renew his medical license. Complaint, ¶71. (APP. 43).
On August 1, 2013, the Arkansas State Medical Board
voted to proceed with a disciplinary hearing against
Plaintiff in October 2013 unless Plaintiff successfully
completed a physician assessment program. Complaint,
¶74. (APP. 44).
On August 2, 2013, Plaintiff applied to attend the
KSTAR Physician Assessment Program at Texas A&M
general surgeon. Hearnsberger 2014 Depo., (APP. 3635). Beck
2014 Depo., (APP. 4924). Yet, Beck and Hearnsberger determined
that Tilman’s reviews carried less weight than Counce and
Mabry’s. Hearnsberger 2014 Depo., (APP. 3635, 3679, 3684-3689).
Beck 2014 Depo., (APP. 4857-4858, 4922-4924). Further, Board
member Betton, who testified that Tillman has a “very good
reputation,” stated that he never saw her reviews and that they
were not admitted during the April, 2014 hearing. Betton Depo.,
(APP. 3827, 3877-3878).

68a
University Health Science Center. Complaint, ¶ 75.
(APP. 44). He paid a total amount of $13,000.00 in costs
and fees for the assessment. Id. He successfully
completed the testing dates on September 5-6, 2013,
and the KSTAR Meeting and Determinations on
September 30, 2013. Id. The Final Report was prepared
on October 9, 2013, and the surgeon who interviewed
Plaintiff during his assessment indicated that he would
not place any restrictions on Plaintiffs ability to
continue surgical practice. Id.
On December 23, 2013, the Board, through
counsel, wrote the Medical Director of the KSTAR
program and provided certain information for his
consideration, to include, “a copy of a lawsuit that was
filed involving Baptist Medical Center, Little Rock, and
Dr. Williams.”5 Complaint, ¶ 77. (APP. 45) Notably
absent from the materials submitted by the Board to
KSTAR was any information related to the surgical
cases at issue. Id. According to the correspondence
from the Board, it was furnishing the supplemental
information to KSTAR “in the hopes that it would give,
... a more complete picture of what has happened with
Dr. Williams.” Id.
On February 25, 2014, Plaintiff re-filed his action
against Baptist Health Medical Center in Pulaski
County Circuit Court, Civil Action No. 60CV-14-808,
and added the Arkansas State Medical Board as a
5

When Plaintiff attended the KSTAR program and when the
Board sent a copy of his Civil Rights Complaint to KSTAR
officials, his lawsuit was no longer pending. On March 5, 2013, upon
consideration of Plaintiff’s Motion to Voluntary Non-Suit his
cause of action as a matter of right, the trial court in Civil Action
No. 60CV-11-1990 entered an Order of Voluntary Dismissal, and
dismissed Plaintiffs cause of action without prejudice to re-file, in
accordance with Ark. R. Civ. P. 41. Complaint, ¶72. (APP. 44).

69a
named defendant because the Board failed to accept his
successful completion of the KST AR program, and in
light of the other facts and circumstances surrounding
the way he had been treated by the Arkansas Medical
Board since October 2010,6 even though there had been
no hearing held and no finding made by the Board that
Plaintiff had violated the Arkansas Medical Practices
Act. Complaint, ¶78. (APP. 45).
The Arkansas State Medical Board was served
with the timely re-filed lawsuit (Civil Action No. 60CV14- 808) that was filed by Plaintiff on February 25, 2014,
by personal service on Beck, Chairman of the Arkansas
State Medical Board on March 7, 2014. Complaint, ¶80.
(APP. 46). Civil Action No. 60CV-14- 808 sought to
have the trial court enjoin any further proceedings
against Plaintiff by the Board until the final disposition
of his claims against Baptist in accordance with the
Board’s customary policies and procedures. Complaint,
¶s 48, 80. (APP. 34-35, 46-47).
Notwithstanding
Plaintiff’s
request
for
injunctive relief in Civil Action No. 60CV-14-808, and
without providing Plaintiff with prior notice as required
by A.C.A. § 17-95-410(c)(2), the Board went forward
with a hearing in Plaintiffs absence and revoked his
medical license in April 2014. Complaint, ¶s 81-83.
(APP. 47-48).

6

Based upon agreements entered into by the parties and/or
“orders entered by the Board” during his appearances before the
Board, he only performed certain surgical procedures with a
proctor from December 2010 through December 2011 and he
ceased to perform any surgical procedures after his June 8, 2012,
appearance before the Board. Complaint, ¶79. (APP. 46). Beck
2014 Depo., (APP. 4879-4880, 4918-4920). Hearnsberger 2014
Depo., (APP. 3664, 3666, 3724, 3738-3739)

70a
After revoking Plaintiff’s Arkansas medical
license, on April 30, 2014, the Board submitted a report
to the National Practitioner Data Bank stating that the
Board had revoked Plaintiffs medical license because
Plaintiff had “violated the Medical Practices Act, in that
he exhibited gross negligence and ignorant malpractice
in the manner in which he performed diagnostic workup
and surgical procedures.” Complaint, ¶ 84. (APP. 48).
Plaintiff filed an appeal and a Petition for
Judicial Review of the Board’s Order revoking his
medical license in Pulaski Circuit Court on May 2, 2014,
Civil Action No. 60CV-l 4-l 739. On that same date,
Plaintiff filed a Motion to Stay Order Revoking Medical
License, and attached thereto an Affidavit of Gene
McKissic, which clearly evidenced that Plaintiff had not
been notified of the date and time for the hearing that
had been held in his absence. Complaint, ¶85. (APP.
48).
On April 15, 2015, just two days prior to a
scheduled hearing on Plaintiff’s Motion for Declaratory
Judgment, that had been filed in both actions that were
pending in state court, the trial court in entered an
Order for the parties to engage in a settlement
conference to address the issues raised in both cases.
Complaint, ¶86. (APP. 48-49). The parties held
settlement conferences on May 12, 2015, and on June 4,
2015, and a tentative agreement was reached with
proposed consent orders to be drafted and entered in
both Civil Action No. 60CV-14-808, and Civil Action
No. 60CV-14-1739.
On October 5, 2015, the trial court entered an
order directing the parties to execute the proposed
order prepared by the Board, Pursuant to the consent
order, Williams dismissed the Petition for Judicial
Review of the Order revoking his Arkansas medical

71a
license (Civil Action No. 60CV-14-1739) with prejudice,
and dismissed the Board defendants (Arkansas State
Medical Board and Hearnsberger in his official
capacity) from Civil Action No. 60CV-14-808 with
prejudice. (APP. 653).
During the settlement discussions, defendants
Beck and Hearnsberger both insisted that the actions
against the Board and Hearnsberger in his official
capacity be dismissed “with prejudice.” (APP. 43374342). The Board reinstated Plaintiffs medical license
and agreed to postpone disposition and/or disciplinary
action to be taken on the four surgical cases at issue
until the final disposition of Civil Action No. 60CV-14808. The consent order was executed as ordered and
filed on November 3, 2015. Complaint, ¶88. (APP. 49).
Plaintiff filed this action on March 31, 2017
seeking damages arising from the termination of his
Arkansas medical license in April, 2014. On July 26,
2017, before filing an Answer to the Complaint, the
Baptist Defendants (Baptist Health, Tim Burson, Chris
Cate, Susan Keathley, Scott Marotti, Everett Tucker,
Douglas Weeks and Surgical Clinic of Central
Arkansas) filed a motion to dismiss (APP. 143). The
trial court entered an Order granting the Baptist
Defendants’ motion to dismiss on September 19, 2017
holding that, “the claims made in Plaintiff’s Complaint
are barred by res judicata.” (APP. 1053)
On October 16, Plaintiff filed a Motion to Alter or
Amend the September 19, 2017 Order Granting the
Baptist Defendants’ Motion to Dismiss and Motion to
Stay Further Proceedings Pending the Final
Disposition of the Ongoing Parallel Arkansas State
Court Proceedings (APP. 1062), which was denied on
November 1, 2017. (APP. 1471)

72a
On March 8, 2018, the district court entered an
Order (APP. 3394) granting Counce and Mabry’s
motion for summary judgment. On May 31, 2018, the
district court entered an Order (APP. 5305) granting
Beck and Hearnsberger’s motion for summary
judgment and a separate final judgment (APP. 5309)
against Plaintiff. On June 29, 2018, Plaintiff filed his
Notice of Appeal (APP. 5310).
Summary of the Argument
Plaintiff brings this appeal from the district
court’s orders granting the Baptist defendants’ motion
to dismiss and the other defendants’ motions for
summary judgment. Like the state court action that is
currently pending before the Arkansas appellate
court(s), Plaintiff’s claims here were disposed of
without even a cursory evaluation by the court7 of the
underlying accusations of medical negligence against
Plaintiff.
In the absence of controlling case law providing
otherwise, unlike a medical provider defending against
a claim of medical negligence in a malpractice case, who
is entitled to summary judgment if a claim is filed
against him without supporting expert opinion
evidence,8 a medical provider like Plaintiff, who is
7

When moving for summary judgment and/or in filing their
motions to dismiss, in both the federal and state court actions, the
defendants failed to support their accusations of medical
negligence with probative medical expert testimony.
8
See Ford v. St. Paul & Fire & Marine Ins. Co., 5 S.W.3d 460, 339
Ark. 434 (Ark. 1999), (“We have held that the proof required to
survive a motion for summary judgment in a medical malpractice
case must be in the form of expert testimony. It is simply not
enough for an expert to opine that there was negligence which was

73a
discriminated against in disciplinary proceedings in the
state of Arkansas, would be unfairly subject to the
whim of any “expert,” who for any number of reasons,
(economic competitor, racial / sexual / religious bias,
etc.) may be willing to give an unsubstantiated, false,
defamatory, conclusory opinion accusing a fellow
physicians of negligence when he/she expects to be
insulated by statutory immunity.
“The fundamental requirement of due process is
the opportunity to be heard at a meaningful time and in
a meaningful manner. ... Due process is a flexible
concept that varies with the particular situation.”
Winegar v. Des Moines Indep. Community Sch. Dist.,
20 F.3d 895, 899-900 (8th Cir. 1994).
The evidence of record creates a genuine issue of
material fact as to whether each named defendant
agreed to participate in a process whereby Plaintiff
would be falsely reported to be an incompetent surgeon
for the longest possible period of time without being
afforded any meaningful opportunity to cross examine
the source of the reports under oath. As such, they
acted with malice and with the intent to injure, and
they should be subject to liability for all of the claims
raised in the Complaint.
Argument and Citations of Authorities
I. The District Court Erred in Granting the
Baptist Defendants’ Motion to Dismiss

the proximate cause of the alleged damages. The opinion must be
stated within a reasonable degree of medical certainty or
probability.”)

74a
This Court reviews the district court’s findings
construing the complaint de novo, Gwartz v. Jefferson
Memorial Hosp. Ass’n, 223 F.3d 1426, 1428 (8th Cir.
1994), and reviews de novo the district court’s dismissal
of a claim based on res judicata, accepting the plaintiff’s
factual allegations as true. Smith v. Johnson, 779 F.3d
867, 870 (8th Cir. 2015).
In granting the Baptist defendants’ motion to
dismiss, the district noted that the claim-preclusion
aspect of res judicata bars relitigation of a suit when (1)
the first suit resulted in a final judgment on the merits;
(2) the first suit was based on proper jurisdiction; (3)
the first suit was fully contested in good faith; (4) both
suits involve the same claim or cause of action; and (5)
both suits involve the same parties or their privies.
(APP. 1054) As shown below, the district court erred in
rejecting Plaintiff’s opposition to the Baptist
Defendants’ motion to dismiss on grounds 3, 4, & 5.
A. Res Judicata Does not Apply to a Different Cause
of Action Arising After the First Lawsuit was Filed
When responding to the Baptist Defendants’
motion to dismiss, Plaintiff argued that the state court
case is a different cause of action, and therefore distinct
from the federal case here in that the state court case
was brought for damages flowing from the termination
of Plaintiff’s medical staff privileges at Baptist in April,
2011,9 and the federal case is for damages flowing from
the revocation of Plaintiff’s Arkansas medical license in
9

Even though Plaintiff’s medical staff privileges were terminated
effective April, 2010, that decision did not become final until April,
2011, after Plaintiff had fully exhausted the appellate process
provided for in the Baptist medical staff bylaws. Complaint, ¶s 4454. (APP. 32-37).

75a
April, 2014. (APP. 434-435). Indeed, Plaintiff alleged
that the revocation of his Arkansas medical license
occurred because of his lawsuit alleging racial
discrimination pursuant to the Arkansas Civil Rights
Act. See also Complaint, ¶ 94, (APP. 51).
In granting the Baptist Defendants’ motion to
dismiss, the district court held that, “the instant case is
barred by res judicata because Plaintiff brought
essentially the same case in Williams I.” (APP. 1054).
In another part of its Order dismissing the Baptist
defendants, the district court held that, “[t]he claims
brought in this action and the claims made in Williams
I are based upon the same set of facts. Plaintiff was not
limited to filing state court claims in state court. He
could have filed all of his claims, whether arising under
state or federal law, in Williams I.” (APP. 1056).
The district court further held that, “Plaintiff’s
argument that certain claims arose as a result of filing
Williams I, or at the time of his medical license
revocation in April 2014, is also flawed. ... Plaintiff
sought to have the April 2014 hearing regarding the
revocation of his medical license enjoined. The state
court denied Plaintiff’s relief.10 Plaintiff cannot claim
that the revocation of his license on April 2014 created
a ‘new’ claim that has not yet been litigated. The
specific issue was before the court in Williams I.”
(APP. 1057). (Footnote Added.) (Emphasis Added.)
10

This holding is erroneous as the Order which dismissed two of
the Baptist defendants with prejudice, and which also directed that
Plaintiff’s Arkansas medical license be reinstated further provided
that, “[t]he Board shall not proceed on [the four cases related to
the license revocation] with any disciplinary actions [] until Dr.
Williams’ case against the remaining defendants in this case,
Pulaski County Circuit Case No. 60CV14-808, is concluded.” (APP.
655) (Emphasis Added.)

76a
The district court’s reasoning referenced above
is erroneous because it conflates the doctrines of claim
preclusion and issue preclusion under Arkansas law.
Indeed, the specific issue11 related to the
appropriateness of the revocation of Plaintiff’s
Arkansas medical license in April, 2014 was decided in
Plaintiff’s favor when it was Ordered that his license be
reinstated immediately on November 5, 2015, and that,
“the Board shall not proceed on those cases with any
disciplinary actions regarding those cases until Dr.
Williams’ case against the remaining defendants in this
case, Pulaski County Circuit Case No. 60CV14-808, is
concluded.” (APP. 655).
“Arkansas preclusion law has two facets. One
being issue preclusion and the other being claim
preclusion.12 Issue preclusion bars relitigation of issues
of law or fact previously litigated, provided that the
party against whom the earlier decision is being
asserted had a full and fair opportunity to litigate the
issue in question and that the issue was essential to the
judgment.” Germain Real Estate Co. v. HCH Toyota,
LLC, 778 F.3d 692, 695 (8th Cir. 2015). (Citations
Omitted.) (Footnote Added.)
The revocation of Plaintiff’s Arkansas medical
license was a new, distinct overt act causing new
distinct injuries to Plaintiff subsequent to the day in
11

“Arkansas courts apply issue preclusion when the following
elements are met: (1) the issue sought to be precluded is the same
issue involved in the prior litigation, (2) the issue was actually
litigated, (3) the issue was determined by a valid and final
judgment, and (4) the determination was essential to the
judgment.” Germain Real Estate Co., at 695.
12
Plaintiff’s “claim” for damages arising from the “unlawful”
revocation of his Arkansas medical license, however, was never at
issue before the Arkansas state court.

77a
April, 2014 when his Arkansas medical license was
revoked, without regard to the appropriateness of any
related injunctive13 relief that had been first sought by
Plaintiff in his February 25, 2014-Complaint.
Moreover, although it may have been premised
on the same perceived discriminatory treatment that
had continually existed and which caused Plaintiff to
seek injunctive relief from the Medical Board in the
first instance, the revocation of Plaintiff’s medical
license, a distinct overt act, had not yet occurred when
Plaintiff’s Complaint was filed on February 25, 2014.
See Varner v. Peterson Farms, 371 F. 3d 1011, 1019
(8th Cir. 2004), (“even when a plaintiff alleges a
continuing violation, an overt act by the defendant is
required to restart the statute of limitations and the
statute runs from the last overt act. For statute of
limitation purposes, the focus is on the timing of the
causes of the injury, i.e., the defendant’s overt acts, as
opposed to the effects of the overt acts.”)
Further, on February 25, 2014, Plaintiff could
not have included claims for damages related to the
April, 2014 retaliatory revocation of his medical license
that had not yet occurred. “It is well settled that claim
preclusion does not apply to claims that did not arise
until after the first suit was filed.” The Baker Group,
13

See Walker v. Mem’l Health Sys., 231 F. Supp. 3d 210, 217 (E.D.
Texas 2017), (The district court ordered “Defendant [hospital], its
respective officers, agents, employees, and anyone acting on its
behalf to immediately submit to the National Practitioners Data
Bank a Void Report regarding Dr. Walker, and all such entities
and persons shall refrain from filing any other statements or
reports with the National Practitioners Data Bank relating to the
actions the Hospital has taken against Dr. Walker in connection
with the peer review process that is the subject of this lawsuit,
including the imposition of a proctoring requirement, during the
pendency of this suit.”)

78a
L.L.C. v. Burlington Northern and Santa Fe Railway
Co., 228 F.3d 883, 886 (8th Cir. 2000). See also
Lundquist v. Rice Memorial Hospital, 238 F.3d 975, 977
(8th Cir. 2001), (“Claim preclusion, however, does not
apply to claims that did not exist when the first suit
was filed.”)14
It would be irrational to allow the Medical Board
defendants to knowingly agree to go forward with a
hearing without providing the required statutory
notice15 to Plaintiff and revoke his medical license in his
absence after being served with a Complaint seeking
injunctive relief which is consistent with the Board’s
customary policies and procedures.
“As a matter of logic, when the second action
concerns
a
transaction
occurring
after
the
commencement of the prior litigation, claim preclusion
generally does not come into play. Claims arising
subsequent to a prior action need not, and often
perhaps could not, have been brought in that prior
action; accordingly, they are not barred by res judicata
regardless of whether they are premised on facts
14

See also Curtis v. Citibank, N.A., 226 F.3d 133, 139 (2nd Cir.
2000), (“The crucial date is the date the complaint was filed. The
plaintiff has no continuing obligation to file amendments to the
complaint to stay abreast of subsequent events; plaintiff may
simply bring a later suit on those later-arising claims.”)
15
See A.C.A. § 17-95-410(c)(2), which requires that the Board send
“by registered mail to the person’s last known address of record a
copy of the order·and notice of hearing along with a written notice
of the time and place of the hearing ...” (Emphasis Added.) See also
Davis v. Schimmel, 253 Ark. 1201, 482 S.W.2d 785, 792 (Ark. 1972),
(“When an action is based on constructive service, no action is
commenced or cause pending until the proceedings provided for in
the governing statute are complied with and if there is no such
compliance, the proceedings are void, and the court has no power
to take affirmative action.”) (Emphasis Added.)

79a
representing a continuance of the same course of
conduct.” Legnani v. Alitalia Linee Aeree Italiane,
S.P.A., 400 F.3d 139, 141 (2nd Cir. 2005). See also
Pleming v. Universal-Rundle Corp., 142 F.3d 1354, 1357
(11th Cir. 1998), (“the parties frame the scope of
litigation at the time the complaint is filed.”) When he
responded to the Baptist Defendants’ motion to
dismiss, Plaintiff made it clear that the federal claims
and supplemental state law claims raised in his
Complaint accrued in April, 2014 when his Arkansas
medical license was revoked. (APP. 435-436). Clearly,
these claims did not exist at the time that Plaintiff filed
his Complaint in state court on February 25, 2014. In
Ripplin Shoals Land Co., LLC v. United States Corps
of Eng’rs, 440 F.3d 1038, 1042 (8th Cir. 2006), another
case appealed to this Court from the district court in
the Eastern District of Arkansas, this Court recognized
that, “res judicata does not apply to claims that did not
exist when the first suit was filed.”
“The determination of whether a litigant has
asserted the same cause of action in two proceedings
depends upon whether the primary right and duty are
the same in both cases.” Pleming, supra, at 1356. The
primary right and duty in the state court action
(Williams I) involve the damages arising from the
termination of Plaintiff’s medical staff privileges at
Baptist in 2011. The primary right and duty in this
federal action (Williams II) involve the damages
arising from the revocation of Plaintiff’s Arkansas
medical license in April, 2014.
The Eleventh Circuit Court of Appeals in
Pleming held that, “we cannot accept UniversalRundle’s contention that Pleming litigated her claims
arising out of the October 1994 incidents, including her
claims of retaliation for filing Pleming I, simply by

80a
offering the incidents as evidence of pretext in a
distinct employment decision. This is not a case in
which the plaintiff squarely presented an issue for
decision in the first litigation and failed to carry the
burden of proof; rather, it was neither framed by the
pleadings as an issue nor decided by the district judge.”
Id., at 1360.
Here, Appellant did not present his claims
arising from the revocation of his medical license in
April, 2014, to include the retaliation claim, to the state
court in Williams I for disposition, and it is also clear
that the state court did not decide the issues related to
the April, 2014 revocation of Plaintiff’s medical license.
In fact, Plaintiff expressly reserved any such claims
related to the April, 2014 revocation of his medical
license pursuant to England v. Louisiana State Board of
Medical Examiners, 375 U.S. 411, 421 (1964).16 See
December 1, 2014 Plaintiff Victor Bernard Williams,
M.D.’s Brief in Support of Plaintiff’s Motion for
Declaratory Judgment and Motion to Disqualify Mr.
Kevin O’Dwyer And the Law Firm of Hope, Trice &
O’Dwyer, P.A., As Counsel in the Action as Referenced
above, (APP. 456-457).
Further, and more importantly, the state court’s
November 5, 2015 Order reinstating Plaintiff’s
Arkansas medical license tacitly recognized Plaintiff’s
England reservation and the possibility of future claims
for damages related to the April, 2014-revocation of
16

See First American Bank & Trust Co. v. Ellwein, 520 F.2d 1309,
1311 (8th Cir. 1975), (“an express reservation of constitutional
questions need not be made to invoke the judge-made rule in
England. A litigant may return to federal court with his federal
constitutional questions without an express reservation ‘unless it
clearly appears that he fully litigated his federal claims in the state
courts.” (Citation Omitted.”)

81a
Plaintiff’s Arkansas medical license by holding that,
“neither party shall retaliate against the other party for
claims and/or counterclaims made against each other in
any lawsuit filed to date or in the future.” (APP. 655).
(Emphasis Added.) See Pleming, supra, at 1357, (“A
court, therefore, must examine the factual issues that
must be resolved in the second suit and compare them
with the issues explored in the first case.”)
B. The State Court’s Limitations on Discovery
Thwarted Plaintiff’s A
Ability
bility to Litigate His
Discrimination Claims in State Court
In arguing that he did not have a full and fair
opportunity to litigate his claims in state court, Plaintiff
argued that since all but one of his state law claims
were decided on summary judgment, the withholding of
discovery of peer review records of other physicians
deprived him of a fair opportunity to respond to the
motions for summary judgment against him (i.e., that
they were not “fully contested in good faith”) because
the discovery orders deprived him of evidence that he
needed to show that he was treated differently than
similarly situated white physicians on the Baptist
medical staff. (APP. 436-437); (APP. 680-682). In
granting the Baptist Defendants’ motion to dismiss, the
district court held that, “A judge’s determination that
certain information could not be obtained by Plaintiff
due to Arkansas law does not result in a failure to fully
contest the case in good faith.” (APP. 1056).
Appellant’s federal claims being asserted here
against the Baptist Defendants could not have been
fairly litigated in state court without Plaintiff being
able to first obtain discovery of information related to

82a
other physicians on the medical staff at Baptist.17
Therefore, the district court erred in holding that
Plaintiff had a fair opportunity to litigate his federal
claims being asserted here in state court.
C. The Trial Court Erred in Holding that the
Baptist Defendants Were in Privity with Defendant
Surgical Clinic of Central Arkansas
“The doctrine of res judicata does not bar claims
even arising out of the same facts against defendants
who were not parties to the first action.” Headley v.
Bacon, 828 F.2d 1272, 1275 (8th Cir. 1987). Here, it is
clear that Defendant Surgical Clinic of Central
Arkansas was not a defendant in Williams I. In
opposing the Baptist Defendants’ motion to dismiss,
Plaintiff argued that, “privity would be lacking for
purposes of res judicata” with respect to his claims
against Defendant Surgical Clinic of Central Arkansas.
(APP. 438-439).
First, “[n]othing requires a plaintiff to sue the
prospective defendants simultaneously.” Winkler v.
Bethell, 210 S.W.3d 117, 121 (Ark. 2005). Secondly,
“because two additional defendants [Surgical Clinic of
Central Arkansas and Beck] were named in the second
suit, the question remains whether these additional
defendants may be said to be in privity for res judicata
purposes with the defendants in the first suit. The
answer depends on whether their interests in the later
litigation were adequately congruent to those of the
17

After the district court entered its order dismissing the Baptist
Defendants on the ground of res judicata, Plaintiff unsuccessfully
sought to have the district court amend its Order and abstain until
the Arkansas Appellate Court’s final disposition of the appeal of
the discovery orders. See Section IV below.

83a
defendants in the earlier suit.” Mills v. Des Arc
Convalescent Home, 872 F.2d 823, 827 (8th Cir. 1989).
The Orders (APP. 310, 311, 386, & 389) entered by the
state court, and which are currently being appealed to
the Arkansas Appellate courts fail to provide the
requisite specificity needed to grant summary
judgment here based on res judicata.
II. The District Court Erred in Granting Counce and
Mabry’s Motions18 for Summary Judgment
Summary Judgment is reviewed de novo
viewing the evidence in the light most favorable to the
nonmoving party. Wealot v. Brooks, 865 F.3d 1119, 1124
(8th Cir. 2017). This Court reviews de novo the district
court’s dismissal of a claim based on res judicata,
accepting the plaintiff’s factual allegations as true.
Smith v. Johnson, 779 F.3d 867, 870 (8th Cir. 2015).
In its March 8, 2018 Order granting Counce and
Mabry’s motion for summary judgment, the district
court held that, “Plaintiff did not include Counce and
Mabry as defendants but he was well aware of their
reports during the time Williams I was pending. Res
judicata bars Plaintiff’s claims against Drs. Counce and
Mabry because they could have been litigated in
Williams I.” (APP. 3395)

18

Counce filed his two motions for summary judgment on
November 16, 2017 (APP. 1524, 1557 & 1567) and January 25, 2018
(Docs. 83, 84 & 85). Mabry filed his two motions for summary
judgment on November 22, 2017 (APP. 1561, 1601 & 1604) and
January 25, 2018 (APP. 3020, 3024 & 3028). Plaintiff’s responses
and briefs in opposition were filed on December 18, 2017 (APP.
1665, 1828, 2132, 2491 & 2519), and February 8, 2018 (APP. 3039,
3192, 3203 & 3366).

84a
The district court erred when it held that
Plaintiff’s claims against Counce and Mabry19 were
barred by res judicata because they were not parties in
the state court action. Further, “the admissibility,
veracity, plausibility, and/or reliability of the opinions,
statements, and/or conclusions contained [Counce and
Mabry’s] “narrative reports” have never been
adjudicated and/or otherwise evaluated by any court
during the litigation of any of the previous three civil
actions [brought by Plaintiff] that involved the patient
care at issue in this case. (APP. 2140), (APP. 1669).
When Counce and Mabry moved for summary
judgment in this case, Plaintiff objected to their
“narrative reports” “to the extent [they purport] to
establish as an evidentiary fact, that Plaintiff
committed “gross negligence” and/or “ignorant
malpractice.” (APP. 2140), (APP. 1669). Plaintiff
objected to the conclusions contained in the reports
because they failed not only to comply with Rule 702 of
the Federal Rules of Evidence and Daubert v. Merrell
Dow Pharmaceuticals, Inc., but they also failed to
comply with the requirements of Arkansas law with
respect to allegations of medical negligence (A.C.A. §
16-114-206(a)), as interpreted by the Arkansas courts in
Dodd v. Sparks Regional Medical Center, 204 S.W.3d
579 (2005), Neal v. Sparks Reg’l Med. Ctr., 422 S.W.3d
19

In further responding to Mabry’s first motion for summary
judgment, Plaintiff argued that the medical treatment reviewed by
Mabry, which occurred in February and March, 2009, “was
necessarily encompassed by the renewal of Plaintiff’s medical staff
privileges on April 1, 2010, as it occurred well within the look back
period applicable to Plaintiff’s reapplication process.” (APP. 1680).
During the state court bench trial, the court found that the
“lookback period” for the re- application process was from
September 1, 2007 to August 30, 2009.

85a
116, Fryar v. Touchstone Physical Therapy, Inc., 229
S.W.3d 13 (Ark. 2006), and Ford v. St. Paul Fire &
Marine Ins. Co., 339 Ark. 434, 437, 5 S.W.3d 460, 462
(1999). (APP. 2139-2144), (APP. 1670-1673).
With respect to the district court’s holding that
Counce and Mabry are entitled to immunity, this
holding is erroneous because “Congress [has]
specifically provided that [such] immunity [does] not
extend to actions for damages for violations of the Civil
Rights Act of 1964, 42 U.S.C. §§ 2000e, et. seq., and the
Civil Rights Act, 42 U.S.C. §§ 1981, et seq.” See
Braswell v. Haywood Reg’l Med. Ctr., 352 F.Supp. 2d
639, 650 (W.D. N.C. 2005).
III. The District Court Erred in Granting Beck and
Hearnsberger’s Motion for Summary Judgment
In granting Hearnsberger and Beck’s motion for
summary judgment, the district court held that,
“Defendants Hearnsberger and Beck are immune from
suit for all federal and state law damage claims
pursuant to Ark. Code Ann. § 17-80-103.” (APP. 5307).
(Emphasis Added.)
It is clearly established, even under Arkansas
state law, that a state statute, A.C.A. § 17-80-103, may
not be used to immunize Beck and Hearnsberger from
Plaintiff’s federal claims, even had Plaintiff attempted
to bring them in state court. See Ark. State Med. Bd. v.
Byers, 521 S.W.3d 459, 465 (2017). See also Howlett v.
Rose, 496 U.S. 356, 376 (1990), (“Conduct by persons
acting under color of state law which is wrongful under
42 U.S.C. § 1983 or § 1985(3) cannot be immunized by
state law.”)
Secondly, Beck and Hearnsberger are not
“absolutely immune from personal liability under § 1983

86a
solely by virtue of the ‘official’ nature of their acts.”
Hafer v. Melo, 502 U.S. 21, 31 (1991). Instead, the focus
should be on the state official’s specific acts or
omissions that caused and/or contributed to the injury
suffered by Plaintiff. In Hafer, the United States
Supreme Court repeated its holding that, “no more
than a qualified immunity attaches to administrative [ ]
decisions, even if the same official has absolute
immunity when performing other functions.” Id., at 29.
The Supreme Court in Hafer also reiterated its holding
that, “Congress enacted § 1983 ‘to enforce provisions of
the Fourteenth Amendment against those who carry a
badge of authority of a State and represent it in some
capacity, [regardless of] whether they act in accordance
with their authority or misuse it.’” Id., at 28. (Citations
Omitted.) “Through § 1983, Congress sought ‘to give a
remedy to parties deprived of constitutional rights,
privileges and immunities by an official’s abuse of his
position.’” Id., at 27.
In this case, the distinction between acts that
were undertaken within and/or outside the scope of
duties in this action only pertain to the pendent state
law claims Count V (abuse of process), Count VI
(tortuous interference with contractual and business
relationships), & Count VII (defamation)) raised by
Plaintiff in his federal action. (APP. 57-59).
In his Complaints, both here and in state court,
Plaintiff alleged that the investigatory actions
undertaken by defendant Hearnsberger were
unauthorized20 and in violation of A.C.A. § 17-9520

In his Complaint, Plaintiff alleged that Hearnsberger “acted
maliciously, outside the scope of his lawful authority, as a member
of Defendant Arkansas State Medical Board, and is being sued
individually and in personal capacity.” (APP. 20). (Emphasis

87a
301(h)(2), which provides that, “[n]o member of the
Board may be involved in the conduct of the
investigation except to cooperate with the investigation
as required by the investigator.” Williams I
Complaint, ¶37 (APP. 166). The medical Board
routinely utilizes investigators in order to obtain
material facts related to cases pending before the
Medical Board. See Hollabaugh v. Arkansas State
Medical Bd., 861 S.W.2d 317, 320, 43 Ark. App. 83, 86
(Ark. App. 1993), and Arkansas State Medical Bd. v.
Grimmett, 463 S.W.2d 662, 665 (Ark. 1974). Indeed, the
Board used at least one of its investigators to
investigate Plaintiff. The “February 6, 2014 Board
minutes indicate that, “[u)pon a motion by Dr. J.
Hearnsberger, seconded by Dr. J. Weiss, (partner with
Dr. Counce, Board expert) the Board voted
unanimously to canvas Little Rock surgery centers to
determine whether Dr. Williams is performing
surgeries and if so, whether he was the primary or
assistant surgeon. If it is determined that he has
performed surgeries, a Board poll will be conducted
concerning the issue of an Emergency Order of
Suspension.” Williams I Complaint, ¶32, FN3. (APP.
164). See also October 4, 2012, and February 6, 2014
Board Minutes. (APP. 651-652). The investigator did
not find any violations as Williams did not violate the
agreement that he had entered into with the Board
regarding the proctor and not performing any surgeries
after the June 8, 2012 hearing. (APP. 1082).
To the extent that a fact question exists as to
whether Hearnsberger’s investigatory conduct violated
A.C.A. § 17-95-301(h)(2), and was a contributing factor
Added.) Regarding Hearnsberger’s authority to investigate, see
Cryer Depo., (APP. 4114-4116).

88a
in the other Board members’ decision to vote to revoke
Plaintiff’s Arkansas medical license, a jury question
also exists as to malice. In defining malice, the
Arkansas Supreme Court has stated:
It is true that in law malice is not
necessarily personal hate. It is rather an intent
and disposition to do a wrongful act greatly
injurious to another. Malice is also defined as the
intentional doing of a wrongful act without just
cause or excuse, with an intent to inflict an
injury or under circumstances that the law will
imply an evil intent.... A conscious violation of
the law ... which operates to the prejudice of
another person. A condition of the mind showing
a heart ... fatally bent on mischief.
Stoner v. Ark. Dep’t of Corr., 983 F. Supp. 2d 1074,
1103 (E.D. Ark. 2013).
In addition, Dr. Hearnsberger engaged in ex
parte21 conduct by calling several of Dr. Williams’
professors, and it is clear that making such calls would
not be encompassed by the official duties for which
Hearnsberger may be entitled to “judicial immunity,”
(i.e., for adjudicatory, and/or “quasi judicial” role sitting

21

A.C.A. § 25-15-209(a) requires that, “[u]nless required for the
disposition of ex parte matters authorized by law, members or
employees of an agency assigned to render a decision or to make
final or proposed findings of fact or conclusions of law in any case
of adjudication shall not communicate, directly or indirectly, in
connection with any issue of fact with any person or party nor, in
connection with any issue of law, with any party or his
representative, except upon notice and opportunity for all parties
to participate.”

89a
in judgment with respect to the medical cases then
pending before the Board.)
There is a genuine issue of fact as to whether
Hearnsberger was acting within the scope of his official
duties when he sent an email to the Board’s executive
secretary
purportedly
memorializing
negative
comments made by one of Plaintiff’s former professors
and directed that the email be distributed to the other
Board members.22 See Hearnsberger depo., (APP. 36673669 & 3673). He clearly intended for the other Board
members to have the information provided by him
when considering any future action(s) that may be
taken against Plaintiff. There is no evidence in the
record that the Medical Board ever voted to give
Hearnsberger the authority to conduct this
independent investigation, in addition to fulfilling his
“quasi judicial” role as a Medical Board member. “That
the combination of investigative and adjudicative
functions does not, without more, constitute a due
process violation does not, of course, preclude a court
from determining from the special facts and
circumstances present in the case before it that the risk
of unfairness is intolerably high.” Winthrow v. Larkin,
421 U.S. 35, 58 (1975).
It was only immediately after Plaintiff appeared
before the scheduled June, 2012 hearing with witnesses
to testify on his behalf, one of whom was a current
UAMS professor, that Hearnsberger took it upon
himself to call Plaintiff’s former professors and direct
22

Dr. Eidt, according to Hearnsberger, referred to Plaintiff as
“hard-headed and [a] poor resident.” Hearnsberger Depo., (APP.
3668-3669). Yet, Eidt rated Plaintiff as “above average” in all
categories on the evaluation form executed by Eidt, which was
obtained by Plaintiff from his file at UAMS after he learned of
Hearnsberger’s email. See APP. 477

90a
that a purportedly negative report from one23 of them
be submitted to the other Medical Board members.
“Clearly, if the initial view of the facts based on the
evidence derived from nonadversarial processes as a
practical or legal matter foreclosed fair and effective
consideration of a subsequent adversary hearing
leading to ultimate decision, a substantial due process
question would be raised.” Id.
Hearnsberger’s investigatory actions are even
more troubling, when considered along with the
objective evidence (morbidity/mortality rates) that
Plaintiff submitted to be evaluated at the Medical
Board’s request, which was given to Hearnsberger,24
but was apparently never evaluated by him and/or
considered by the Medical Board. See (APP.650),
December 2, 2010-Medical Board minutes wherein it is
reflected that the Medical Board requested that “the
physician provide the Board his morbidity rate
statistics.” There are issues of fact, as to what, if
anything, the Medical Board did with this information
(morbidity/mortality statistics). Compare Cryer Depo.,
(APP. 4112), Hearnsberger Depo., (APP. 3717-3719);
and Beck Depo., (APP. 4934).
The morbidity/mortality information is objective
in nature and could be used to evaluate discrimination
claims like those being asserted here. See Ennix v.
Stanten, 556 F. Supp. 2d 1073, 1086 (N.D. Cal. 2008),
(“[t]he argument made by defendant is that Dr. Ennix
had an abnormally high mortality rate associated with
his surgeries, whereas the argument made by Dr.
23

Hearnsberger did not make records of the conversations he had
with Plaintiffs other professors, including Dr. Westbrook, and Dr.
Richard Turnage. Hearnsberger Depo., (APP. 3674-3677).
24
Hearnsberger 2014 Depo., (APP. 3717-3719).

91a
Ennix is that this was not so.”) In denying the
defendants’ motion for summary judgment on the
plaintiff cardiac surgeon’s Section 1981 claim and
finding that “the battle of statistics cannot be resolved
on summary judgment and needs to be sorted out
through the examination of qualified witnesses,” the
district court in Ennix also held that, “[a] jury could
also reasonably find that Dr. Ennix was denied the
right to contract for those services. The summary
suspensions and proctoring requirement impeded the
contractual relationship because Dr. Ennix either could
not practice at all or he could no longer be lead
surgeon.”)
In addition to its failure to properly evaluate the
morbidity/mortality rates provided by Plaintiff, there is
no evidence that the Medical Board has ever sought to
compare Plaintiff’s morbidity/mortality rates to the
other physicians on the medical staff at Baptist. The
district court’s Order granting the Baptist defendants’
motion to dismiss in this case based upon res judicata
rendered any potential efforts to obtain such
information during discovery in this case either moot
and/or futile. In the state court action (Williams I),
Plaintiff sought discovery of the Mortality and
Morbidity rates of the other surgeons on the medical
staff at Baptist but Baptist objected to providing them
during discovery asserting, among other things, the
Arkansas peer review privilege.25 (APP. 572-573).
In addition to allowing Hearnsberger to conduct
his individual ex parte investigation,26 Plaintiff alleged
25

At Baptist, Morbidity/Mortality rates are types of information
that are reviewed when a surgeon is re-credentialed because “it
gives some information to the reviewer as to clinical outcomes,
clinical efficiency, things of that nature.” (APP. 2088).
26
See Cryer Depo., (APP. 4115-4116).

92a
that Beck “condoned and/or ratified the Board’s
initiation of an unauthorized investigation against
Plaintiff even though he knew that it was the Board’s
policy to wait until the final decision from the hospital
and/or the conclusion of any related judicial proceedings
before seeking to discipline a physician regarding
matters that have been subject to hospital disciplinary
proceedings. See Williams II Complaint, 22, ¶ 49 (APP. 34).
In granting Hearnsberger and Beck’s motion for
summary judgment, the district court held that, “[e]ven
if the Doctors were not immune to Plaintiff’s claims,
Plaintiff has failed to present any evidence that the
actions taken by Doctors Hearnsberger or Beck
regarding Plaintiff’s licensure were based on racial
animus or in retaliation.” (APP. 5307).
First, in order to pursue a claim of retaliation27
for having opposed perceived discrimination by filing a
lawsuit, it is not required that a Plaintiff must first
show evidence that discrimination did in fact occur. See
Wallace v. Sparks Health Sys., 415 F.3d 853, 858 (8th
Cir. 2005), (“We are mindful that a [party] must be
shielded from retaliation for protected activity, even if
a court eventually decides that the [party’s] complaints
are without merit, as long as the [party] reasonably
believed the employer’s conduct [was unlawful
discrimination].” See also CBOCS West, Inc. v.
Humphries, 553 U.S. 442, 457 (2008), (“42 U.S.C. § 1981
encompasses claims of retaliation.”)

27

To establish a prima facie case of retaliation under [§ 1981], a
plaintiff must show that he engaged in protected conduct, that
defendants took an adverse action against him, and that there was
a causal link between the two. McCullough v. Univ. of Ark. for
Med. Scis., 559 F. 3d 855, 864 (8th Cir. 2009).

93a
In addition, with respect to Plaintiff’s First
Amendment retaliation claim, “[t]he cases from this
Circuit, as well as from others, make it clear that state
officials may not take retaliatory action against an
individual designed either to punish him for having
exercised his constitutional right to seek judicial relief
or to intimidate or chill his exercise of that right in the
future.” Harrison v. Springdale Water & Sewer Com.,
780 F.2d 1422, 1425-1426 (8th Cir. 1985). “An individual
is entitled to free and unhampered access to the
courts.” Id., at 1428. “An act taken in retaliation for the
exercise of a constitutionally protected right is
actionable under § 1983 even if the act, when taken for
a different reason, would have been proper.” Id., at
1428, citing Matzker v. Herr, 748 F.2d 1142, 1150-1151
(7th Cir. 1984).
Regarding the malice necessary in order to
overcome immunity from Plaintiff’s state law claims, in
addition to the violations of state law referenced above,
Plaintiff also argued that genuine issues of material fact
exist regarding whether Hearnsberger and Beck
engaged in bad faith conduct during the settlement
negotiations by insisting that Plaintiff’s claims be
dismissed “with prejudice.” See (APP. 4145-4148).
In Wade v. Haynes, 663 F.2d 778, 786 (8th Cir.
1981), this Court held that, “[m]alicious conduct has
long been defined so as to include ‘culpable recklessness
or a willful and wanton disregard’ of another’s rights...
liability in civil rights cases may be incurred even
though an official does not possess ‘any actual malice or
intent to harm (but) is so derelict in his duties that he
must be treated as if he in fact desired the harmful
results of his inactions.’ This is so because deliberate
intent may be predicated on factual circumstances
which are so egregious and reckless that the natural

94a
consequences of the actor’s conduct implies the
requisite malicious intent to do wrong. ... Thus we
conclude a finding of malice may be found from an
official’s reckless and callous disregard of known
dangers.” (Citations Omitted.)
In granting Beck and Hearnsberger’s motion for
summary judgment, the district court found that, “[t]he
Board’s version of the Consent Order, which was filed
in the case on November 5, 2015, did not include the
Plaintiff’s proposed language regarding reports made
to the NPDB by ASMB.” (APP. 5308). In fact, the
November 5, 2015 Consent Order did not include any
language regarding NPDB reports, and therefore, that
issue was not decided and was not material to the
action taken by the trial court on Plaintiff’s Petition for
Judicial Review in remanding28 the case back to the
ASMB. “Issue preclusion bars the relitigation of an
issue that was actually litigated in a prior action and
was determined by, and essential to, a valid and final
judgment.” Smith v. Johnson, 779 F.3d 867, 871 (8th
Cir. 2015). “The Arkansas Supreme Court requires a
party invoking issue preclusion to establish ‘the precise
issue’ was decided in the first proceeding, and
interprets ‘very narrowly’ whether an issue was
previously litigated.” Id., at 871.
Here, there should not have been any NPDB
reports submitted by the ASMB because there had
been no proper adjudication. “‘Adjudication’ is defined
as an ‘agency process for the formulation of an order.’
‘Order’ is defined as the ‘final disposition of any agency
28

“A circuit court’s order of remand to an administrative agency
for further proceedings is not a final order. This is true even
where, as here, the circuit court has affirmed the agency’s findings
in part.” Ark. Ins. Dep’t v. Henley, 481 S.W.3d 467, 468 (Ark. App.
2016), (Footnotes and Citations Omitted.)

95a
in any matter other than rule making, including
licensing and rate making, in which the agency is
required by law to make its determination after notice
and hearing.’ Where there has been no adjudication
before the administrative agency, there has been no
‘final agency action’ to be reviewed pursuant to Ark.
Code. Ann. § 25-15-212.” Baber v. Ark. State Med. Bd.,
2010 Ark. 243, 248, 368 S.W.3d 897, 901 (Ark. 2010).
The fact that the Consent Order contains
language that the “Arkansas State Medical Board and
the Arkansas State Medical Board members in their
official capacity shall be dismissed by Dr. Williams with
prejudice,” can not be separated from additional the
words that follow, “upon certain conditions.” (APP.
654) (Emphasis Added.)
“[U]sually, a dismissal with prejudice is as
conclusive of the rights of the parties as if there had
been an adverse judgment as to the plaintiff after a
trial, but there are limitations to the doctrine of res
judicata as recognized by our court of appeals.” Lindsey
v. Green, 2010 Ark. 118, 369 S.W.3d 1, 7 (Ark. 2010). See
also Crawford v. Paris, 897 F. Supp. 928, 931 (D. Md.
1995), (“Inasmuch as no hearing has been held by the
BPQA, much less no final decision rendered by it, any
court challenge is premature.”)
Plaintiff’s claims asserted against Hearnsberger
and Beck in their individual capacities, however, do not
have to await a final disposition by the Arkansas State
Medical Board after remand. See Conner v. Reinhard,
847 F.2d 384, 395 (7th Cir. 1988), wherein the Seventh
Circuit Court of Appeals held that, “[a]lthough we
recognized that FBI agents sued in their official
capacities would be in privity with each other, where
government officials are sued in their personal
capacities, privity does not exist.” “For liability under

96a
section 1983, direct participation by a defendant is not
necessary. Any official who ‘causes’ a citizen to be
deprived of her constitutional rights can also be held
liable. The requisite causal connection is satisfied if the
defendant set in motion a series of events that the
defendant knew or should have reasonably have
known29 would cause others to deprive the plaintiff of
her constitutional rights.” Id., at 396-397. (Footnote
Added.)
Further, when responding to Beck’s motion for
summary judgment, Plaintiff argued that his position
was analogous to that of a supervisor. (App. 4140). “A
supervisor may be held individually liable under § 1983
if he directly participates in the constitutional violation
or if he fails to train or supervise the subordinate who
caused the violation.” Riehm v. Engelking, 538 F.3d
952, 962-963 (8th Cir. 2008).
IV. The District Court Erred in Denying Plaintiff’s
Motion to Amend the September
September 19, 2017 Order
Granting the Baptist Defendants’ Motion to Dismiss
After the district court entered its order (APP.
1053) granting the Baptist defendants’ Rule 12(b)(6)
motion to dismiss, Plaintiff filed a motion pursuant to
Rule 59(e) and Rule 60(b) to alter or amend the
September 19, 2017 Order dismissing the Baptist
defendants, and a motion to stay further proceedings

29

See Hearnsberger 2018 Depo., (APP. 3533), “He volunteered to
have a proctor, and as far as I remember, it was an unrestricted
license.” See Beck 2018 Depo., (APP. 3496), “Before I left the
board there was some back-and-forth between Juli and Kevin
about [the National Practitioner Data Bank Report], but I wasn’t a
party to it.”

97a
and/or to abstain pending the final disposition of the
Arkansas state court proceedings that remain subject
to appeal in the Arkansas Appellate Courts. (APP.
1062). On November 1, 2018, the district court entered
an Order denying both motions without reasoning or
explanation. (APP. 1471).
“A district court has broad discretion in
determining whether to grant a Fed.R.Civ.P. 59(e)
motion to alter or amend judgment, and this court will
not reverse absent a clear abuse of discretion. An abuse
of discretion will only be found if the district court’s
judgment was based on clearly erroneous factual
findings or erroneous legal conclusions.” Innovative
Home Health Care v. P.T.-O.T. Assoc., 141 F.3d 1284,
1286 (8th Cir. 1998). Similarly, this Court reviews a
district court’s denial of relief under Rule 60(b) only for
abuse of discretion. Arnold v. Wood, 238 F.3d 992, 998
(8th Cir. 2001). Abstention decisions are also reviewed
for abuse of discretion, but the underlying legal
questions are subject to plenary review. Beavers v.
Arkansas State Bd. of Dental Exam’rs, 151 F.3d 838,
840 (8th Cir. 1988). In Robinson v. Omaha, 866 F.2d 1042,
1043 (8th Cir. 1989), this Court held that, “since the
practice of abstention is equitable in nature, this court
may raise the issue of the appropriateness of abstention
sua sponte.”
“Under Rule 60(b) the movant must demonstrate
exceptional circumstances to justify relief. Exceptional
circumstances exist where the judgment bars adequate
30

30

Because Plaintiff’s Complaints raised racial discrimination claims
against Baptist in both his federal and state court actions, after the
district court granted the Baptist defendants’ motion to dismiss on
grounds of res judicata, Plaintiff sought to have the district court
abstain, pending the disposition of the appeal of his state court
action.

98a
redress. While relief under Rule 60(b) is
‘extraordinary,’ a Rule 60(b) motion is to be given a
liberal construction so as to do substantial justice and
‘to prevent the judgment from becoming a vehicle for
injustice. This motion is grounded in equity and exists
‘to preserve the delicate balance between the sanctity
of final judgments and the incessant command of a
court’s conscience that justice be done in light of all the
facts.’” Baker v. John Morrell & Co., 266 F.Supp.2d 909,
920 (N.D. Iowa 2003), citing MIF Realty L.P. v.
Rochester Assoc., 92 F.3d 752, 755-756 (8th Cir. 1996).
(Additional Citations Omitted.)
In support of his motion to amend and/or alter
the September 19, 2017 Order granting the Baptist
Defendants’ motion to dismiss on the grounds of res
judicata, Plaintiff argued that, “a stay would be
appropriate here, particularly given the fact that
Plaintiff [had] not yet presented his federal
[discrimination] claims to state court, and the
possibility that on appeal, the Arkansas appellate
courts may reverse the trial court’s summary judgment
on Plaintiff’s discrimination claims [against the
Baptist defendants that were] brought pursuant to the
Arkansas Civil Rights Act.” (APP. 1069).
In arguing that the district court should have
abstained from ruling on Plaintiff’s discrimination
claims against the Baptist defendants here, Plaintiff
relies primarily upon the Pullman abstention doctrine
even though the district court’s order dismissing
Plaintiff’s claims against the Baptist defendants based
upon res judicata, if correct, may also implicate the
Younger abstention doctrine.
“In Younger v. Harris, 401 U.S. 37 (1971), the
United States Supreme Court directed ‘federal courts
to abstain from hearing cases when (1) there is an

99a
ongoing state judicial proceeding which (2) implicates
important state interests, and when (3) that proceeding
affords an adequate opportunity to raise the federal
questions presented.” Norwood v. Dickey, 409 F.3d 901,
903 (8th Cir. 2005).
The Eighth Circuit considers five factors in
deciding whether to abstain from a case under the
Pullman abstention doctrine: “what effect will
abstention have on the rights to be protected, whether
there are available state remedies, whether the
challenged state law is unclear, whether the state law is
fairly susceptible of an interpretation that would avoid
any federal constitutional question, and whether
abstention will avoid unnecessary federal interference
in state operations.” R. v. Adams, 649 F.2d 625, 628
FN6 (8th Cir. 1981). (Citation Omitted.)
“Abstention is proper when a federal
constitutional issue might be mooted by a state-court
determination of pertinent questions of state law.
‘Pullman requires a federal court to refrain from
exercising jurisdiction when the case involves a
potentially controlling issue of state law that is unclear,
and the decision of the issue by the state courts could
avoid or materially alter the need for a decision on
federal constitutional grounds.” Doe v. McCulloch, 835
F. 3d 785, 788 (8th Cir. 2016). Applying this reasoning
here, the district court should have abstained from
proceeding further pending the final disposition of the
appeal of Plaintiff’s parallel state court action by the
Arkansas Appellate courts.
In the event of a reversal of the state court’s
discovery orders, summary judgment order(s), and/or
denial of jury trial denial order, by the Arkansas
Appellate court(s), there is no reason why Plaintiff
couldn’t obtain full relief from the Baptist defendants

100a
at trial on his claims brought pursuant to the Arkansas
Civil Rights Act in the state court action. See Baker,
supra, 266 F. Supp. 2d at 921, (“In Baker’s complaint,
she specifically averred a cause of action under Title
VII. Yet, the factual allegations contained in her
complaint also support claims under Iowa’s parallel
anti-discrimination statute, the ICRA.”) The district
court in Baker further held that the “ICRA claims do
not present any new issues but merely a separate
statutory provision that provides for recovery under
the same set of facts and for the same conduct.” Id., at
928.
Plaintiff first filed his discrimination claims in
Arkansas state court pursuant to the Arkansas Civil
Rights Act. See Alexander v. E. Tank Services, Inc.,
2016 Ark. App. 185, 486 S.W.3d 813, 816 (Ark. App.
2016), (“The ACRA provides citizens of the state legal
redress for civil-rights violations of state constitutional
or statutory provisions, hate offenses, and
discrimination offenses, and ACRA claims are analyzed
under the same principles as [federal discrimination]
claims.”) However, based upon the discovery rulings of
the Arkansas circuit court, and apparently31 because he
relied upon the Arkansas Civil Rights Act instead of
federal law, Plaintiff was deprived of discovery
notwithstanding the expressed provision of the
Arkansas Civil Rights Act, A.C.A. § 16-123-105©,
which provides that, “when construing this section, a
court may look for guidance to State and Federal
decisions interpreting the federal Civil Rights Act of
31

The trial court’s order denying Plaintiff’s motion to compel
discovery from the Baptist defendants which is at issue in the
appeal of the state court action failed to state the reasoning for the
denial. (APP. 642.)

101a
1871, as amended and codified in 42 U.S.C. § 1983, as in
effect on January 1, 1993, which decisions and act shall
have persuasive authority only.” (APP. 484). See also
Island v. Buena Vista Resort, 103 S.W.3d 671, 675 (Ark.
2003), (“the Arkansas Civil Rights Act expressly
instructs [the Arkansas trial and appellate courts] to
look to federal civil-rights law when interpreting the
Act.”)
The Arkansas Appellate courts may agree with
Plaintiff’s argument that he is entitled to the discovery
sought from Baptist regarding the disciplinary
treatment (to include the lack of any discipline at all)
with respect to similarly situated white physicians on
the medical staff who committed acts and/or omissions
worse than those alleged to have been committed by
Plaintiff.
During the pending appeal, the Arkansas
appellate court(s) may reverse the trial court’s
discovery order and construe the expressed language
contained in A.C.A. § 16-123-105© to allow such
discovery, particularly when construed and considered
along with the expressed language contained in A.C.A.
§ 16-46-105(b)(2), which provides that, “nothing in this
section shall be construed to prevent discovery and
admissibility if the legal action in which such data is
sought is brought by a medical practitioner who has
been subjected to censure or disciplinary action by such
agency or committee or by a hospital medical staff or
governing board.” (Emphasis Added). “In considering
the meaning of a statute, we construe it just as it reads,
giving the words their ordinary and usually accepted
meaning in common language. We construe the statute
so that no word is left void, superfluous or insignificant,
and we give meaning and effect to every word in the
statute, if possible. ... Additionally, statutes relating to

102a
the same subject are said to be in pari materia and
should be read in a harmonious manner, if possible.”
Arkansas Dept. Of Parks & Tourism v. Jeske, 229
S.W.3d 23, 27, 365 Ark. 279, __ (Ark. 2006).
See
also
Turner
v.
Northwest
Ark.
Neurosurgery, 133 S.W.3d 417, 423-425 (Ark. App.
2003),32 (“Permissible discovery necessarily revolves
around the cause of action alleged by the plaintiff, and
from this cause of action, the trial court must fashion its
rulings on discovery.”) and Dodson v. Allstate
Insurance Co., 47 S.W.3d 866, ___ Ark. 2001).(“To
understand the relevancy of requested discovery, one
must understand the elements and nature of the cause
of action alleged.”)
Given the impact that the lack of discovery
obviously had on Plaintiff’s ability to respond to the
Baptist defendants’ motions for summary judgment,33
and the state trial court’s failure to comply with the
Arkansas Supreme Court’s directives34 regarding the
32

As pointed out by the Arkansas Court of Appeals in Turner,
supra, at 424, “[o]ne of the purposes of discovery procedures is to
provide a device for ascertaining not only the facts, but
information as to the existence or whereabouts of facts relative to
the basic issues between the parties; this permits a litigant to
secure the type of information that may lead to the production of
other relevant evidence or that will facilitate his preparation for
trial.”
33
The Arkansas Supreme Court has made it clear that, “before
being required to fully demonstrate that evidence in response to a
motion for summary judgment a plaintiff is entitled to have the
benefit of adequate discovery from the opposing parties as the
nature of the case requires.” First National Bank v. Newport
Hospital and Clinic, Inc., 663 S.W.2d 742, 744, 281 Ark. 332, 335-336
(1984).
34
See Alexander v. E. Tank Services, Inc., 2016 Ark. App. 185
(Ark. App. 2016), (“Our Supreme Court has additionally made it
clear that, even in summary judgment cases, the circuit court must

103a
evaluation of discrimination claims when granting
summary judgment to the Baptist defendants, the
Arkansas Courts of Appeal may reverse the trial
court’s discovery orders and summary judgment orders
on appeal, thereby also calling into question the district
court’s order entered in this case dismissing the Baptist
defendants on the grounds of res judicata. Therefore,
the district court should have abstained. See Beavers v.
Arkansas State Bd. of Dental Examiners, 151 F.3d 838,
841 (8th Cir. 1988),
Even though the medical cases were remanded
to the Medical Board for possible disciplinary action in
the future, in addition to being without an Arkansas
medical license from April, 2014 to December, 2015,
Plaintiff’s liberty35 interests in his Arkansas medical
license and his professional reputation36 has suffered
damages as a result of the April, 2014 revocation
notwithstanding the reinstatement of his license and
the Medical Board’s concession that the Consent Order

evaluate employment-discrimination cases using the McDonnell
Douglas framework and that it must explain its findings.”) See also
Brodie v. City of Jonesboro, 2012 Ark. 5 (Ark. 2012).
35
See Winegar v. Des Moines Independent Community School
District, 20 F.3d 895,899 (8th Cir. 1994), (“An employee’s liberty
interests are implicated where the employer levels accusations at
the employee that are so damaging as to make it difficult or
impossible for the employee to escape the stigma of those
charges.”)
36
“Under Arkansas law, several types of statements are deemed
defamatory per se not only in very old cases, but also in some
relatively recent decisions. These include charges of criminal
activity, adultery, ‘contagious distemper,’ or dishonest, as well as
any charge which injures the plaintiff in his or her trade, business,
or profession.” Ewing v. Cargill, Inc., 919 S.W.2d 507, 508 (Ark.,
1996).

104a
was not considered to be a “restriction.”37 Given the
issues
of
first
impression
and/or
statutory
construction38 under Arkansas state law that may be
decided during the pending appeal of Plaintiff’s state
court action, the district court should have stayed,
instead of dismissed Plaintiff’s action here. See Doe v.
McCulloch, supra, at 835 F. 3d 788-789, and Bob’s Home
Service, Inc. v. Warren County, 755 F.2d 625, 628 (8th
Cir. 1984).
Conclusion
In light of the forgoing, the district court’s
orders granting the defendants’ motions to dismiss and
motions for summary judgment should be reversed.
Respectfully submitted, this 23rd day of August
2018.
By: s/s Eric E. Wyatt, Esq.
Eric E. Wyatt
Georgia Bar No. 778955
George W. McGriff_
Georgia Bar No.: 493225
37

See Complaint, ¶s 91-92, (APP. 50, 51). See also (APP. 442), to
include FN10, (“on February 2, 2017, just days before the trial in
state court was to be begin, and where Board agents, employees,
and/or representatives had been subpoenaed to testify, “the Board
voted unanimously to amend Dr. Williams’ Consent Order of
October 19, 2015 to add a statement that the action was not
considered a restriction of his Arkansas medical license.”) See
also (APP. 653, 871, 1064-1066, 1082-1084, 3205-3209, 3369-3372,
3532-3533, 3739, 4138-4139, and 5139).
38
In addition to A.C.A. § 16-46-105, Plaintiff’s state court appeal
may also involve statutory construction of the Arkansas Civil
Rights Act as well as other Arkansas statutes, including, A.C.A. §§
20-9- 502, 20-9-503, 17-1-102 and 16-7-202.

105a
GEORGE W. MCGRIFF &
ASSOCIATES
600 Colonial Park Drive
Roswell, Georgia 30075-3746
(770) 649-7160
Email: ericewyatt@icloud.com
Andre K. Valley
423 Rightor, Suite #2
Helena-West Helena, AR
72342
870-338-6487 Ext.2 Telephone
870-338-8030 Facsimile
Andrekvalley@gmail.com
Attorneys for Plaintiff

106a
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
LITTLE ROCK DIVISION
VICTOR BERNARD
WILLIAMS, M.D.
Plaintiff,
v.
BAPTIST HEALTH d/b/a
BAPTIST HEALTH
MEDICAL CENTER;
DOUGLAS WEEKS, Indiv.,
and in his Official Capacity as
Sr. Vice-President and
Administrator; EVERETT
TUCKER, M.D., Indiv., and in
his Official Capacity as a
Member of the Credentials
Committee; TIM BURSON,
M.D., Indiv., and in his Official
Capacity as Chief of Surgery
and Chairperson of the
Surgery Control Committee;
SCOTT MAROTTI, M.D.,
Indiv., and in his Official
Capacity as a Member of the
Surgery Control Committee;
SUSAN KEATHLEY, M.D.,
Indiv., and as Chairperson of
the Credentials Committee;
CHRIS CATE, M.D., Indiv.,
and as Chairman of the

*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*
*

March 31, 2017 Case 4:17-cv00205-JM

CIVIL ACTION
FILE NO.:

107a
Executive Committee and
Chief of Staff; THE
SURGICAL CLINIC OF
CENTRAL ARKANSAS;
JOHN E. HEARNSBERGER
II, M.D., Indiv.; JOSEPH M.
BECK, II, Indiv., CHARLES
MABRY, M.D., Indiv.; and
JAMES, COUNCE, M.D.;
Indiv.

*
*
*
*
*
*
**
*
*

Defendants.

INTRODUCTION
INTRODUCTION
COMES
NOW,
VICTOR
BERNARD
WILLIAMS, M.D., Plaintiff in the above-styled action,
by and through counsel, and files this, his Complaint,
pursuant to, and within the time allowed by the
Fourteenth Amendment of the United States
Constitution 42 U.S. C §§ 1981, 1982, 1983, 1985(2)(3)
and 1988 against the named and unnamed defendants
for declaratory relief, injunctive relief and for damages
to redress deprivation of rights secured to Plaintiff
under the referenced federal statutes and the
Constitution of the Unites States of America.
JURISDICTION
1.
This Court has original jurisdiction over this
action pursuant to 28 U.S.C. § 1331 for the federal
claims referenced above, and for all injuries suffered as
a result of the revocation of his Arkansas State medical

108a
license in April 2014. Further, pursuant to 28 U.S.C. §
1367 this court has supplemental jurisdiction over
Plaintiff’s supplemental state law claims arising out of
the same facts, acts, omissions, and/or transaction at
issue regarding his federal claims, which arose when his
medical staff privileges were revoked in April 2014.
2.
On February 28, 2017, Plaintiff suffered a
defense verdict after a four-day bench trial on one
count (failure to follow bylaws) of thirteen counts1
brought by Plaintiff against Baptist Health Medical
Center, the Arkansas State Medical Board and various
defendants. To date, a written order has not yet been
entered but Plaintiff expects that an appeal of the
defense verdict is likely. However, as the material
facts, including the revocation of his medical license
took place subsequent to the filing of his state law
complaint on February 25, 2014 [Pulaski Circuit Court,
Civil Action No. 60-CV-14-808], throughout the state
law litigation Plaintiff made it clear that he was not
placing before the trial court any claims arising after he
filed his lawsuit on February 25, 2014. “It is well settled
that claim preclusion does not apply to claims that did
not arise until after the first suit was filed.” The Baker
Group, L.C. v. Burlington Northern and Santa Fe
Railway Co., 228 F.3d 883, 886 (8th Cir. 2000). See also
Lundquist v. Rice Memorial Hospital, 238 F.3d 975, 977
(8th Cir. 2001), (“Claim preclusion, however, does not
apply to claims that did not exist when the first suit
was filed.”)
3.
1

The trial court had entered summary judgment on the other
twelve counts of the Complaint prior to the bench trial.

109a
Of particular note, even though he brought state
law claims pursuant to the Arkansas Civil Rights Act,
due to Plaintiff’s inability to engage in any pre trial
discovery regarding the peer review process and/or
complete lack of peer review proceedings initiated
against other, similarly situated physicians on the
medical staff at Baptist Health Medical Center,2
Plaintiff expressly argued in opposition to the various
motions for summary judgment that, “claims (arising
under federal and/or state law, the precise nature of
which have not yet been determined) related to the
April 2014 revocation of Plaintiff’s medical license are
not at issue in this case [Pulaski Circuit Court, Civil
Action No. 60-CV-14-808], as they arose subsequent to
the filing of the above-styled case [Pulaski Circuit
Court, Civil Action No. 60-CV-14-808].”
BACKGROUND INFORMATION
4.
Plaintiff Victor Bernard Williams, M.D., is a
Black male physician, and naturally born American
citizen, who was educated by State of Arkansas
Schools, including the University of Arkansas Medical
School. After graduation from the University of
Arkansas for Medical Sciences, Plaintiff Victor Bernard
Williams, was and has been duly licensed to practice
medicine under the laws of the State of Arkansas since
2

At issue in the appeal of February 25, 2014 [Pulaski Circuit
Court, Civil Action No. 60-CV-14-808], will be whether or not the
trial court properly applied the Arkansas peer review statute to
preclude discovery of any information related to whether or not
peer review proceedings were held and/or should have been held
with respect to acts and/or omissions committed by other
physicians on the medical staff at Baptist Health Medical Center.

110a
October 8,1999. Plaintiff is a specialist, practicing in the
area of cardiothoracic, vascular and general surgery.
After graduating from the University of Arkansas for
Medical Sciences, Dr. Williams completed a five (5) year
residency in General surgery and a three (3) year
Fellowship in Cardiothoracic surgery.
5.
Plaintiff became board certified in General
Surgery in February 2003 and was last re-certified in
December 2012. Plaintiff was also certified by the
American Board of Thoracic Surgery in 2005, and recertified in 2016. Each time Plaintiff has been required
to take his board examinations in order to maintain his
board certifications and/or to become re-certified in
General Surgery and Thoracic Surgery, he has done so
and he passed his boards, the most recent time in 2016.
6.
From the time that the Plaintiff was on the
medical staff at Baptist Health d/b/a Baptist Health
Medical Center, due to hard work and the providing of
good medical care to the referring physicians’ patients,
he has completed thousands of general, cardiac, thoracic
and vascular surgery cases at Defendant Baptist
Hospital and other hospitals in the State of Arkansas.
PARTIES
7.
VICTOR BERNARD WILLIAMS, M.D., is a
Black physician with his principal place of business at
9712 West Markham, Little Rock, County of Pulaski,
Arkansas 72205.

111a
8.
Defendant, Baptist Health d/b/a Baptist Health
Medical Center is a private, not for profit hospital in
Little Rock, Arkansas governed by a Board of
Directors of Baptist Health d/b/a Baptist Health
Medical Center. Defendant, Baptist Health d/b/a
Baptist Health Medical Center, may be served by
delivering a copy of the Complaint and Summons to its
registered agent, Russell D. Harrington, 9601
Interstate 630, Exit 7, Little Rock, Arkansas 72205.
9.
Defendant Douglas Weeks, at all times relevant
hereto, was the Sr. Vice-President and the
Administrator of Baptist Health d/b/a Baptist Health
Medical Center. As such, he is sued individually, and in
his official capacity as the Administrator of Baptist
Health Medical Center. He is subject to the jurisdiction
and venue of this Court and may be personally served
at 9601 Interstate 630, Exit 7, Little Rock, Arkansas
72205.
10.
Defendant Surgical Clinic of Central Arkansas
and Baptist Health Medical Center engaged in a joint
venture outpatient surgery center (“The Pavilion”) that
is located on the first floor in the Hickingbotham
Building of the Baptist Health Medical Center, Little
Rock campus. As such, this Defendant was biased and
stood to gain financially from the adverse actions taken
against Plaintiff. Defendant Weeks was involved in
setting up the joint venture, and at all times relevant
hereto was a member of the board of the Surgical Clinic
of Central Arkansas, and was biased along with
Defendant Everett Tucker. Defendant may be served

112a
by serving its registered agent, Chris M Cate M.D., at
9500 Kanis Road, Suite 501, Little Rock, Arkansas
72205.
11.
Defendant, Everett Tucker, M.D., is a General
Surgeon who, at all times material to the allegations in
this Complaint, was a board member of the Surgical
Clinic of Central Arkansas, and was also a general
surgeon engaged in the practice of medicine in the
Little Rock, Arkansas Pulaski County area. As such, he
was biased, and he stood to gain professionally from the
adverse actions taken against Plaintiff. He is sued
individually, and in his Official Capacity as a Member of
the Credentials Committee at Baptist Health Medical
Center. He is subject to the jurisdiction and venue of
this Court and may be served at the Surgical Clinic of
Central Arkansas, Suite 501, 9500 Kanis Rd., Little
Rock, AR 72205.
12.
Defendant Tim Burson, M.D., is a physician
neurosurgeon and became Chief of Surgery in January
2010. Defendant Tim Burson, M.D., was at all times
material to the allegations in this Complaint engaged in
the practice of medicine in the Little Rock, Arkansas
Pulaski County Area. He is sued individually and in his
Official Capacity as an officer and/or agent of Baptist
Health Medical Center. During the time period
relevant to the adverse actions taken against Plaintiff,
Defendant Tim Burson, M.D. was Chief of Surgery and
Chairperson of the Surgery Control Committee of

113a
Baptist Health Medical Center.3 As such, when acting
in these capacities, Defendant Tim Burson, M.D. is/was
authorized to act on behalf of the medical staff at
Baptist Health Medical Center. He is subject to the
jurisdiction and venue of this Court and may be served
at his office located on the Baptist Medical Center
campus at Medical Towers I Building, Suite 310, 9601
Baptist Health Dr., Little Rock, AR 72205.
13.
Defendant Scott Marotti, M.D., a member of the
Surgery Control Committee, is a general surgeon and a
direct competitor of Plaintiff Dr. Williams. At all times
relevant hereto, he was also a member of the Surgical
Clinic of Central Arkansas, and was biased and stood to
gain professionally from the adverse actions taken
against Plaintiff. Defendant Scott Marotti, M.D. is
subject to the jurisdiction and venue of this Court and
may be served at the Surgical Clinic of Central
Arkansas, Suite 501, 9500 Kanis Rd., Little Rock, AR
72205.
14.
Defendant, Susan Keathley, M.D., is a pediatric
physician who, at all times material to the allegations in
3
The Surgical Control Committee of Baptist Health Medical
Center consists of physician staff members at Baptist Health
Medical Center, who are elective or specified representatives of
the Medical Staff, and who are authorized to act on behalf of the
medical staff at Baptist Health Medical Center. The members of
the Surgical Control Committee who are also named defendants in
this action, and who are all white males, were also surgeons and
direct economic competitors of Plaintiff. In addition to these
defendant surgeons, all of the other members of the Surgery
Control Committee of Baptist Health Medical Center are White
males.

114a
this Complaint, was engaged in the practice of medicine
in the Little Rock, Arkansas Pulaski County Area. She
is sued individually, and in her Official Capacity as
Chairperson of the Credentials Committee at Baptist
Health Medical Center. She is subject to the
jurisdiction and venue of this Court and may be served
at 2218 Walnut Grove Rd., Little Rock, AR 72223.
15.
Defendant, Chris Cate, M.D., Chairman of the
Executive Committee and Chief of Staff at Baptist
Health Medical Center, at all times material to the
allegations in this Complaint, was engaged in the
practice of medicine in the Little Rock, Arkansas
Pulaski County area. Defendant Chris Cate, M.D., as
Chairman of the Executive Committee, influenced
other members of the Executive Committee due to his
bias, and the fact that he stood to gain financially from
the adverse actions taken against Plaintiff as a member
of the Surgical Clinic of Central Arkansas. As such, he
was directly involved with Defendants Burson, Tucker
and the other named Defendants in discriminatory acts
and conduct that harmed the Plaintiff. He is sued
individually, and in his Official Capacity as Chairman of
the Executive Committee and Chief of Staff at Baptist
Health Medical Center. He is subject to the jurisdiction
and venue of this Court and may be personally served
at the Surgical Clinic of Central Arkansas, Suite 501,
9500 Kanis Rd., Little Rock, AR 72205.
16.
Defendant John E. Hearnsberger II, M.D., who,
with respect to the allegations raised herein, acted
maliciously, outside the scope of his lawful authority, as
a member of Defendant Arkansas State Medical Board,

115a
and is being sued individually and in personal capacity,
while acting under color of authority of state law while
committing the tortious conduct alleged herein.
Defendant John E. Hearnsberger II, M. D, is subject to
the jurisdiction and venue of this Court and may be
served by delivering a copy of the Summons and
Complaint to John E. Hearnsberger, II, M.D., at 132
Medical Circle, Site 200, Nashville, Arkansas 71852.
17.
At all times material to the allegations of this
Complaint, Defendant Joseph M. Beck, II, M.D., acted
maliciously, and served as the Chairman and/or
President of the Arkansas State Medical Board while
acting under color of authority of state law, even
though the unlawful, tortious conduct he engaged in
was outside the scope of his lawful authority. As such,
he is sued individually, in his personal capacity. He is
subject to the jurisdiction and venue of this Court, and
may be served at 500 S. University Ave., Little Rock,
AR 72205.
18.
Defendant Charles Mabry, M.D., at all times
relevant to the allegations of this Complaint, was a
general surgeon who agreed with the defendants to
provide a medical opinion that would be used to revoke
Plaintiff’s medical staff privileges in the event that
Plaintiff failed to voluntarily abandon his claims of
racial discrimination against Baptist Health Medical
Center. He is subject to the jurisdiction and venue of
the Court, and may be served at 1801 W. 40th Ave.,
Suite 7B, Pine Bluff, AR 71603.
19.

116a
Defendant James, Counce, M.D., at all times
relevant to the allegations of this Complaint, was a
general surgeon who agreed with the defendants to
provide a medical opinion that would be used to revoke
Plaintiff’s medical staff privileges in the event that
Plaintiff failed to voluntarily abandon his claims of
racial discrimination against Baptist Health Medical
Center. He is subject to the jurisdiction and venue of
the Court, and may be served at 3276 Northhills Blvd.,
Fayetteville, AR 72703.
FACTS RELEVANT TO ALL COUNTS
20.
On November 25, 2003, Plaintiff was first
granted medical staff privileges at Baptist Health
Medical Center, Little Rock for the two year time
period November 2003 through November 2005. At the
time that he obtained medical staff privileges at Baptist
Health Medical Center, Plaintiff was the only AfricanAmerican surgeon in Little Rock, Arkansas, who
provided both the range and the type of surgeries to
patients in and around Pulaski County, Arkansas, in the
areas of general, cardiac, thoracic and vascular surgery.
21.
On September 26, 2005, Plaintiff submitted his
first application for reappointment of his medical staff
privileges at Baptist Health Medical Center, Little
Rock. On February 27, 2006, Plaintiff was notified that
his application for reappointment had been granted,
and that his clinical privileges had been approved for an
additional (second) two year period.
22.
On November 8, 2007, Plaintiff submitted his

117a
second application for reappointment of his medical
staff privileges at Baptist Health Medical Center, Little
Rock. On March, 20, 2008, Plaintiff was notified that his
application for reappointment had been granted, and
that his clinical privileges had been approved for an
additional (third) two year period.
23.
In November 2008, Plaintiff purchased a parcel
of real property located at 9712 W. Markham St., Little
Rock, Arkansas for the purpose of constructing a
medical office to provide treatment for his surgical
patients, to include those patients that he treated at
Baptist Health Medical Center, Little Rock.
24.
On November 3, 2009, Plaintiff submitted his
third application for reappointment of his medical staff
privileges at Baptist Health Medical Center, Little
Rock.
25.
In the fall of 2009, Plaintiff completed the build
out process for his medical office located at 9712 W.
Markham St., Little Rock, Arkansas, and began
advertising the same to inform patients, both current
and potential, that he would begin servicing and
treating patients there.
26.
At the time that Plaintiff applied to renew his
medical staff privileges at Baptist Health Medical
Center, Little Rock, in the fall of 2009, he had no
reports of medical malpractice payments, no reports of
state licensure actions, no reports of exclusions or

118a
debarment actions, no reports of clinical privileges
actions, no reports of professional society actions, and
no reports of DEA/Federal licensure actions. As they
had done with respect to each previous time that they
had processed Plaintiff’s application and/or reapplication for privileges, employees, agents and/or
representatives of Baptist Health Medical Center
obtained and verified this information by submitting a
query to the National Practitioner Data Bank on
December 15, 2009. Even though Plaintiff is/was Board
Certified in cardiothoracic and general surgery, as his
surgical practice continued to grow in 2009, he
performed more and more general surgery procedures
leading to professional hostility from his white surgical
competitors on the medical staff at Baptist Medical
Center, particularly those who belonged to the surgical
group,
27.
At some point prior to the fall of 2009, Baptist
Health entered into a joint venture with the Surgical
Clinic of Central Arkansas to operate a for profit
outpatient surgery center (The Pavilion) located on the
Baptist Health Medical Center, Little Rock campus,
whereby the two entities shared profits on an equal
basis. For surgical procedures performed at The
Pavillion by the Surgical Clinic of Central Arkansas,
with respect to revenue that is earned, there is both a
facility fee, and a surgery fee. The facility fee is split
between the members of the joint venture, Surgical
Clinic of Central Arkansas, and Multi Management
Services, a for profit subsidiary of Baptist Health, with
each receiving fifty percent.
28.

119a
The defendants, to include Weeks and Tucker,
felt that Plaintiff was planning to start up a clinic on his
commercial property located at 9712 W. Markham
Street, Little Rock Arkansas during the time period
when Plaintiff completed the build out process in the
fall of 2009. Based upon their racial animus toward
Plaintiff, the defendants, to include Weeks and Tucker,
felt that Plaintiff’s general surgery practice was
growing too rapidly, and that as a Black general,
vascular, and cardiothoracic surgeon, Plaintiff and his
surgical practice would take away from the revenues
generated by the Surgical Clinic of Central Arkansas.
This is particularly true given the significant number of
Black patients who had been treated by Plaintiff prior
to the opening of his medical office on West Markham
Street, in Little Rock, Arkansas in the fall of 2009.
29.
According to reports generated during Plaintiff’s
2009 credentialing re-application process, it was
documented that during the one year period September
1, 2008, through August 31, 2009, Plaintiff had
performed over 550 surgical procedures at Baptist
Health Medical Center, Little Rock. As Chief of the
Department of Surgery, Defendant Burson became
aware of the number of surgical procedures performed
by Plaintiff when he approved Plaintiff’s recredentialing application packet in January 2010. This
information, along with the other information gathered
during Plaintiff’s re- credentialing process, was
communicated to the other defendants, including
Weeks and Tucker.
30.
On February 5, 2010, Defendants Weeks and

120a
Burson met with Plaintiff and attempted to coerce him
into voluntarily resigning his medical staff privileges
because they knew that there was no sufficient basis to
deny his application for re-credentialing,4 even though
on February 5, 2010 there had apparently been a
decision made that Plaintiff’s medical staff privileges
were going to be terminated. The decision to terminate
Plaintiff’s medical staff privileges was based on his
race, Black, and the race (Black) of a significant number
of Plaintiff’s surgical patients. During this meeting,
Weeks told Plaintiff that if he didn’t resign, he would
receive, “the harshest penalty possible.” Burson stated
to Plaintiff that he should, “go ahead and resign,” and
that he would be, “back on staff” within days.
31.
After thinking about it for a couple of days,
Plaintiff wrote Weeks on February 8, 2010 and
informed him that he was not going to voluntarily
resign, especially since Weeks and Burson had failed to
give him a factual basis that would support the
termination of his medical staff privileges. When
Plaintiff notified Weeks of his decision not to
voluntarily resign, the hospital defendants, to include
Weeks, Burson, Marotti, Keathley, Tucker and Cate
entered into an agreement that they would cause
Plaintiff’s Baptist Health Medical Center medical staff
privileges to be revoked and terminated, and that they
4

Plaintiff had obtained a letter from Defendant Marotti, acting in
his capacity as Chairman of the Department of Surgery, dated
November 27, 2009, after having attended a meeting with the
Marotti and the Surgery Control Committee on November 16, 2009
regarding patient care. Defendant Marotti’s letter provided that,
“it was the decision of the committee that no action is necessary
based on the information that you supplied.”

121a
would then report to the Arkansas State Medical Board
and the National Practitioner Data Bank that Plaintiff
had committed acts which constitute, “poor
preoperative judgment, poor medical decision-making,
poor technical ability, an inability to recognize postoperative complications, lack of timely follow-up, and
lack of responsiveness to patients.”
32.
Because on February 5, 2010, he had no factual
basis to support their attempt to force Plaintiff to
voluntarily resign his medical staff privileges,
Defendant Weeks used the employees, agents, and
representatives of Baptist Health to perform a look
back and/or search through all of Plaintiff’s patient’s
charts immediately after the receiving Plaintiff’s
February 8, 2010, letter. The search through Plaintiff’s
patients’ medical records was done in an effort to cover
up the true motive, racial discrimination, as the decision
had already been made to terminate Plaintiff’s medical
staff privileges, not because of his competency or
performance, but because of his race, Black, and in an
effort to curtail Plaintiff’s Black patient base in the
Little Rock, Arkansas area. The employees, agents,
and/or representatives of Baptist Health Medical
Center had to search back through Plaintiff’s patient
charts as far back as over one year (February 2009),5 in
order to locate facts which they thought could be used
in order to raise purported “concerns” about Plaintiff’s
medical judgment, technical ability, and responsiveness
5

The patient that was treated by Plaintiff in February and March
2009 was the one that the defendants chose to have reviewed by
Defendant Mabry at the request of the Arkansas State Medical
Board.

122a
to patients, notwithstanding that these cases should
have already been reviewed under the hospital’s normal
credentialing and quality assurance policies and
procedures. See Tactics Characteristic of Sham Peer
Review, Journal of American Physicians and
Surgeons, Volume 14, Number 3, Fall 2009, wherein it
is provided in relevant part, “[a]lthough the numeratorwithout-denominator tactic can be used against any
physician, it is most commonly used against surgeons.
Hospitals that use this tactic typically select cases that
are specifically designed to highlight complications or
negative outcomes. The selection of cases often falls
outside the routine protocol used for selecting cases for
review of physicians practicing at the hospital. The
hospital then presents this select group of cases to peer
reviewers as evidence that the targeted physician is a
bad doctor or provides unsafe care. Hospitals that use
this tactic specifically omit the denominator (how many
cases of that type the physician has performed over a
period of time), thus eliminating the possibility of
calculating a complication rate that could be used to
make a fair comparison with statistics of other
colleagues, or statistics published in medical literature.
Virtually all surgeons, of course, experience
complications, and the only surgeons who have zero
complications are those who do not perform surgery, or
who do not report their complications.”
33.
The fact that the hospital defendants went
outside of the routine protocol utilized by the hospital
to review other physicians on the medical staff is easily
established in this case because unbeknownst to
Defendant Weeks, Plaintiff’s application for recredentialing was already pending when the conspiracy

123a
to terminate his medical staff privileges on the basis of
his race commenced. Just days before the February 5,
2010 meeting wherein Plaintiff was asked by Weeks
and Burson to voluntarily resign his medical staff
privileges, Defendant Burson, acting in his capacity as
Chief of the Department of Surgery, had just signed
Plaintiff’s application for re-credentialing (on January
18, 2010), where he recommended that Plaintiff’s
application for reappointment to the medical staff be
approved, and where he further expressly attested
that:
I have reviewed this Application for
Reappointment
and
supporting
documentation. I have knowledge of this
Applicant’s clinical judgment and
technical skills and I believe this
Applicant is competent to
to perform the
clinical privileges requested, including
clinical privileges for performing highhighrisk procedures and treating highhigh-risk
conditions.
34.
Yet, on March 23, 2010, Defendant Burson wrote
Plaintiff and informed him that on March 15, 2010, the
Surgical Control Committee had met, discussed and
reviewed eleven cases (from five different patients),6
6

With respect to one of the patients, after Plaintiff explained that
he had already met with the Surgical Control Committee to discuss
this case in November, 2009, allegations surrounding the patient
were dropped. With respect to the medical treatment provided to
three of the four remaining patients at issue, the medical
treatment provided had occurred several months prior to Burson’s
approval of Plaintiff’s application for re-credentialing on January

124a
where Plaintiff was the operating surgeon without first
inviting Plaintiff to attend the meeting. This meeting, if
it occurred,7 was in violation of the Baptist Health
Medical Center’s Bylaws of the Professional Staff,
Section 13.8.2.1, which provides that, “A Practitioner
whose patient’s clinical course is scheduled for
discussion at a committee, clinical department or
ancillary service meeting shall be so notified and shall
be expected to attend such meeting. Whenever
apparent or suspected deviation from standard clinical
practice is involved, the notice to the Practitioner shall
so state, shall be given by certified mail, return receipt
requested, and shall include a statement that his
attendance at the meeting at which the alleged
deviation is to be discussed is mandatory.”
35.
Burson’s March 23, 2010, letter requested that
Plaintiff appear on April 5, 2010 at 5:00 p.m. in the
Baptist Health Medical Center’s Administrative
conference room to discuss the cases. Since Burson and
Weeks already knew that Plaintiff’s medical staff
privileges would be terminated, they scheduled the
18, 2010. Moreover, none of the medical treatment provided to the
patients at issue arose from the same surgical procedures and/or
complications of surgery as one of the other patients. In addition,
the Board of Trustees approved Plaintiff’s application for recredentialing on February 25, 2010, after the Credentials
Committee had recommended the same on January 20, 2010.
7
Inconsistent with the expressed language contained in the
medical staff bylaws that requires that permanent minutes signed
by the presiding officer be kept and maintained reflecting the vote
taken on each matter, there has never been any minutes of this
meeting produced during discovery in Pulaski Superior Court
Civil Action No. 60CV-14-808 or otherwise, despite several
requests by Plaintiff and a motion to compel seeking the same.

125a
meeting or “interview” in order to seemingly comply
with the requirements of the medical staff bylaws, but
they agreed to only give Plaintiff the identities of the
patients, and to not inform him of the nature of the
suspected deviation from the appropriate standard of
care. This was intentionally done for several reasons.
One, so that it would be more difficult for Plaintiff to
defend against the charges being made against him.
Two, so that they could later maintain that termination
of Plaintiff’s medical staff privileges was warranted in
lieu of less severe forms of corrective action given to
other, similarly situated white physicians on the
medical staff who had committed far worse acts and/or
omissions than those alleged to have been committed
by Plaintiff because without prior knowledge of the
alleged deviations from the applicable standard of care,
it would be more likely that Plaintiff would state at the
April 5,2010, “informal” interview that he would, “stick
by what he did.”
36.
On March 29, 2010, because he had already been
told by Weeks on February 5, 2010 that if he didn’t
voluntarily resign he would receive the “harshest
penalty possible,” and because he was unaware of the
general nature of the factual allegations against him,
Plaintiff wrote Burson in response to his March 23,
2010, letter in relevant part as follows: “Would you
please advise me in each of the five identified cases of
each apparent or suspected deviation from the standard
of care? Would you also identify in each case whether
the apparent or suspected deviations is one of surgical
judgment, both preoperative and postoperative,
technical abilities, or lack of responsiveness in
emergency situations. This information should help me

126a
to fully address the concerns of the committee.”
37.
On March 31, 2010,, Burson responded to
Plaintiff’s March 29, 201
1 0 letter and in relevant part
stated that, “The Surgical Control Committee spent a
good deal of time considering whether to list specific
questions on each patient in our letter of March 23,
2010,” and that, “the Committee felt that the general
areas listed as concerns applied to greater or lesser
degree in each case.” In concluding his letter where,
Burson stated that, “the Committee respectfully
declines to list specific questions for each case.”
38.
On April 1, 2010, Plaintiff wrote Burson in
response and asked that he “at least [be] provided a
copy of committee meeting minutes so that I may fully
answer all questions,” and that, “[i]f your decision is
unchanged, then I request a rescheduling of the hearing
from April 5th for 10 days to allow me adequate time to
fully review each chart in preparation of the hearing.”
Because he felt that he was being discriminated
against, Plaintiff also requested permission to have a
court reporter present during the scheduled interview.
39.
Meanwhile, on April 1, 2010, Rebecca
Cunningham wrote Plaintiff a letter informing him that
his reappointment application to the Baptist Health
Professional Staff had been approved for an additional
(fourth) two year period effective March 2010 through
March 2012.
40.

127a
On April 5, 2010, when responding to Plaintiff’s
request to have a court report attend the rescheduled
(April 12, 2010) meeting at Plaintiff’s expense, Burson
responded that, “we have never allowed recordings of
these meetings or the presence of a court reporter. In
addition, the Control Committee cannot take any
formal action regarding a physician’s privileges.”
41.
When he participated in the interview before the
Surgery Control Committee on April 12, 2010, Plaintiff
had not been given any information before hand on the
nature of the alleged deviations from the appropriate
standard of care and he did not have the opportunity to
refute any specific allegations that were later made
against him as he was not allowed to bring counsel, and
there were no witnesses present who testified against
him. During the April 12, 2010, interview, the members
of the Surgery Control Committee did not express any
specific concerns and/or attempt to inform Plaintiff of
the alleged deviations from any applicable standard of
care. Further, at not time during the April 12, 2010,
interview, did anyone on the Surgery Control
Committee articulate to Plaintiff the alleged deviations
from standards of care at issue, even though at the
conclusion of the interview they recommended to the
Credentials Committee that corrective action be taken
against Plaintiff.8 Unbeknownst to Plaintiff at the time,
because the decision to terminate his medical staff
privileges had already been made, the ulterior motive
for having Plaintiff attend the interview with the
8

Defendant Weeks participated in the interview with the Surgery
Control Committee, and immediately notified Plaintiff following
the meeting that corrective action was being recommended.

128a
Surgery Control Committee was for the hospital
defendants to question Plaintiff in an effort to obtain
information required for the preparation of a script of
rhetorical questions that could be posed to Plaintiff at a
subsequent hearing (April 21, 2010) before the
Credentials Committee.
42.
On April 21, 2010, Defendant Keathley, acting in
her capacity as Chairperson of the Credentials
Committee, along with Defendant Tucker, who was the
only general surgeon on the Credentials Committee,
used the script that was prepared after Plaintiff’s
interview with the Surgery Control Committee to
cause the Credentials Committee to agree with the
Surgery Control Committee’s recommendation for
corrective action, and made a recommendation to
terminate Plaintiff’s medical staff privileges, rendering
him unable to continue to provide medical services at
Baptist Hospital from that date forward. Tucker didn’t
review the medical charts at issue before the
proceedings before the Credentials Committee and he
merely propounded the questions to Plaintiff that were
contained in the typewritten notes that had been given
to him and Defendant Keathley to use during the
proceedings. As a member of the Surgical Clinic of
Central Arkansas, Tucker, who was the only general
surgeon on the Credentials Committee, was personally
biased against Plaintiff and stood to gain financially by
recommending to the other members of the Credentials
Committee that Plaintiff’s medical staff privileges be
revoked.
43.
Plaintiff was discriminated against on the basis
of his race, Black, during the entire course of the

129a
disciplinary proceedings commenced against him which
led to the termination of his medical staff privileges at
Baptist Health Medical Center, Little Rock. The
hospital
defendants
actions
were
knowingly
discriminatory, arbitrary and capricious, as the hospital
defendants maliciously, and intentionally treated
Plaintiff differently than similarly situated physicians
who had committed acts and/or omissions far worse
than those alleged to have been committed by Plaintiff,
as no other surgeon or physician had been disciplined in
the manner in which Plaintiff was even though it was
common knowledge that several white, similarly
situated physicians, to include other surgeons on the
medical staff, had engaged in conduct far worse than
the allegations against Plaintiff even though no
disciplinary actions at all had been taken against them.
44.
After his medical staff privileges were revoked
in April 2010, Plaintiff immediately pursued the appeal
process authorized pursuant to the Baptist Health
Medical Center’s medical staff bylaws. Attorney Gene
McKissic notified defendant Weeks via letter dated
May 14, 2010, that he would be representing Plaintiff
during the appellate process at Baptist Health Medical
Center.
45.
At the time that Plaintiffs medical staff
privileges were terminated by Baptist Hospital in April
2010, there had not been a complaint9 filed with the
9

The customary practice at the Arkansas State Medical Board is to
promptly give the physician notice and the opportunity to respond
to any such complaints immediately after they are received.

130a
Arkansas State Medical Board against Plaintiff by any
patient and/or person related to the four cases that
were at issue at the hospital.
46.
McKissic formally filed a notice of appeal of the
Credentials Committee’s recommendation on May 25,
2010, and included in the notice of appeal to Baptist
Health, a statement that Plaintiff believed that the
actions taken against him were “racially biased and
discriminatory,” and that white physicians at Baptist
Health Medical Center who had been subject to
corrective action had not “received such severe
punishment.”
47.
At some time on or before October 19, 2010,
employees, agents and/or representatives of the
Arkansas State Medical Board had obtained copies of
the medical records of the four patients at issue during
the appellate process at Baptist Hospital related to the
termination and/or revocation of Plaintiff’s medical staff
privileges. When the Medical Board first obtained the
medical records of the patients that were used by
Baptist hospital to terminate Plaintiff’s medical staff
privileges, Plaintiff had not yet exhausted the appeal
rights that he had available at Baptist Hospital
pursuant to the medical staff bylaws.
48.
The Medical Board’s policy and customary
practice had always been to await the outcome of any
appeals and/or litigation related to medical treatment
provided by a physician prior to any formal action being
taken by the Board. However, because of their prior
and current relationships with Defendant Baptist

131a
Health Medical Center, Defendants Hearnsberger and
Beck knew and agreed with the other defendants that
they would utilize their positions with the Arkansas
State Medical Board to cause injury to Plaintiff, to
include revoking his medical license, if necessary, in
order to help Baptist Health Medical Center defend
against Plaintiff’s claims of racial discrimination.
49.
On or about November 12, 2010, without first
having received a patient complaint (as customarily
required under the Board’s policies) from any person,
agents, employees and/or representatives acting
pursuant to authority conferred by the Arkansas State
Medical Board,10 obtained and sent the medical records
of Plaintiffs’ patients that had been purportedly used
by Baptist Hospital to terminate the Plaintiffs’ medical
staff privileges to two outside reviewers. As Chairman,
Defendant Beck condoned and/or ratified the Board’s
initiation of an unauthorized investigation against
Plaintiff even though he knew that it was the Board’s
policy to wait until the final decision from the hospital
and/or the conclusion of any related judicial proceedings
before seeking to discipline a physician regarding
matters that have been subject to hospital disciplinary
proceedings.11 Defendant Hearnsberger, the only
10

Upon information and belief, the hospital medical records of
Plaintiff s patients were sent to Counce and Mabry by Ms. Peggy
Cryer, Executive Secretary of the Arkansas State Medical Board.
11
Of course the hospital and/or the Arkansas State Medical Board
could have sought a summary suspension of Plaintiff’s Arkansas
Medical License in order to prevent imminent danger to the health
or safety of any individual, but neither sought to do so at any time
because they would have been required to promptly justify their
actions, and they knew that they could not do so.

132a
general surgeon on the Arkansas State Medical Board
at the time, and a former member of the Surgery
Control Committee at Baptist Medical Center,12 acted
outside the scope of his authority as a medical board
member and participated directly in the Board’s
investigation of Plaintiff, and gathered and provided
false, misleading information to the other Board
members who were not general surgeons in order to
unduly influence their opinion against Plaintiff, and to
influence them to vote to take adverse actions against
Plaintiff.
50.
One of the reviewers selected, James S. Counce,
M.D., was also the partner in a medical practice with
one of the State Medical Board members, John B.
Weiss, M.D. Counce was asked to provide an expert
opinion in general surgery even though neither Counce
nor Weiss practiced general surgery. The defendants
all knew and agreed, that Counce would give them an
opinion that, along with the opinion to be given by
Mabry, would be used, if necessary, to revoke Plaintiff’s
Arkansas Medical License if he continued to pursue
and/or did not voluntarily abandon his claims of racial
discrimination against Baptist Health Medical Center,
its agents, employees, and/or representatives.
51.
The other reviewer who was selected to review
the medical records of one of Plaintiff’s patients who
12

When responding to written discovery in the Pulaski Circuit
Court case, Baptist Health Medical Center denied that
Hearnsberger had ever served on the Surgery Control Committee
but he testified otherwise during his deposition testimony.

133a
had been treated by Plaintiff in February and March of
2009, was Dr. Charles Mabry. Mabry had been trained
by Defendant Hearnsberger when Mabry was a junior
resident during the time when Hearnsberger was a
chief resident at the University of Arkansas medical
school. In addition, at the time that he was preparing
his expert report regarding medical treatment
provided by Plaintiff in November 2010, Mabry was a
named defendant in at least two civil actions accusing
him of racial discrimination under 42 U.S.C. § 1981
and/or the Arkansas Civil Rights Act. See Davis v.
Jefferson Hospital Association, 685 F.3d 675,682 (8th
Cir. 2012),13 and Harper v. Jefferson Hospital
Association, 2011 U.S. Dist. LEXIS 58899, (E.D. Ark.
2011). The defendants all knew and agreed, that Mabry
would give them an opinion that, along with the opinion
to be given by Counce, would be used, if necessary, to
revoke Plaintiff’s Arkansas Medical License if he
continued to pursue and/or did not voluntarily abandon
his claims of racial discrimination against Baptist
Health Medical Center, its agents, employees, and/or
representatives.
52.
When Peggy Cryer, in her capacity as employee
of the Arkansas State Medical Board, acting outside the
scope of her lawful authority, at the direction of
Defendant Beck, as Chairman of the Board, submitted
the medical records to Counce and Mabry in November
13

During the appellate process involving Plaintiff’s appearances at
Baptist Medical Center in the May, 2010 - April, 2011 time-frame,
and in all of Plaintiff s appearances at the Arkansas State Medical
Board during the December 2010 - January, 2014 timeframe, Mr.
Gene McKissic was Plaintiffs counsel. McKissic was also counsel
for the Plaintiff in Davis v. Jefferson Hospital Association, 685
F.3d 675 (8th Cir. 2012).

134a
2010, nearly five months before the hospital’s appellate
process had run its course, Cryer also sent a transmittal
letter to them explaining the negligence standard to be
utilized when giving their expert opinion of the records
reviewed. The transmittal correspondence sent by
Cryer to Mabry and Counce also included a
memorandum notifying them of the definitions of the
standard
(“gross
negligence”
and
“ignorant
malpractice”) that was to be included in their report
because all of the defendants knew that during the
hospital disciplinary proceedings, there had been no
allegations made that Plaintiff had committed “gross
negligence” and/or “ignorant malpractice,” which would
be a finding necessary before the Board would be
lawfully authorized to take any disciplinary action
against Plaintiff under the Arkansas Medical Practices
Act. The November 12, 2010, transmittal letter sent to
Dr. Counce along with medical records requested that
the reviews be provided to the Board before November
19, 2010, in time for the December 2010 Medical Board
meeting, and informed him that, “we very much
appreciate your willingness to work with us to settle
this case promptly.”
53.
As a result of Plaintiff’s meeting with the
Medical Board in December 2010 the Medical Board
required that he get a proctor14 for all colon surgery
cases that he would perform in the future even though
there had never been a hearing noticed against Plaintiff
or any findings made against Plaintiff for a violation of
the Arkansas Medical Practices Act.
14

Accordingly, Plaintiff promptly obtained a board certified
proctor (Dr. Carl Gilbert) as directed by the Medical Board.

135a
54.
Immediately after Plaintiff exhausted the
appellate process at Baptist Health Medical Center,
and after he was notified that a final decision made by
the Baptist Health Board of Trustees upholding the
termination and revocation of his privileges had been
made on April, 12, 2011, Plaintiff filed a civil action (No.
60CV-11-1990) in Pulaski County Circuit Court against
Baptist Health Medical Center, and others on April 21,
2011, wherein he alleged, among other things, that he
had been discriminated against because of his race,
Black, in violation of the Arkansas Civil Rights Act of
1993. In addition, Plaintiff also alleged other state law
claims including, conspiracy, defamation, tortious
interference with contracts, and violations of rights
secured by the Arkansas Constitution.
55.
At the time that he served his Complaint on
April 21, 2011, (Civil Action No. 60CV-11-1990) Plaintiff
also served extensive, detailed discovery requests
wherein he sought discovery information regarding
other similarly situated physicians on the medical staff
at Baptist Health Medical Center so that during the
litigation of the case, he could easily establish that he
had been treated differently with respect to the
disciplinary actions taken against him, and/or so that he
could establish that the medical staff bylaws were
applied to him in a discriminatory manner with respect
to the termination of his medical staff privileges.
56.
On June 16, 2011, Peggy Cryer wrote Plaintiff a
letter which provided in relevant part as follows:

136a
The Board received notifica
notification
tion May 2,
2011 from Baptist affirming their
Hearing Committee’s recommendation to
terminate your staff appointment and
clinical privileges.
This letter will confirm the Board’s
decision and your agreement with the
Board at the June 99-10, 2011 meeting
appearance
appearance regarding this issue wherein
you agreed to:
•

•
•

Continue current agreement with the
Board regarding colon surgeries
wherein you will refrain from
performing colon procedures unless
assisted by another surgeon pending
resolution of your court case;
Return
Return in one (1) year for an update
(June 2012);
Have a proctor provide quarterly
reports to the Board on your
procedures.

57.
On June 17, 2011, a representative of the
Arkansas State Medical Board, acting at the direction
of Defendant Beck, Chairman, sent the reports
generated by Counce and Mabry to Baptist Health
Medical Center for its use in Civil Action No. 60CV-111990. In the transmittal letter, the Board’s
representative stated that, “Dr. Counts [Counce] and
Dr. Mabry do not have to testify or follow-up for
further testimony or work concerning these reviews

137a
unless they desire to.”
58.
When the Baptist Health Defendants finally
responded to Plaintiff’s discovery requests in (Civil
Action No. 60CV-11-1990) on July 14, 2011 after they
had been granted an extension of time by Plaintiff, they
objected to most of Plaintiff’s discovery requests, and
failed to respond to interrogatories or produce any
information regarding similarly situated physicians on
the medical staff. Plaintiff, through counsel, in (Civil
Action No. 60CV-11-1990) wrote a good faith letter in
an attempt to obtain discovery on August 31, 2011, and
on September 14, 2011, the Baptist Health Defendants
responded indicating that they would “stand by the
objections,” which were mostly based upon the
Arkansas Peer Review Privileges, Arkansas Code §§
16-46-106 and 20-9-503. Their response also indicated
that, “There is no exception under Arkansas law for
any type of discrimination [or civil rights] claim in the
statutes or case law. The court will have to decide this
issue [if Plaintiff wishes to file a motion to compel].”
59.
On October 3, 2011, Dr. Gilbert submitted a
report to the Medical Board which stated in relevant
part as follows:
I have served as a proctor for Dr. Victor
Williams since De
December
cember 2010. I have
proctored him during performance of
abdominal colon operations as well as
other surgical procedures at his request.
I have discussed the cases with him prior
to surgical interventions and in the
postoperative periods. His knowledge

138a
base is proficient in the areas of general
surgery, and I have found his technical
abilities to be proficient as well. I have
no concerns regarding his judgment or
surgical technique. He has handled
patients with multiple complex medical
issues
well.
In
summary,
y,
his
summar
preoperative and postoperative judgment
is appropriate and his technical skills
are proficient and within the standard of
care. For any questions please do not
hesitate to contact me.
60.
On November 16, 2011, Plaintiff filed a Motion to
Compel in Civil Action No. 60CV-11-1990.
61.
On November 22, 2011, the Hospital Defendants
filed a motion for partial summary judgment in Civil
Action No. 60CV-11-1990 regarding Plaintiff’s
Arkansas Constitutional claims, asserting the absence
of “state action.” On November 30, 2011, the Baptist
Health Defendants filed a response to Plaintiff’s Motion
to Compel in Civil Action No. 60CV-11-1990.
62.
On the next day, December 1, 2011, the
Arkansas State Medical Board voted to Notice Plaintiff
for a disciplinary hearing, even though they had told
him previously on June 16, 2011 to “Return in one (1)
year for an update (June 2012),” and even though there
were no other acts and/or omissions committed by
Plaintiff subsequent to June 2011 that would constitute
an alleged violation of the Arkansas Medical Practices

139a
Act, i.e., “gross negligence or ignorant malpractice.”
63.
After being continued, the hearing was rescheduled for June 8, 2012, and Plaintiff appeared at the
Arkansas State Medical Board on that date, along with
counsel, and several witnesses who were going to
testify on his behalf. Prior to June 8, 2012, Counce had
informed the Board that he could not attend the
scheduled hearing on June 8, 2012, but Counce’s
inability to attend was intentionally withheld from
Plaintiff. After Plaintiff arrived for the hearing, along
with counsel and several witnesses who were to testify
on his behalf, the Board voted to again postpone the
hearing and requested that Plaintiff cease to perform
any surgical procedures at all until he completed a
physician assessment program (PACE) and submit the
results to the Board upon completion of the program.
64.
One of the witnesses who appeared with Plaintiff
was Dr. Rhonda Tillman, who was a professor of
surgery at the University of Arkansas. Tillman had
given written expert opinions wherein she opined that
Plaintiff had not deviated from the applicable standard
of care during the disciplinary proceedings against
Plaintiff at Baptist Health Medical Center. In addition
to postponing the scheduled hearing because Counce
was not in attendance, the Board also refused to go
forward with the hearing because the defendants
already knew Tillman’s opinion, and because she was
present to testify, they knew that she would be able to
support her written opinion with further testimony
during the hearing, as both a surgeon, and as a
professor whose job is to teach future surgeons. In

140a
order to attack the weight of her previous written
opinions, Defendant Hearnsberger called several of Dr.
Williams’ former professors, even though making such
calls would not be encompassed by his role as a member
of the Board who would sit in judgment of Plaintiff with
respect to the four cases which were prematurely
pending before the Board. Further, contrary to
established Board policy with respect to other persons
who would be authorized to conduct such
investigations, if necessary, Hearnsberger failed to
make a record of his communications with these former
professors, even though he sent a false, defamatory
email memorializing negative comments purportedly
made by one of the professors in order to create bias to
influence the Board members who were not surgeons.15
During the entire time period that Hearnsberger had
been a member of the Arkansas State Medical Board,
he had never called former professors in order to
investigate other allegedly incompetent physicians who
had appeared before the Board after losing their
medical staff privileges at a hospital.
65.
Counsel for Plaintiff made calls to the PACE
physician assessment program in San Diego, California
that was recommended by the Arkansas Medical Board
at the June 8, 2012 meeting. As a result of his making
this inquiry, and receiving correspondence regarding
the San Diego PACE program, Plaintiff and his counsel
became aware that the Board had attempted to create
15

One of Plaintiff’s former professors, Dr. Eidt, according to
Hearnsberger, referred to Plaintiff as “hard-headed and poor
resident.” This statement is/was false, as Plaintiff’s student file at
the University of Arkansas contains a favorable written evaluation
from Dr. Eidt covering the entire time period that Plaintiff was a
resident working under Eidt at the University of Arkansas.

141a
bias against Plaintiff with the PACE program with the
objective of preventing Plaintiff from having a fair and
objective assessment.
66.
On June 18, 2012, the trial court in Civil Action
No. 60CV-11-1990 held a hearing on both Plaintiff’s
Motion to Compel, and Defendants’ Motion for Partial
Summary Judgment. During the time period that both
of these motions were pending for resolution by the
trial court, a representative of the Baptist Health
Defendants attempted to coerce Plaintiff into
voluntarily dismissing his cause of action (Civil Action
No. 60CV-11-1990), and stated to counsel for Plaintiff
(in the presence of Plaintiff) that if he didn’t dismiss his
lawsuit, Plaintiff would have to either “admit that he
had done something wrong to the Arkansas State
Medical Board, or lose his medical license.”
67.
On June 29, 2012, the trial court in Civil Action
No. 60CV-11-1990 entered an Order on Plaintiff’s
Motion to Compel, wherein he granted the motion with
respect to 7 discovery requests, denied the motion with
respect to 37 discovery requests, and ordered that
certain “documents and information were to be
produced to the court in-camera to determine the
privilege,” with respect to the remaining 9 discovery
requests that were subject to Plaintiff’s motion to
compel.
68.
On July 9, 2012, the trial court in Civil Action
No. 60CV-11-1990 entered its Order Granting
Defendants’ Motion for Partial Summary Judgment.

142a
69.
On August 2, 2012, the trial court in Civil Action
No. 60CV-11-1990 denied Plaintiff’s motion for
reconsideration of discovery requests that had sought,
among other things, what Plaintiff thought to be
discoverable information relevant to showing racial
disparities that would be necessarily contained solely in
certain peer review records exclusively in the
possession of Baptist Health Medical Center.
70.
In December 2012 Plaintiff was recertified by
the American Board of Surgery with his recertification
set to expire in July 2023.
71.
In February 2013, Plaintiff notified the Arkansas
State Medical Board about his recertification and
requested that the same be considered in lieu of him
having to complete a physician assessment program.
72.
On March 5, 2013, upon consideration of
Plaintiff’s Motion to Voluntary Non-Suit his cause of
action as a matter of right, the trial court in Civil
Action No. 60CV-11-1990 entered an Order of
Voluntary Dismissal, and dismissed Plaintiff’s cause of
action without prejudice to re-file, in accordance with
Ark. R. Civ. P. 41.
73.
On April 4, 2013, the Arkansas State Medical
Board voted unanimously to commend Plaintiff for
passing the American Board of Surgery exams, but
informed him that he must complete the physician

143a
assessment program or have a hearing before his
license renewal date in November 2013.
74.
On August 1, 2013, the Arkansas State Medical
Board voted to proceed with a disciplinary hearing
against Plaintiff in October 2013 unless Plaintiff
successfully completed the physician assessment
program.
75.
On August 2, 2013, Plaintiff applied to attend the
KSTAR Physician Assessment Program at Texas A&M
University Health Science Center. He paid a total
amount of $ 13,000.00 in costs and fees for the
assessment. He successfully completed the testing
dates on September 5-6, 2013, and the KSTAR Meeting
and Determinations on September 30, 2013. The Final
Report was prepared on October 9, 2013, and the
surgeon who interviewed Plaintiff during his
assessment indicated that he would not place any
restrictions on Plaintiff’s ability to continue his surgical
practice.
76.
In December 2013, the Arkansas State Medical
Board voted to allow Plaintiff to renew his medical
license and accept the KSTAR evaluation in lieu of the
PACE assessment program recommended by the
Board, but the Board further voted that clarification
was required to be received from KSTAR and
presented at the Board’s February 6, 2014 Board
meeting.
77.

144a
On December 23, 2013, the Board, through
counsel, wrote the Medical Director of the KSTAR
program and provided certain information for his
consideration, to include, a “[c]opy of a lawsuit that was
filed involving Baptist Medical Center, Little Rock, and
Dr. Williams.” Notably absent from the materials
submitted by the Board to KSTAR was any
information related to the surgical cases at issue.
According to the correspondence from the Board, it was
furnishing the supplemental information to KSTAR “in
the hopes that it would give ... a more complete picture
of what has happened with Dr. Williams.”
78.
On February 25, 2014, Plaintiff re-filed his action
against Baptist Health Medical Center in Pulaski
County Circuit Court, Civil Action No. 60CV-14-808,
and added the Arkansas State Medical Board as a
named defendant because the Board failed to accept
Plaintiff’s completion of the KSTAR program, and in
light of the other facts and circumstances surrounding
Plaintiff’s treatment by the State Medical Board since
October 2010, even though there had been no hearing
held and no finding made by the Board that Plaintiff
had violated the Arkansas Medical Practices Act. See
A.C.A. § 17- 95-409 (a)(2)(G) provides that the
Arkansas State Medical Board may revoke an existing
license, impose penalties as listed in § 17-95-410, or
refuse to issue a license in the event the holder or
applicant, as the case may be, has committed any of the
acts or offenses defined in this section..
79.
Based upon meetings with the Arkansas State
Medical Board, and notwithstanding that there had

145a
never been a hearing held where Plaintiff was
permitted to cross-examine the witnesses against him,17
there had already been several adverse actions taken
against Plaintiff by the Board which affected his ability
to engage in the practice of medicine: (1) Plaintiff
performed surgical procedures with a proctor from
December 2010 through December 2011; (2) Plaintiff
ceased to perform any surgical procedures after his
June 8, 2012, appearance before the Board pending
completion of the physician assessment program; and
(3) Plaintiff attended and completed the physician
assessment program at Texas A&M University in
September 2013.
16

80.
The Arkansas State Medical Board was served
with the lawsuit (Civil Action No. 60CV-14- 808) that
was filed by Plaintiff on February 25, 2014, by personal
service on Beck, Chairman of the Arkansas State
Medical Board on March 7, 2014. The Complaint,
received by Chairman Beck on March 7, 2014 clearly
16

A.C.A. § 17-95-410 (e)(1) provides in relevant part that, “[a]t the
conclusion of the hearing, the board shall first decide whether the
accused is guilty of the charges against him or her and then decide
on appropriate disciplinary action.” Section (e)(3) of the same
statute provides that if the accused is found guilty of the charges
against him or her, then the board is authorized to take one or
more of specifically designated adverse actions.
17
A.C.A. § 17-95-410(a) provides in relevant part that, “[a]ny
person may file a complaint with the Arkansas State Medical
Board against any person having a license to practice medicine in
this state charging the licensee with ... [t]he commission of any of
the offenses enumerated and described as unprofessional conduct
in § 17-95-409.” To date, there has/had been no complaint filed
against Plaintiff with respect to the four cases at issue that
complies with A.C.A. § 17-95-410(a).

146a
indicated that McKissic was no longer representing
Plaintiff, and that Plaintiff was seeking to have the trial
court in Civil Action No. 60CV-14-808 enjoin any
further proceedings against Plaintiff by the Board.
81.
In the Complaint (Civil Action No. 60CV-14808), in addition to expressly pleading for injunctive
relief and asking the trial court to enjoin the upcoming
scheduled hearing, Plaintiff also specifically referenced
that, “[o]n January 22, 2014, the Arkansas State
Medical Board wrote counsel for Plaintiff indicating
that, the hearing involving Dr. Williams has been
rescheduled to the April Board meeting, and that, “as
soon as I have the exact date and time, I will let you
know.”
82.
After reading this statement in the Complaint,
apparently the Board, through its attorney contacted
Plaintiff’s former counsel, Gene McKissic and learned
that Plaintiff had not been served with notice18 of the
specific date and time for a hearing. McKissic informed
the Board’s counsel that Plaintiff had in fact retained
new counsel, and that the Board needed to contact the
new counsel with any questions about the lawsuit (Civil
Action No. 60CV-14-808) and/or any matters pertaining
to Plaintiff’s medical license and the Arkansas State
Medical Board.

18

See A.C.A. § 17-95-410(c)(2), which requires that the Board send
“by registered mail to the person’s last known address of record a
copy of the order and notice of hearing along with a written notice
of the time and place of the hearing ...”

147a
83.
After being told in March 2014, that Mr.
McKissic no longer represented Plaintiff, and without
otherwise sending written notice to Plaintiff that it
would go forward with a hearing on April 3, 2014,
notwithstanding Plaintiff’s request for injunctive relief
in Civil Action No. 60CV-14-808, the Board, went
forward with a hearing in Plaintiffs absence and
revoked his medical license in April 2014. At the time
that the Arkansas State Medical Board revoked
Plaintiff’s medical license in April 2014, as a result of
the hearing held on April 4, 2014, the defendants knew
that Plaintiff had no knowledge that the hearing was to
be held on that date and they wanted to go forward
anyway so that Plaintiff could not be present to defend
himself.19
84.
On April 30, 2014, the Board submitted a report
to the National Practitioner Data Bank stating that the
Board had revoked Plaintiff’s medical license because
Plaintiff had “violated the Medical Practices Act, in that
he exhibited gross negligence and ignorant malpractice
in the manner in which he performed diagnostic workup
and surgical procedures.”
85.
Plaintiff filed an appeal and a Petition for
Judicial Review of the Board’s Order revoking his
medical license in Pulaski Circuit Court on May 2, 2014,
19

See A.C.A. § 17-95-410 (e)(1), (“At the conclusion of the hearing,
the board shall first decide whether the accused is guilty of the
charges against him or her and then decide on appropriate
disciplinary action.”)

148a
Civil Action No. 60CV-14-1739. On that same date,
Plaintiff filed a Motion to Stay Order Revoking Medical
License, and attached thereto an Affidavit of Gene
McKissic, which clearly evidenced that Plaintiff had not
been notified of the date and time for the hearing that
was held in his absence.
86.
On April 15, 2015, just two days prior to a
scheduled hearing on Plaintiff’s Motion for Declaratory
Judgment, that had been filed in both Civil Action No.
60CV-14-1739 and Civil Action No. 60CV-14-808 on
December 1, 2014, and Plaintiff’s Motion to Compel
discovery from the Arkansas State Medical Board that
was filed in Civil Action No. 60CV-14-808 on March 3,
2015, the trial court in entered an Order for the parties
to engage in a settlement conference to address the
issues raised in both cases.
87.
The parties held settlement conferences on May
12, 2015, and on June 4, 2015, and a tentative agreement
was reached with proposed consent orders to be drafted
and entered in both Civil Action No. 60CV-14-808, and
Civil Action No. 60CV-14-1739. However, after the
parties exchanged proposed “consent orders,” on
August 19, 2015, Plaintiff filed a motion to enforce
settlement agreement because the Board rejected
Plaintiff’s proposed order, and the Board’s proposed
order contained terms different from those agreed to by
Plaintiff during the settlement conference.
88.
On October 5, 2015, the trial court entered an
order directing the parties to execute the proposed
order prepared by the Board finding that “it properly

149a
reflects the settlement agreement between the parties
to this action.”20 Under the Board’s consent order,
Williams dismissed Civil Action No. 60CV-14-1739 with
prejudice, and dismissed the Board defendants from
Civil Action No. 60CV-14-808 with prejudice. The
Board reinstated Plaintiff’s medical license and agreed
to postpone disposition and/or disciplinary action to be
taken on the four surgical cases at issue until the final
disposition of Civil Action No. 60CV-14-808. The
Board’s consent order was executed as ordered and
filed on November 3, 2015.
89.
On November 3, 2015, the Board submitted a
report to the National Practitioner Data Bank stating
that effective October 30, 2015, there was a “revision to
state licensure action,” and that Plaintiff’s license was
“restored or reinstated, conditional,” and that the basis
for initial action was, “substandard or inadequate care.”
90.
Because during the settlement discussions, it
was clear that Plaintiff had no notice of the April 2014
hearing, and that Plaintiff’s offer of settlement was
based upon the voiding and rescinding of the National
Practitioner Data Bank report, and his being placed in
the same position as he was in before the April hearing
took place, Plaintiff disputed the accuracy of the report
pursuant to the procedures authorized by the
Department of Health and Human services. After
20

To the extent that it relates to other errors to be enumerated in
Plaintiff’s appeal of Civil Action No. 60CV-14-808, this Order may
too be subject to appeal, but the decision regarding whether there
will be an appeal of this Order has not yet been made, and is not
otherwise material to the allegations being raised in this federal
action.

150a
requesting and receiving correspondence from both
Plaintiff and the Board, the Secretary of the U.S.
Department of Health and Human Services agreed
with Plaintiff and on November 25, 2016, ordered that
both the April 30, 2014 National Practitioner Data Bank
reports submitted and the November 3, 2015 report by
the Board against Plaintiff be voided because they were
“not required to be filed; the action does not meet the
legal reporting criteria.”
91.
After it had first refused to void the data bank
report itself, and after the Department of Health and
Human Services unilaterally voided the report
submitted by the Arkansas State Medical Board
against Plaintiff on November 25, 016, on December 6,
2016, the Arkansas State Medical Board again
submitted a report to the National Practitioner Data
Bank stating that there was a “limitation or restriction”
on Plaintiff’s medical license effective October 30, 2015,
stating as its basis, the Consent Order that Plaintiff
was ordered to execute by the trial court in Civil
Action No. 60CV-14- 808.
92.
The publishing of these reports by the Arkansas
State Medical Board was done at the direction of
Defendant Beck, acting as Chairman of the Arkansas
State Medical Board, and was intentional, and done
with malice, with the specific intent to interfere with
Plaintiff’s ability to earn a living by engaging in the
practice of medicine in the State of Arkansas.
93.
Plaintiff engaged in protected activity when he

151a
filed his Complaint for Damages and Injunctive Relief
in Pulaski Circuit Court (Civil Action No. 60CV-14-808)
on February 24, 2014, wherein he alleged among other
things, racial discrimination, a matter of public concern.
In Civil Action No. 60CV-14-808, he alleged that the
named defendants, to include members of the Arkansas
State Medical Board, an agency of the state of
Arkansas, who had used their positions to engage in
racial discrimination against Plaintiff on the basis of his
race, Black.
94.
Because they knew that Plaintiff would not
appear at the hearing held on April 3, 2014, due to a
lack of proper notice of the same, as part of the
conspiracy to retaliate against Plaintiff for complaining
about racial discrimination, the agents, employees,
and/or representatives of the Arkansas State Medical
Board went forward with the hearing and revoked
Plaintiff’s medical license in retaliation for him filing
Civil Action No. 60CV-14-808.
95.
In addition to terminating Plaintiff’s ability to
continue to engage in the practice medicine and earn a
living, the defendants engaged in the conspiracy to
revoke Plaintiff’s medical license not in furtherance of
quality health care, but in order to make it more
difficult for him to pursue his claims against Baptist
Health Medical Center, and the other named
defendants in Civil Action No. 60CV-14- 808.
96.
Like
the
individual
defendants
who
discriminated against Plaintiff on the basis of his race,

152a
Black, during the disciplinary proceedings commenced
against him at Baptist Health Medical Center, Little
Rock, the Arkansas State Medical Board’s revocation of
Plaintiff’s
medical
license
was
knowingly
discriminatory, arbitrary and capricious, as the Board
was used maliciously, and intentionally to deprive
Plaintiff of his livelihood, and to treat Plaintiff
differently than other similarly situated white
physicians who committed acts and/or omissions far
worse than those alleged to have been committed by
Plaintiff.
97.
The Board’s intent is clear as evidenced by the
adverse actions suffered by Plaintiff as a result of the
false and malicious adverse action reports submitted by
the Arkansas State Medical Board to the National
Practitioner Data Bank. As demonstrated below, these
reports were published to various entities to which
Plaintiff sought to engage in business and/or
contractual relationships where it was vital that he
utilize his Arkansas State Medical license.
98.
On July 26, 2016, Plaintiff’s application to enter
into a provider contract with Cigna HealthSpring was
denied because it queried and received publication of
the false National Practitioner Data Bank report
submitted by the Arkansas State Medical Board.
99.
On August 25, 2016, Plaintiff’s application to
enter into a network provider contract with Aetna was
denied because it queried and received publication of
the false National Practitioner Data Bank report

153a
submitted by the Arkansas State Medical Board.
100.
On September 21, 2016, QualChoice denied
Plaintiff’s application to become a contract network
provider due to “licensing board information,” and
“privileging information,” obtained because it queried
and received publication of the false National
Practitioner Data Bank report submitted by the
Arkansas State Medical Board.
101.
On November 4, 2016, NovaSys Health Network
denied Plaintiff’s application to become a contract
network provider because it concluded that “sanctions”
had been imposed against Plaintiff by the Arkansas
State Medical Board, after it queried and received
publication of the false National Practitioner Data Bank
reports submitted by the Arkansas State Medical
Board.
102.
On March 7, 2017, WellCare denied Plaintiff’s
application to become a contract participating provider
because of “State license adverse action,” after it
queried and received publication of the false National
Practitioner Data Bank reports submitted by the
Arkansas State Medical Board.
COUNT I
103.
Plaintiff adopts paragraphs 1 through 102, and
incorporates them in Count I, as if fully stated herein.

154a
104.
42 U.S. C. § 1981 provides that, “All persons
within the jurisdiction of the United States shall have
the same right in every State and Territory to make
and enforce contracts, to sue, be parties, give evidence,
and to the full and equal benefit of all laws and
proceedings for the security of persons and property as
is enjoyed by white citizens, and shall be subject to like
punishments, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other.”
105.
The acts hereinbefore alleged against the
defendants constitute a violation of 42U.S. C. § 1981 for
discrimination and retaliation, and the defendants are
liable therefore jointly, and severally, in their individual
and personal capacities.
COUNT II
106.
Plaintiff adopts paragraphs 1 through 105, and
incorporates them in Count II, as if fully stated herein.
107.
The acts hereinbefore alleged constitute a
violation of 42U.S.C. §§ 1981, and 1983 for
discrimination and retaliation, and defendants are liable
therefore jointly, and severally, in their individual and
personal capacities because they engaged in a
conspiracy with defendants Beck and Hearnsberger,
who acted under the color and authority of state law, to
effectuate the end result of the conspiracy to revoke
Plaintiff’s Arkansas medical license in retaliation
against Plaintiff for filing Civil Action No. 60CV-14-

155a
808, wherein he complained about racial discrimination,
a matter of public concern.
108.
The acts hereinbefore alleged constitute a
violation of 42U.S.C. § 1983 for retaliation under the
First Amendment of the United States Constitution,
and defendants are liable therefore jointly, and
severally, in their individual and personal capacities
because they engaged in a conspiracy with defendants
Beck and Hearnsberger, who acted under the color and
authority of state law, to effectuate the end result of
the conspiracy to revoke Plaintiff’s Arkansas medical
license in retaliation against Plaintiff for seeking
redress and requesting assistance from the Arkansas
State Medical Board to investigate perceived racial
discrimination. Plaintiff had filed a written request with
the Arkansas State. Medical Board seeking help in June
2010, after the adverse action had been taken against
him by Baptist Health Medical Center in April 2010.
Baptist Health Medical Center filed a report with the
National Practitioner Data Bank two weeks later on
June 24, 2010 even though it maintained throughout the
litigation in Civil Action No. 60CV-14-808, that Plaintiff
was never summarily suspended, and even though the
adverse action taken by Baptist Health Medical Center
did not become final until April 2011.
109.
These acts hereinbefore alleged constitute a
violation of 42U.S.C. § 1983 for retaliation under the
First Amendment of the United States Constitution,
and defendants are liable therefore jointly, and
severally, in their individual and personal capacities
because they engaged in a conspiracy with defendants

156a
Beck and Hearnsberger, who acted under the color and
authority of state law, to effectuate the end result of
the conspiracy to revoke Plaintiff’s Arkansas medical
license in retaliation against Plaintiff for filing Civil
Action No. 60CV-14-808, wherein he complained about
racial discrimination, a matter of public concern.
COUNT III
110.
Plaintiff adopts paragraphs 1 through 109, and
incorporates them in Count III, as if fully stated herein.
111.
The acts hereinbefore alleged constitute a denial
of equal protection of the laws, as well as both
procedural and substantive due process in violation of
42U.S.C. § 1983 and the Fourteenth Amendment of the
United States Constitution, and defendants are liable
therefore jointly, and severally, in their individual and
personal capacities because they engaged in a
conspiracy with defendants Beck and Hearnsberger,
who acted under the color and authority of state law, to
effectuate the end result of the conspiracy to deprive
Plaintiff of a property right, by revoking his Arkansas
medical license because of his race without giving him
adequate notice and a meaningful opportunity to first
challenge the charges against him.
112.
Further, the acts hereinbefore alleged constitute
a denial of equal protection of the laws, as well as both
procedural and substantive due process in violation of
42U.S.C. § 1983 and the Fourteenth Amendment of the
United States Constitution, and defendants are liable

157a
therefore jointly, and severally, in their individual and
personal capacities because they engaged in a
conspiracy with defendants Beck and Hearnsberger,
who acted under the color and authority of state law, to
effectuate the end result of the conspiracy to deprive
Plaintiff of the liberty interest in his professional
reputation because of his race by publishing
stigmatizing statements about him related to the
revocation of his medical license without ever giving
him the opportunity to refute the same.
COUNT IV
113.
Plaintiff adopts paragraphs 1 through 112, and
incorporates them in Count IV, as if fully stated herein.
114.
42 U.S.C. § 1982 provides that, “All citizens of
the United States shall have the same right, in every
State and Territory, as is enjoyed by white citizens
thereof to inherit, purchase, lease, sell, hold, and convey
real and personal property.”
115.
The acts hereinbefore alleged against the
defendants constitute a violation of 42 U.S.C. § 1982 for
discrimination with the intent to deprive Plaintiff of his
ability to fully hold, use and enjoy his real property
located at 9712 W. Markham Street, Little Rock,
Arkansas based upon his race, Black, and the
defendants are liable therefore jointly, and severally, in
their individual and personal capacities.
COUNT V

158a
116.
Plaintiff adopts paragraphs 1 through 115, and
incorporates them in Count V, as if fully stated herein.
117.
The defendants are liable individually, jointly
and severally pursuant to the Arkansas state law tort
of abuse of process for revoking Plaintiff’s Arkansas
medical license in order to coerce him to drop and/or to
deter him from continuing to pursue the civil claims
alleged in Civil Action No. 60CV- 14-808.
COUNT VI
118.
Plaintiff adopts paragraphs 1 through 117, and
incorporates them in Count VI, as if fully stated herein.
119.
The defendants are liable individually, jointly
and severally pursuant for tortious interference with
contracts for their purposeful, and malicious conduct in
knowingly revoking Plaintiff’s Arkansas medical license
in his absence, without providing adequate and proper
notice, and subsequently reporting stigmatizing
statements relating thereto in order to interfere with
Plaintiff’s contractual and business relationships with
his patients, insurance providers, and other hospitals.
120.
The defendants caused the revocation of
Plaintiff’s Arkansas medical license in April 2014 with
the intent to interfere with Plaintiff’s ability to fulfill
his contractual obligations with his patients, insurers,
and business expectancy to continue to provide

159a
complete, unrestricted, medical and surgical services to
his patients at his Markham Street medical office.
COUNT VII
121..
Plaintiff adopts paragraphs 1 through 120, and
incorporates them in Count VII, as if fully stated
herein.
122..
The defendants are liable individually, jointly
and severally for defamation with respect to any and all
such false, defamatory statements that relate to
Plaintiff s competency as a physician and that relate to
the revocation of Plaintiff’s Arkansas medical license in
April 2014, and that have been and/or may be published
to any hospital, insurance provider, insurer, patient, or
other person(s) from the date beginning one year prior
to the filing of this action.
WHEREFORE, Plaintiff prays for temporary
and permanent injunctive relief from the Court and
judgment against the defendants as follows:
(A) That the Plaintiff have permanent injunctive
relief against all of the defendants preventing
and precluding the continuation of any
conduct or actions taken in furtherance of the
conspiracy being practiced against Plaintiff,
including, but not limited to reinstatement of
Plaintiff’s medical staff privileges;
(B) That the Plaintiff have an injunction against
the Arkansas State Medical Board requiring
the Board to correct the reports that it has

160a
sent to the National Practitioner Data Bank;
(C) That Plaintiff recover compensatory damages
from the defendants individually, jointly and
severally, in an amount in excess of
$75,000.00 and said amount to be determined
at trial;
(D) That Plaintiff recover exemplary and/or
punitive damages from the defendants
individually, jointly, and severally, in an
amount to be determined at trial;
(E) That Plaintiff be granted a trial by jury with
respect to all issues triable to a jury;
(F) That Plaintiff recover all costs and attorneys
fees associated with the prosecution of this
action;
(G) That the defendants be enjoined from further
retaliating against the Plaintiff;
(H)That all of the defendants to include all
Baptist Hospital Committees and the
Arkansas Medical Board be ordered to make
and keep accurate, reliable and certifiable
minutes at each stage of any investigation;
and
(I) That Plaintiff have such other and further
relief as the Court deems equitable, just and
proper.
Respectfully submitted,

161a
By: __________________________
André K. Valley ABN 96225
André K. Valley, Esq., P.A.
423 Rightor Street, Ste. 2
Helena, AR 72342
andrekvalley@gmail.com
870-338-6487 Ext.2 Telephone
870-338-8030 Facsimile

162a
Case No. 18-2423
_______________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______________________________________________
VICTOR B. WILLIAMS, M.D., Appellant,
vs.
Appellees.
_______________________________________________
Appeal from the U.S. District Court for the Eastern
District of Arkansas Honorable James Moody, District
Judge Case No. 4:17-CV-205-JM
_______________________________________________
PETITION
FOR
REHEARING
AND/OR
REHEARING EN BANC
_______________________________________________

Andre K. Valley
Law Office of Andre K. Valley, P.A.
423 Rightor, Suite # 2
Helena-West Helena, AR 72342
Telephone: 870-338-6487 Ext. 2
Facsimile: 870-338-8030
Andrekvalley@gmail.com
Eric E. Wyatt
George W. McGriff

163a
George W. McGriff & Associates
600 Colonial Park Drive
Roswell, Georgia 30075-3746
Telephone: 770-649-7160
dcgwm@mindspring.com

COUNSEL FOR APPELLANT
NOW COMES PLAINTIFF, by and through
counsel, and pursuant to Rules 35, and 40 of the Federal
Rules of Appellate Procedure, and files this his Petition
for Rehearing and/or Rehearing En Banc. In support of
his petition, Plaintiff states that the panel decision
conflicts with the following cases decided by the United
States Supreme Court: England v. Louisiana State
Board of Medical Examiners, 375 U.S. 411 (1964);
Wallace v. Kato, 549 U.S. 384 (2007); Dennis v. Sparks,
449 U.S. 24 (1980); and Amtrak v. Morgan, 536 U.S. 101,
110 (2002); as well as the following cases decided by the
Eighth Circuit Court of Appeals: Ripplin Shoals Land
Co., LLC v. United States Corps of Eng’rs, 440 F.3d
1038 (8th Cir. 2006); Garmon v. Foust, 668 F.2d 400 (8th
Cir. 1982); Madison v. IBP, Inc., 330 F.3d 1051 (8th Cir.
2003), and Greenwood v. Ross, 778 F.2d 448 (8th Cir.
1985). Therefore, consideration by the full court is
necessary to secure and maintain uniformity of the
court’s decisions. Specifically, the panel’s decision
affirming the district court’s orders baring Plaintiff’s
claims on the grounds of res judicata in whole or in
part, is inconsistent with the holdings in these cases as
they apply to the claims raised in Plaintiff’s federal
cause of action.

164a
The panel’s decision contravenes the holding in
Ripplin Shoals Land Co., LLC v. United States Corps
of Eng’rs, 440 F.3d 1038, 1042 (8th Cir. 2006) that, “res
judicata does not apply to claims that did not exist
when the first suit was filed.” See also Appellant’s
Brief, pp. 26-27. The Court in Ripplin also rejected the
res judicata defense because, “the same cause of action
is not involved in both cases.” Ripplin, at 1042.
Contrary to the district court’s holding otherwise,
Plaintiff contends that his motion for rehearing should
be granted because a new, separate and independent
cause of action arose under federal law when the
Arkansas State Medical Board revoked his medical
license in April 2014, without regard to his then
pending state court claims.
“Section 1983 provides a cause of action for
deprivation of civil rights that in no way depends upon
state common law. A litigant may pursue a section 1983
action rather than, or in addition to, state remedies.”
Garmon v. Foust, 668 F.2d 400, 406 (8th Cir. 1982). The
United States Supreme Court in Wallace v. Kato, 549
U.S. 384, 388 (2007) held that, “[w]hile we have never
stated so expressly, the accrual date of a § 1983 cause of
action is a question of federal law that is not resolved
by reference to state law.” In Wallace, while explaining
the difference between false arrest and false
imprisonment, the Court noted that, “[i]f there is a false
arrest claim, damages for that claim cover the time of
detention up until issuance of process and arraignment,
but not more. From that point on, any damages
recoverable must be based on a malicious prosecution
claim and on the wrongful use of judicial process rather
than detention itself.” Id., at 390.
Similarly here, damages recoverable from the
alleged intentional, false reporting of the 2014 medical

165a
license revocation as alleged in the abuse of process
claim1 are distinct from the damages arising from the
revocation itself, which caused a separate, but related
injury to Plaintiff’s liberty interest in his professional
reputation. See Fleury v. Clayton, 847 F.2d 1229, 1233
(7th Cir. 1988), (“We conclude that a censure of a
physician in Illinois deprives the physician of part of the
property interest in his license–both because Illinois
has created a legitimate claim of entitlement to a ‘clean’
license and because the formal censure, designed to
deter repetition of the conduct in question may
produce legal consequences in Illinois.”) Unlike the
physician in Fleury,2 in addition to the continuous
reports of the improper revocation of his medical
license, Plaintiff meets the stigma-plus requirements to
warrant relief under the Due Process Clause because in
addition to the false reports that he committed “gross
negligence,” and/or “ignorant malpractice,” Plaintiff
was also without a license to practice medicine for over
a year from April 14, 2014 until December 15, 2015. See
Appellant’s Brief, pp. 58-59.
It is undisputed that Plaintiff did not receive
notice of the April 2014-hearing in accordance with
A.C.A. § 17-95-410(c)(2).3
See also Appellant’s Brief,
pp. 13-14. It is also undisputed that immediately after
1
See Peterson v. Worthen Bank & Trust Co., N.A., 296 Ark. 202,
203 (1988), (“One who uses legal process, whether criminal or civil,
against another to accomplish a purpose for which it is not
designed, is liable to another for the pecuniary loss caused
thereby.”)
2
See Fleury, supra, at 1231, (“Because Illinois did not restrict
Fleury’s ability to practice, we do not have the stigma-plustermination that might activate the Due Process Clause...”)
3
See Fleury, supra, at 1231, “If Illinois did not furnish Fleury the
process its statutes require before imposing professional discipline,
this is a matter of state law rather than federal law.”

166a
Plaintiff’s medical license was revoked in April 2014,
Plaintiff filed a motion to stay4 the order revoking his
medical license with the medical board and provided
evidence from his former counsel establishing that
Plaintiff had not been notified that the hearing would
be held on that date. See Appellant’s Brief, pp. 14-15.
After his motion to stay was denied by the Arkansas
State Medical Board, Plaintiff had no Arkansas medical
license during the time period that he litigated two
separate state court actions from April 2014 until
December 2015. Finally, as evidenced by the documents
filed in Plaintiff’s federal action, Plaintiff’s ability to
engage in the practice of medicine continues to be
effected by the Arkansas State Medical Board’s
improper reporting of the 2014 revocation of his medical
license notwithstanding the Board’s 2015 agreement
that his medical license should be reinstated, and that
he should be treated “as if the hearing didn’t happen.”
See Appellant’s Reply Brief, pp. 21-22.
Therefore, because the injuries to Plaintiff
arising from the “discrete act” of the improper
revocation of his medical license are continuing and
ongoing, and because they first accrued after he filed
his in state court cause of action, Plaintiff had a right5 to
4

See Farmer v. Everett, 648 S.W.2d 513, 517 (Ark. App. 1983),
(“We emphasize here that the right to cross-examine witnesses in
a proceeding before the Industrial Commission must be
distinguished from the opportunity to cross-examine to the extent
that though the right can be waived by the claimant, the
opportunity cannot be restricted or denied claimant by the
Commission.”)
5

As stated in Appellant’s Brief at p. 28, Appellant did not present
his section 1983 claims arising from the revocation of his medical
license in April, 2014, to include the retaliation claim, to the state
court in Williams I for disposition, but instead expressly reserved

167a
elect and wait and bring his section 1983 cause of action
in federal court after it accrued and before the
expiration of the statue of limitations expired,
notwithstanding his pending state court cause of action.
“Under the traditional rule of accrual . . . the tort cause
of action accrues, and the statute of limitation
commences to run, when the wrongful act or omission
results in damages. The cause of action accrues even
though the full extent of the injury is not then known or
predictable.” Id., at 391.
By affirming the district court’s holding that
Plaintiff’s claims are barred by the doctrine of res
judicata, the panel’s opinion implicitly holds that the
April 2014 revocation of Plaintiff’s Arkansas medical
license without a hearing is not a “discrete act,” as that
term is defined by Eighth Circuit Court of Appeals and
United States Supreme Court precedent, entitling
Plaintiff to the right to file a separate cause of action in
federal court. See Madison v. IBP, Inc., 330 F.3d 1051,
1061 (8th Cir. 2003), (“discrete acts are easy to identify
and each act constitutes a separate actionable unlawful
employment practice, whereas hostile environment
claims by their very nature involved repeated
conduct.”); Amtrak v. Morgan, 536 U.S. 101, 110 (2002),
(“A discrete retaliatory or discriminatory act ‘occurred’
on the day that it ‘happened.’”)

any such claims related to the April, 2014 revocation of his medical
license pursuant to England v. Louisiana State Board of Medical
Examiners, 375 U.S. 411, 421 (1964).

168a
CONCLUSION
As a result of the ongoing harm that Plaintiff
continues to suffer as a result of the licensure
revocation reporting by the Board, Plaintiff’s petition
for rehearing should be granted, he should be granted
appropriate relief, to include at the very least, a ruling
that Plaintiff’s state law claims should be stayed and/or
dismissed without prejudice since the medical cases at
issue have been remanded by the state court to the
Arkansas State Medical Board for disposition after final
resolution of Plaintiff’s state court action, which
currently remains pending in the Arkansas appellate
courts. “The court may decide sua sponte that
abstention is proper.” Edwards v. Arkansas Power &
Light, 683 F.2d 1149, 1156 FN9 (8th Cir. 1982).
Respectfully submitted, this 12th day of June 2018.
By: s/s Eric E. Wyatt, Esq.
Eric E. Wyatt
Georgia Bar No. 778955
George W. McGriff
Georgia Bar No.: 493225
GEORGE W. MCGRIFF & ASSOCIATES
600 Colonial Park Drive
Roswell, Georgia 30075-3746 (770) 649-7160
Email: ericewyatt@icloud.com
Andre K. Valley
423 Rightor, Suite #2
Helena-West Helena, AR 72342
870-338-6487 Ext.2 Telephone
870-338-8030 Facsimile
Andrekvalley@gmail.com

169a
7/15/2019
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-2423
Victor Bernard Williams, M.D.
Appellant
v.
Baptist Health, doing business as Baptist Health
Medical Center, et al.
Appellees
_________________________________________________
Appeal from U.S. District Court for the Eastern
District of Arkansas - Little Rock
(4:17-cv-00205-JM)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
July 15, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

